No. 20-

In the Supreme Court of the United States
BRISTOL-MYERS SQUIBB CO., SANOFI-AVENTIS U.S. LLC,
SANOFI US SERVICES, INC., FORMERLY KNOWN AS SANOFIAVENTIS U.S. INC., AND SANOFI-SYNTHELABO INC.,
PETITIONERS

v.
STATE OF NEW MEXICO EX REL. HECTOR BALDERAS,
ATTORNEY GENERAL
ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEW MEXICO COURT OF APPEALS

PETITION FOR A WRIT OF CERTIORARI
ANAND AGNESHWAR
ARNOLD & PORTER
KAYE SCHOLER LLP
250 West 55th Street
New York, NY 10019
(212) 836-8000





EARL E. DEBRINE, JR.
ALEX C. WALKER
MODRALL, SPERLING,
ROEHL, HARRIS & SISK,
P.A.
500 Fourth Street, N.W.,
Suite 1000
Albuquerque, NM 87102
(505) 848-1800

JOHN P. ELWOOD
Counsel of Record
DANIEL S. PARISER
MURAD HUSSAIN
ANNA K. THOMPSON
KOLYA D. GLICK
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com


QUESTIONS PRESENTED

1. Whether the federal government or a state
government, as the real party in interest in a qui tam
action brought in its name and litigated to judgment with
its full knowledge, is bound by a final judgment on the
merits when that government has declined to intervene.
2. Whether a state court may establish a novel
“public policy” exception to the res judicata effect of a
concededly final federal judgment when that exception
runs to the exclusive benefit of a single party: the
government.

(I)

PARTIES TO THE PROCEEDINGS

Petitioners Bristol-Myers Squibb Company, SanofiAventis U.S. LLC, Sanofi U.S. Services, Inc., formerly
known as Sanofi-Aventis U.S. Inc., and Sanofi-Synthelabo
LLC, were defendants in the New Mexico district court,
appellees in the New Mexico Court of Appeals, and
petitioners in the New Mexico Supreme Court.
Respondent the State of New Mexico was plaintiff in the
district court, appellee in the New Mexico Court of
Appeals, and respondent in the New Mexico Supreme
Court.
RULE 29.6 STATEMENT

Petitioner Bristol-Myers Squibb Company has no
parent company. No publicly held corporation owns 10%
or more of its stock.
Petitioner Sanofi-Aventis U.S. LLC is a singlemember limited liability company, whose sole member is
petitioner Sanofi U.S. Services Inc. Sanofi, a French
corporation that is publicly traded on the Paris exchange
and NASDAQ, indirectly owns 100% of any class of the
equity interests of petitioners Sanofi U.S. Services Inc.
and Sanofi-Synthelabo LLC.






(II)




TABLE OF CONTENTS


Opinions Below ........................................................................ 1
Jurisdiction .............................................................................. 1
Rule Involved........................................................................... 1
Statement ................................................................................. 1
A. New Mexico Authorizes A Qui Tam Suit
To Proceed In Its Name In Federal
Court—And Therefore Stood To Share
In Any Recovery ....................................................... 5
B. New Mexico Initiates A Duplicative
Parallel State-Court Lawsuit ................................. 7
C. After The Federal Court Dismisses New
Mexico’s Claims On The Merits, The
New Mexico State Courts Gave The
State A Second Chance To Pursue
Those Claims In State Court .................................. 8
Reasons For Granting The Petition .................................. 11
I. The New Mexico Decision Exacerbates An
Existing Split Of Authority ......................................... 12
A. The Fifth and Eleventh Circuits Have Held
That “With Prejudice” Qui Tam Dismissals
Should Exempt The Government For Policy
Reasons ..................................................................... 13
B. The New Mexico Court of Appeals Broadens
The Government Exemption................................... 15
C. The Seventh and Ninth Circuits Have Held
That A Dismissal Against A Qui Tam Relator
Binds The Government .......................................... 17






(III)

IV
II. The Decision Below Is Wrong .................................... 19
A. Under Federal Law, The Dickson Dismissal
Was Presumptively An Adjudication On The
Merits ........................................................................ 20
B. There Is No Basis For Creating A Public Policy
Exception For Qui Tam Cases ............................... 21
C. The Decision Below Violates Core Federalism
Principles................................................................... 23
III. The Issue Is Important And Recurring ..................... 25
IV. In The Alternative, This Court Should Vacate
The Judgment Below And Remand For Further
Consideration In Light Of Lucky Brand
Dungarees And Lomax ................................................ 28
Conclusion .............................................................................. 29
Appendix A: Opinion (N.M. Court of Appeals, Oct. 24,
2018) ............................................................... 1a
Appendix B: Order (N.M. Court of Appeals, Dec. 12,
2018) ............................................................. 21a
Appendix C: Order (N.M. Supreme Court, Mar. 11,
2019) ............................................................. 22a
Appendix D: Order (N.M. Supreme Court, June 5, 2020)
....................................................................... 24a
Appendix E: Order (N.M. District Court, Dec. 2, 2017)
....................................................................... 26a
Appendix F: Complaint (N.M. District Court, Jan. 5,
2018) ............................................................. 30a
Appendix G: Transcript (N.M. District Court, Mar. 1,
2017) ............................................................. 74a
Appendix H: Order (N.M. District Court, May 1, 2017)
....................................................................... 91a

V
Appendix I: Transcript (N.M. District Court, Nov. 3,
2017) ............................................................. 93a
Appendix J: Defendants’ Memorandum, Exhibit D
(N.M. District Court, Aug. 11, 2017) .... 109a
Appendix K: Opinion (D.N.J., June 27, 2017) ............. 130a
Appendix L: Order (D.N.J., June 27, 2017) ................ 184a




TABLE OF AUTHORITIES

Cases

Page(s)

Allen v. McCurry,
449 U.S. 90 (1980) .................................................... 3, 24, 26
United States ex rel. Bogart v. King Pharm.,
414 F. Supp. 2d 540 (E.D. Pa. 2006) ............................... 26
United States ex rel. Charte v. Am. Tutor, Inc.,
934 F.3d 346 (3d Cir. 2019)............................................... 12
United States ex rel. Chovanec v. Apria
Healthcare Grp. Inc.,
606 F.3d 361 (7th Cir. 2010) ............................................. 17
United States ex rel. Cimznhca, LLC v. UCB,
Inc.,
No. 19-2273, 2020 WL 4743033 (7th Cir. Aug.
17, 2020) ......................................................................... 22, 23
Claflin v. Houseman,
93 U.S. 130 (1876) .............................................................. 23
Cox Broad. Corp. v. Cohn,
420 U.S. 469 (1975) ............................................................ 24
United States ex rel. Dickson v. Bristol-Myers
Squibb Co.,
332 F. Supp. 3d 927 (D.N.J. 2017) ......................... passim
United States ex rel. Eisenstein v. City of New
York,
556 U.S. 928 (2009) ............................................ 4, 17, 18, 22
Federated Dep’t Stores v. Moitie,
452 U.S. 394 (1981) ................................................... passim
Fort Wayne Books, Inc. v. Indiana,
489 U.S. 46 (1989) .............................................................. 24

(VI)

VII
Cases—Continued

Page(s)

United States ex rel. Jean-Louis v. City of
Riverside,
No. EDCV 17-00379 AG(ASx), 2019 WL
1877601, at *3 (C.D. Cal. Jan. 9, 2019) ........................... 14
United States ex rel. Jones & Wert Constr.
Specialties, Inc. v. Straub Constr., Inc.,
No. 10CV1415 JLS RBB, 2013 WL 4883152
(S.D. Cal. Sept. 12, 2013) .................................................. 19
United States ex rel. King v. Solvay S.A.,
823 F. Supp 2d 472 (S.D. Tex. 2011) ............................... 26
Lomax v. Ortiz-Marquez,
140 S. Ct. 1721 (2020) ............................................... passim
Lucky Brand Dungarees, Inc. v. Marcel
Fashions Grp., Inc.,
140 S. Ct. 1589 (2020) ............................................... passim
United States ex rel. Lusby v. Rolls-Royce
Corp.,
570 F.3d 849 (7th Cir. 2009) .................................... passim
Mason v. Health Mgmt. Assocs., LLC,
421 F. Supp. 3d 237 (W.D.N.C. 2019) ............................. 26
United States ex rel. Mergent Servs. v.
Flaherty,
540 F.3d 89 (2d Cir. 2008)................................................. 19
Miami Copper Co. v. State,
149 P. 758 (Ariz. 1915) ....................................................... 22
Mondou v. New York, N.H. & H.R. Co.,
223 U.S. 1 (1912) ................................................................ 23
Montana v. United States,
440 U.S. 147 (1979) ............................................................ 24
Ramah Navajo Sch. Bd., Inc. v. Bureau of
Revenue of N.M.,
458 U.S. 832 (1982) ............................................................ 17

VIII
Cases—Continued

Page(s)

Rivet v. Regions Bank of La.,
522 U.S. 470 (1998) .............................................................. 2
United States ex rel. Rostholder v. Omnicare,
Inc.,
No. 07-cv-1283, 2012 WL 3399789 (D. Md.
Aug. 14, 2012) ..................................................................... 15
In re Schimmels,
127 F.3d 875 (9th Cir. 1997) ................................. 17, 18, 21
Semtek Int’l Inc. v. Lockheed Martin Corp.,
531 U.S. 497 (2001) ...................................................... 24, 28
State v. Conn,
847 P.2d 744 (N.M. 1993) .................................................. 17
Stoner v. Santa Clara Cnty. Off. of Educ.,
502 F.3d 1116 (9th Cir. 2007) ....................................... 4, 17
Taylor v. Sturgell,
553 U.S. 880 (2008) ...................................................... 11, 20
United States v. KForce Gov’t Sols., Inc.,
No. 8:13-CV-1517-T-36TBM, 2014 WL
5823460 (M.D. Fla. Nov. 10, 2014) ............................ 14, 27
United States v. Mendoza,
464 U.S. 154 (1984) .............................................................. 2
United States v. Organon USA, Inc.,
No. CV H-08-3314, 2013 WL 12142351 (S.D.
Tex. Feb. 1, 2013)............................................................... 27
United States v. Whyte,
918 F.3d 339 (4th Cir. 2019) ............................................. 12
Universal Health Servs. v. United States ex
rel. Escobar,
136 S. Ct. 1989 (2016) ...................................................... 8, 9
Urquilla-Diaz v. Kaplan Univ.,
780 F.3d 1039 (11th Cir. 2015) ............................... 5, 13, 14

IX
Cases—Continued

Page(s)

United States ex rel. Wallace v. Exactech, Inc.,
No. 2:18-CV-01010-LSC, 2020 WL 4500493
(N.D. Ala. Aug. 5, 2020) .................................................... 26
Wellons v. Hall,
558 U.S. 220 (2010) ............................................................ 28
Williams Nat. Gas Co. v. City of Okla. City,
890 F.2d 255 (10th Cir. 1989) ........................................... 24
United States ex rel. Williams v. Bell
Helicopter Textron, Inc.,
417 F.3d 450 (5th Cir. 2005) .................................... passim
Wojcicki v. SCANA/SCE&G,
947 F.3d 240 (4th Cir. 2020) ............................................. 19
United States ex rel. Woods v. N. Ark. Reg’l
Med. Ctr.,
No. 03-3086, 2006 WL 2583662 (W.D. Ark.
Sept. 7, 2006) ................................................................ 19, 23
Statutes

28 U.S.C. 1257(a) ..................................................................... 1
Cal. Gov’t Code §§ 12650 et seq. ......................................... 26
Colo. Rev. Stat. Ann. §§ 25.5-4-303.5 et seq. ..................... 26
Conn. Gen. Stat. §§ 4-274 et seq. ........................................ 26
Deficit Reduction Act of 2005, Pub. L. No. 109171, § 6031, 120 Stat. 72-73 (2006)................................... 25
Ga. Code Ann. §§ 49-4-168 et seq........................................ 26
Haw. Rev. Stat. Ann. §§ 661-21 et seq. .............................. 26
Ill. Comp. Stat. Ann. 175/1 et seq. ...................................... 26
Ind. Code Ann. §§ 5-11-5.7-1 et seq. ................................... 26
Iowa Code Ann. §§ 685.1 et seq........................................... 26
Mass. Gen. Laws ch. 12, §§ 5A et seq................................. 26
Mont. Code Ann. §§ 17-8-401 et seq. .................................. 26

X
N.C. Gen. Stat. §§ 1-605 et seq. ........................................... 26
N.Y. State Fin. Law §§ 187 et seq. ..................................... 26
Nev. Rev. Stat. Ann. §§ 357.010 et seq. ............................. 26
Statutes—Continued

Page(s)

NMSA 1978, §§ 27-14-1 et seq. ................................... passim
Okla. Stat. tit. 63, §§ 5053 et seq. ........................................ 26
R.I. Gen. Laws Ann. §§ 9-1.1-1 et seq. ............................... 26
Tenn. Code Ann. §§ 71-5-181 et seq. .................................. 26
Tex. Hum. Res. Code Ann. §§ 36.001 et seq. .................... 26
U.S. Const. Art. VI, Cl. 2 ..................................................... 23
Va. Code Ann. §§ 8.01-216.1 et seq. .................................... 26
Vt. Stat. Ann. tit. 32, §§ 630 et seq. .................................... 26
Wash. Rev. Code Ann. §§ 74.66.005 et seq. ....................... 26
Rules

Fed. R. Civ. P. 9(b) ............................................... 9, 13, 14, 15
Fed. R. Civ. P. 12(b)(6) ............................................... passim
Fed. R. Civ. P. 41(b) .................................................... passim
Publication of OIG Guidelines for Evaluating
State False Claims Acts, 71 Fed. Reg. 48,552
(Aug. 21, 2006). ................................................................... 25
Other Authorities

6 Joel Androphy, White Collar Crime § 42:32
(2d ed.) ............................................................................. 6, 25
John T. Bentivoglio et al., False Claims Act
Investigations: Time for a New Approach?,
3 Fin. Fraud L. Rep. 801 (2011) ...................................... 15
3 William Blackstone, Commentaries on the
Laws of England ............................................................... 22
Todd J. Canni, Who’s Making False Claims,
the Qui Tam Plaintiff or the Government
Contractor?, 37 Pub. Cont. L.J. 1 (2007) ....................... 27

XI
Other Authorities—Continued

Page(s)

David Freeman Engstrom, Public Regulation
of Private Enforcement: Empirical
Analysis of DOJ Oversight of Qui Tam
Litigation Under the False Claims Act, 107
Nw. U. L. Rev. 1689 (2013) .............................................. 19
Dep’t of Justice, Fraud Statistics Overview:
Oct. 1, 1986 - Sept. 30, 2019 (2019),
https://perma.cc/8DYT-3Z5U .......................................... 25
Dep’t of Justice, Justice Department Recovers
over $3 Billion from False Claims Act Cases
in Fiscal Year 2019 (Jan. 9, 2020),
https://perma.cc/94BA-VXUU. ....................................... 13
Phaedra Haywood, Chief Justice Nakamura’s
Still Retiring, But Not Yet, Albuquerque J.
(June 27, 2020)....................................................................10
18 Moore’s Federal Practice § 131.30 (2019) ................... 21
David O’Neill, Resolving the Confusion:
Granting the Government Unfettered
Discretion to Dismiss Qui Tam Actions, 49
Pub. Cont. L.J. 403 (2020) ................................................ 25
Nathan D. Sturycz, Comment, The King and
I?: An Examination of the Interest Qui Tam
Relators Represent and the Implications for
Future False Claims Act Litigation, 28 St.
Louis U. Pub. L. Rev. 459 (2009) ....................... 11, 12, 15
Michael Rich, Prosecutorial Indiscretion:
Encouraging the Department of Justice to
Rein in Out-of-Control Qui Tam Litigation
Under the Civil False Claims Act, 76 U. Cin.
L. Rev. 1233 (2008) ..................................................... 25, 27

PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW

The New Mexico Supreme Court’s orders granting
petitioners’ petition for a writ of certiorari (App. 22a-23a)
and quashing the writ as improvidently granted following
full briefing and oral argument (App. 24a-25a) are
unreported. The New Mexico Court of Appeals’ opinion
(App. 1a-20a) is reported at 436 P.3d 724, and its order
denying petitioners’ motion for rehearing (App. 21a) is
unreported. The district court’s order denying petitioners’ motion to dismiss (App. 26a-29a) is also unreported.
JURISDICTION

The New Mexico Supreme Court quashed the writ of
certiorari as improvidently granted on June 5, 2020.
App. 24a-25a. The jurisdiction of this Court is invoked
under 28 U.S.C. 1257(a).
RULE INVOLVED

Federal Rule of Civil Procedure 41(b) states:
Rule 41. Dismissal of Actions

(b) INVOLUNTARY DISMISSAL; EFFECT. If the
plaintiff fails to prosecute or to comply with these rules or
a court order, a defendant may move to dismiss the action
or any claim against it. Unless the dismissal order states
otherwise, a dismissal under this subdivision (b) and any
dismissal not under this rule—except one for lack of
jurisdiction, improper venue, or failure to join a party
under Rule 19—operates as an adjudication on the merits.
STATEMENT

The issues presented in this matter reflect an
important and growing disagreement among the federal
(and now, state) courts: Does a judgment dismissing a qui
tam suit brought under a federal or state False Claims
(1)

2
Act (“FCA”) for failure to state a claim preclude that suit’s
governmental real parties in interest from pursuing a
second lawsuit against the same defendants based on the
same underlying facts. Two federal courts of appeals say
yes (the Seventh and Ninth Circuits). And two say no (the
Fifth and Eleventh Circuits). In the decision below, the
New Mexico Court of Appeals sided with the Fifth and
Eleventh Circuits in holding that the State of New Mexico
was free to sue petitioners even though a relator had
already sued them on the State’s behalf based on the same
facts—and lost. These courts authorize federal and state
governments to get a second bite at the apple in every
False Claims Act qui tam suit that is filed; if the relator’s
claim is dismissed while litigating in the government’s
name and on its behalf, the government can simply claim
a do-over and file a second suit itself.
Bedrock principles of federal res judicata (or “claim
preclusion”) do not allow such gamesmanship. Each
litigant gets “only one full and fair opportunity to litigate”
a claim, United States v. Mendoza, 464 U.S. 154, 159
(1984) (internal quotation marks omitted), and “[a] final
judgment on the merits of an action precludes the parties
or their privies from relitigating issues that were or could
have been raised in that action.” Rivet v. Regions Bank
of La., 522 U.S. 470, 476 (1998) (quoting Federated Dep’t
Stores v. Moitie, 452 U.S. 394, 398 (1981)). As this Court
emphasized earlier this year, once an earlier suit has
reached judgment, that “judgment prevents litigation of
all grounds for * * * recovery that were previously
available to the parties, regardless of whether they were
asserted or determined in the prior proceeding.” Lucky
Brand Dungarees, Inc. v. Marcel Fashions Grp., Inc., 140
S. Ct. 1589, 1594 (2020) (internal quotation marks and
citations omitted). And ”[s]uits involve the same claim (or
‘cause of action’) when they aris[e] from the same
transaction, or involve a common nucleus of operative

3
facts.” Id. at 1595 (internal quotation marks and citations
omitted). These principles have important, real-world
consequences: They “relieve parties of the cost and
vexation of multiple lawsuits, conserve judicial resources,
* * * prevent[] inconsistent decisions,” and, when
enforced by state courts, “promote the comity between
state and federal courts that has been recognized as a
bulwark of the federal system.” Allen v. McCurry, 449
U.S. 90, 94, 96 (1980).
In the name of public policy, the New Mexico Court
of Appeals created a novel exception to federal res
judicata doctrine, guaranteeing states and the federal
governments multiple opportunities in every qui tam
action. The ruling permits the government to explicitly
authorize a qui tam suit to proceed on its behalf in federal
court and allow the case to unfold without risk. If the
relator wins, the State receives the bulk of the judgment.
But if the relator’s complaint is dismissed, the State would
have an absolute right to start over again by filing its own
action in state court, treating the relator’s earlier lawsuit
as a dress rehearsal for its own.
The New Mexico Court of Appeals’ “heads we win,
tails you lose” rule permits—indeed encourages—
textbook acts of claim-splitting. At the same time, this
rule discourages the government from intervening in or
consolidating qui tam actions because it will always have
two chances to advance a given claim. This case is a
perfect example. Here, the State of New Mexico, through
its authorized qui tam relator, sued petitioners in the
State’s name in federal court under New Mexico law,
alleging petitioners made misleading statements in
marketing Plavix. While that case was pending, the State
hedged its bets, authorizing private plaintiffs’ attorneys
to bring a second suit in its name in state court, advancing
related state-law fraud claims based on the same
transaction or occurrence. The trial court recognized that

4
the “claims in both cases appear[] to arise out of common
facts,” App. 91a, and accordingly urged the State to
consolidate its claims in one court because “there is
something that seems unfair about having to defend in
two jurisdictions,” App. 83a. The State agreed, saying
“you are right” and “that’s a very fair point.” Ibid. But
New Mexico chose to proceed with both suits, and the
federal court later dismissed New Mexico’s suit for failure
to state a claim. United States ex rel. Dickson v. BristolMyers Squibb Co. (“Dickson”), 332 F. Supp. 3d 927
(D.N.J. 2017) (reproduced at App. 130a-183a). Although
the New Mexico Court of Appeals acknowledged “the
general rule that a dismissal under Rule 12(b)(6) is an
adjudication on the merits for claim preclusion purposes,”
App. 19a, it invented a novel exception to res judicata
principles because of a perceived policy interest in
permitting “a later potentially successful suit that might
result in a large recovery for the government,” App. 18a
(internal quotation marks, citation, and brackets omitted).
It therefore held that the earlier federal dismissal was
“without prejudice to the government” bringing a second
suit later based on the same claims. App. 19a.
The New Mexico Court of Appeals’ decision
exacerbates a circuit split that has long destabilized qui
tam litigation. Consistent with this Court’s conclusion
that “the United States is bound by the judgment in all
FCA actions regardless of its participation in the case,”
United States ex rel. Eisenstein v. City of New York, 556
U.S. 928, 936 (2009), the Seventh and Ninth Circuits have
rightly concluded that dismissal of a relator’s qui tam
claims binds the state and federal governments that are
the real parties in interest. See United States ex rel.
Lusby v. Rolls-Royce Corp., 570 F.3d 849, 852-853 (7th
Cir. 2009); Stoner v. Santa Clara Cnty. Off. of Educ., 502
F.3d 1116, 1126 (9th Cir. 2007). If the relator wins, the
government wins; but if the relator loses, the government

5
may not relitigate the same claims. The Fifth and
Eleventh Circuits, by contrast, have created exceptions to
this rule for federal judgments still open on appeal,
holding that dismissal of a relator’s lawsuit is ordinarily
“without prejudice to the government” in cases in which
the government has not intervened. See Urquilla-Diaz v.
Kaplan Univ., 780 F.3d 1039, 1057 (11th Cir. 2015);
United States ex rel. Williams v. Bell Helicopter Textron,
Inc., 417 F.3d 450, 455-456 (5th Cir. 2005). Under the rule
in those circuits, if the relator wins, the government wins.
But if the relator’s complaint is dismissed, the
government is not bound by that defeat and remains free
to pursue its claims anew against the same defendants.
Not only does the decision below exacerbate this split,
it goes even further, extending the Fifth and Eleventh
Circuit’s exception to apply to collateral attacks on a final
judgment.
While previous courts have allowed
government entities to request modification of a still-open
judgment to explicitly state it is without prejudice to the
government, the New Mexico Court of Appeals extended
that rationale to collateral review of what it conceded was
a final federal judgment, thereby creating a novel “public
policy” exception to ordinary res judicata principles.
Particularly in view of the rising tide of qui tam litigation
under both the federal FCA and ubiquitous state
analogues, this Court’s review is warranted to address
this critically important issue.
A. New Mexico Authorized A Qui Tam Suit To
Proceed In Its Name In Federal Court—And
Therefore Stood To Share In Any Recovery

In March 2011, qui tam relator Elisa Dickson sued
petitioners in federal court, alleging that they
misrepresented the effectiveness of the prescription
antiplatelet drug Plavix to prescribing doctors, Medicare,
and state Medicaid programs and caused the submission
of fraudulent payment claims to those government

6
programs. Dickson brought the action on behalf of, and
in the name of, the federal government, New Mexico, and
23 other states, alleging violations of the federal FCA, the
New Mexico Medicaid FCA, NMSA 1978, §§ 27-14-1 et
seq. (“New Mexico FCA”), and other states’ similar laws.
App. 133a, 135a-136a & n.2. Like many other qui tam
statutes, the New Mexico FCA requires the state to be
notified before the case is unsealed and given an
opportunity to intervene or dismiss the case. NMSA
§§ 27-14-7, 27-14-8.1 The New Mexico FCA further
provides that the State, upon receiving a complaint, “shall
conduct an investigation of the factual allegations and
legal contentions” and must “make a written determination of whether there is substantial evidence that a
violation has occurred” before the qui tam claim can
proceed. NMSA § 27-14-7(C). The State’s options are to
intervene, to allow the relator to proceed on its behalf
without intervening, to dismiss the action, or to settle. See
NMSA §§ 27-14-7, 27-14-8.
Several other states—Hawaii, Louisiana, and Mississippi—later chose to withdraw the Dickson relator’s
state-law claims in favor of pursuing their claims separately in their respective state courts. But following its
investigation in September 2012, New Mexico declined
either to intervene or to dismiss the claims. App. 83a-85,
92a, 134a. The State thus remained a real party in interest in the lawsuit, retaining the right to intervene at a
later date or dismiss the claim at any time. NMSA 1978,
§ 27-14-8(B), (D), (E). If the relator succeeded, the State
stood to gain at least 70 percent of any recovery, without

1

Thirty-one states and nine counties have enacted analogous FCA
statutes. See 6 Joel Androphy, White Collar Crime § 42:32 (2d ed.)
(updated July 2020). There is substantial similarity among state
and federal FCA statutes. See pp. 25-26 & n.8, infra.

7
expending any resources to litigate the case. Id. § 27-149(B).
B. New Mexico Initiated A Duplicative Parallel
State-Court Lawsuit

In September 2016, while Dickson was being actively
litigated, New Mexico brought this parallel suit in state
court through private plaintiffs’ lawyers, alleging that
petitioners misleadingly promoted Plavix and caused the
submission of fraudulent payment claims to New Mexico’s
Medicaid program. App. 6a, 30a-73a. Instead of suing
under the New Mexico FCA, however, the State alleged
various alternative statutory violations, including claims
under the state Unfair Practices Act, Medicaid Fraud Act,
Fraud Against Taxpayers Act, as well as common-law theories of fraud, negligence, and unjust enrichment. App.
30a-73a.
Petitioners moved to dismiss or stay the case in favor
of Dickson, arguing that the State had improperly split its
claims. During oral argument, the state district court
raised concerns that this action was duplicative of New
Mexico’s federal suit. In response, the State conceded
that the matters arose from a common nucleus of operative facts and agreed to consider consolidating the two
actions:
THE COURT: Okay. And so your answer to
why the State of New Mexico and the attorney
general’s office did not tell [the Dickson] court to
get lost, we want to pursue our own claim, is they
didn’t need to? * * * Seriously, I’m wondering,
because there is something that seems unfair
about having to defend in two jurisdictions.
MR. ALBERSTONE [private counsel for the
State]: Let me explain something, Your Honor.
You are right, and I’m going to consult with the
client about that; I think that’s a very fair point.

8
App. 83a (emphases added). The State’s counsel noted
that “there are differences [between Dickson and this
case], but I’m not going to argue * * * the common nucleus
of facts aren’t there.” App. 105a.
The New Mexico district court concluded that the
claims asserted in the State’s complaint and the claims
asserted on its behalf in Dickson shared “common facts,”
App. 91a, because both cases arose from petitioners’
alleged false, deceptive, and unfair labeling and
promotion of Plavix, App. 95a. The district court thus
granted petitioners’ motion to stay “to give [the State] the
opportunity to dismiss the [Dickson] case” or “consolidate
everything that can be brought in the New Mexico Case.”
App. 89a-90a; see App. 91a-92a.
The State, however, chose not to consolidate the suits.
Instead, it awaited the outcome in Dickson.
C. After The Federal Court Dismissed New Mexico’s
Claims On The Merits, The New Mexico State
Courts Gave The State A Second Chance To
Pursue Those Claims In State Court

After six years of litigation and five separate
complaints, the Dickson court in June 2017 granted
petitioners’ third motion to dismiss the case, holding that,
under Rule 12(b)(6), the relator’s “specific allegations,”
App. 158a, showed she “could not” establish that
supposed misrepresentations about Plavix’s effectiveness
were material under Universal Health Services v. United
States ex rel. Escobar, 136 S. Ct. 1989 (2016), App. 161a
(emphasis added). The court explained that, because the
relator’s complaint “clearly allege[d] that once the claims
for Plavix were submitted to Medicaid [and] were paid
automatically by virtue of Plavix’s inclusion” on the
State’s list of preferred medications, the supposed
misrepresentations were not material because they could
not possibly have affected payment decisions. App. 161a.
The district court stated without qualification that

9
“Relator’s Fourth Amended Complaint is DISMISSED.”
App. 185a. Neither the relator, the State of New Mexico,
nor any other government entity sought to amend or
clarify the judgment, challenge the dismissal’s scope, or
appeal the decision.
After Dickson’s dismissal in federal court, petitioners
moved to dismiss the state-court case on res judicata
grounds.
But despite the district court’s earlier
observation that the suits shared common operative facts,
and despite the State’s concessions on that point, the New
Mexico court held that “res judicata does not apply here
because the causes of action are not the same in the two
suits.” App. 28a. The court focused only on those legal
theories that actually were raised in the federal court
action, not those that “could have been raised in that
action.” Moitie, 452 U.S. at 398 (emphasis added). The
district court acknowledged that “the relator could have
asserted the State’s [Fraud on the Taxpayer Act] claim in
Dickson”; moreover, it noted that “[i]f the State had
intervened in Dickson, the State could have asserted [all
of its] claims, but the State elected not to intervene.” 2
App. 28a.
The New Mexico Court of Appeals affirmed on a
different basis. App. 1a-20a. The court acknowledged
that, because Dickson proceeded in federal court, “federal
2

In dicta, the New Mexico district court stated it would also “be
inappropriate to bar the State’s claims” “where the relator’s claims
were dismissed based on a failure to comply with the heightened
pleading requirements of Rule 9(b).” App. 28a. However, the
“pleading requirements” at issue in Dickson derived not from Rule
9(b), but Escobar. The Dickson court had previously rejected
petitioners’ Rule 9(b) claims as “misplaced,” and in dismissing, it
noted petitioners’ Rule 9(b) arguments about the Fourth Amended
Complaint were “substantially similar” to those it had previously
rejected. App. 150a. The court instead held that the allegations “fail
to plead materiality [under Escobar], and therefore do not state a
cause of action * * * .” App. 162a.

10
law governs the preclusive effect that the prior federal
judgment should have on these state court proceedings.”
App. 8a (internal quotation marks omitted). “[B]ecause
the [Dickson] order did not provide for a fifth amendment
[to the complaint] and disposed of all of Relator’s claims,”
the court of appeals “construe[d] it as an adjudication on
the merits as to Relator, consistent with the general rule
that a dismissal under Rule 12(b)(6) is an adjudication on
the merits for claim preclusion purposes.” App. 19a. The
court observed that some federal courts of appeals, on
direct appeal before the judgments had become final (and
at the urging of the federal government as the real party
in interest), had modified dismissals in non-intervened qui
tam cases so the dismissals were entered without
prejudice to the government. App. 11a (citing United
States ex rel. Williams v. Bell Helicopter Textron, Inc.,
417 F.3d 450, 455-456 (5th Cir. 2005)). The court observed
that “claim preclusion in the qui tam context could
operate adverse to the public interest,” by potentially
“bar[ring] a later potentially successful suit that might
result in a large recovery for the government.” App. 18a
(internal quotation marks, citation, and brackets omitted).
Extending the rationale of Williams from judgments still
open on direct appeal to the context of final judgments,
the court held that the Dickson dismissal was “on the
merits” as to the relator but “without prejudice” as to the
State. App. 19a-20a The Court of Appeals denied
petitioners’ timely rehearing petition. App. 21a.
The New Mexico Supreme Court granted certiorari,
and the parties fully briefed the case. App. 24a-25a. Oral
argument was then heard by an even number of justices
(four) following the Chief Justice’s retirement announcement and decision not to participate in this case.3 Ibid.
3

Phaedra Haywood, Chief Justice Nakamura’s Still Retiring, But
Not Yet, Albuquerque J. (June 27, 2020), https://perma.cc/2B2PASU9 (retirement originally scheduled for June 1, 2020).

11
Three weeks after hearing oral argument, the court on
June 5, 2020, quashed the writ as improvidently granted
without explanation. Ibid. That court has stayed its
mandate pending the filing of this petition. See Order
Granting Motion to Stay Mandate, New Mexico ex rel.
Balderas v. Bristol-Myers Squibb Co., No. S-1-SC-37430
(N.M. June 24, 2020).
REASONS FOR GRANTING THE PETITION

The decision of the New Mexico Court of Appeals
highlights the growing divide among federal (and now
state) courts regarding the binding effect on the
government in an all too common scenario—when a
federal court has dismissed a relator’s FCA lawsuit for
failure to state a claim and the government has chosen not
to intervene, but remains a real party in interest. Res
judicata plays an integral role in our judicial system by
“protect[ing] against the expense and vexation attending
multiple lawsuits, conserv[ing] judicial resources, and
* * * minimizing the possibility of inconsistent decisions.”
Taylor v. Sturgell, 553 U.S. 880, 892 (2008) (internal
quotation marks and citations omitted). The New Mexico
Court of Appeals did not contest that the ordinary
elements for res judicata were satisfied in this case.
Instead, that court simply “constru[ed] the [Dickson]
order as without prejudice to the government,” App. 19a,
because of its policy concerns that “claim preclusion in the
qui tam context could operate adverse to the public
interest.” App. 15a; accord App. 11a (“the government’s
role in vindicating public interests militates against
preclusion of its claims”) (citing Nathan D. Sturycz,
Comment, The King and I?: An Examination of the
Interest Qui Tam Relators Represent and the
Implications for Future False Claims Act Litigation, 28
St. Louis U. Pub. L. Rev. 459, 462-463 (2009)).
Thus, instead of applying traditional res judicata
principles, the New Mexico Court of Appeals has

12
endorsed an exception for state and federal governments:
In qui tam actions, the government can sit back and reap
the benefits if the relator prevails in her lawsuit, but it
remains free to bring a second lawsuit based on the same
operative facts even where the relator’s complaint is
dismissed with prejudice. This exception conflicts with
principles of qui tam law and recent pronouncements of
this Court; it also has divided the circuits, creating
uncertainty about the binding effect of a type of litigation
that accounts for an ever-larger share of federal and state
dockets; and in the process, it has encouraged duplicative
litigation. This Court’s review is urgently needed.
I.

THE NEW MEXICO DECISION EXACERBATES AN
EXISTING SPLIT OF AUTHORITY

This Court should grant review to resolve a split of
authority on a core question of qui tam litigation: whether
a “with prejudice” dismissal order against a relator in a
qui tam action is in fact “with prejudice” to the
government when the government has not intervened.
See United States v. Whyte, 918 F.3d 339, 350 n.10 (4th
Cir. 2019) (acknowledging conflicting circuit precedent
but declining to “take issue with those courts holding that
the Government may be bound (for some purposes) by an
FCA action in which it did not intervene”); cf. United
States ex rel. Charte v. Am. Tutor, Inc., 934 F.3d 346, 356
(3d Cir. 2019) (Hardiman, J., dissenting) (recognizing the
“procedural brainteasers qui tam preclusion might
offer”). The decision below exacerbates this split. As
noted by the very authority that the Court of Appeals
cited: “In the face of the ever-growing wave of FCA and
qui tam actions * * * it is likely that such confusion over
the relator-government relationship will persist” absent
guidance from this Court. Sturycz, 28 St. Louis U. Pub.
L. Rev. at 463. In light of “the consistently high number
of qui tam actions” courts have seen in recent years, ibid.,
this Court’s immediate review is warranted. See Dep’t of

13
Justice, Justice Department Recovers over $3 Billion
from False Claims Act Cases in Fiscal Year 2019 (Jan. 9,
2020), https://perma.cc/94BA-VXUU (“[t]his is the tenth
consecutive year” that FCA recoveries have exceeded $2
billion).
A.

The Fifth and Eleventh Circuits Have Held That
“With Prejudice” Qui Tam Dismissals Should
Exempt The Government For Policy Reasons

The Fifth and Eleventh Circuits have held that the
government should not be bound by “with prejudice”
judgments dismissing relators’ qui tam actions when the
government does not intervene. See Urquilla-Diaz v.
Kaplan Univ., 780 F.3d 1039, 1057 (11th Cir. 2015);
United States ex rel. Williams v. Bell Helicopter Textron,
Inc., 417 F.3d 450, 455-456 (5th Cir. 2005).
The leading case adopting this theory is the Fifth
Circuit’s decision in Williams. In Williams, the district
court dismissed a qui tam action “with prejudice” to both
the relator and the government for failing to satisfy Rule
9(b)’s requirement of pleading fraud with particularity.
See 417 F.3d at 454. Although the government had chosen
not to intervene in the district court, it intervened on
appeal, arguing that the dismissal order should be
modified to specify that it was made “without prejudice”
to the government. Id. at 452. A divided panel of the Fifth
Circuit held that the district court erred in dismissing the
complaint with prejudice to the government, citing two
factors. First, the court of appeals rejected the district
court’s conclusion that the government’s failure to
intervene necessarily reflected a conclusion that the qui
tam action lacked “the slightest merit”; instead, the Fifth
Circuit recognized the government’s failure to intervene
might represent a “cost-benefit analysis.” Id. at 455.
Second, the court majority held as a matter of policy that
a contrary ruling would give “private parties * * * the
added incentive to file FCA suits lacking in the required

14
particularity, knowing full well that the government
would be obligated to intervene and ultimately ‘fill in the
blanks’ of the deficient complaint” to avoid a “with
prejudice” dismissal. Ibid. Accordingly, the Fifth Circuit
held that, while a Rule 9(b) dismissal could be “with
prejudice” as to the relator, the district court abused its
discretion in holding it was also “with prejudice” to the
government. Judge Edith Jones noted her dissent from
this part of the decision. See id. at 452 n.1.
Although Williams involved the relator’s failure to
plead fraud with particularity, courts have extended its
reasoning to cases involving dismissal for failure to state
a claim. For example, in Urquilla-Diaz, the Eleventh
Circuit affirmed the dismissal of a relator’s nonintervened FCA action for failure to state a claim under
12(b)(6). 780 F.3d at 1057. The court of appeals sua
sponte “modif[ied] the judgment of dismissal to be
without prejudice to the government,” in an evident effort
to foreclose arguments “that res judicata bars the
government from bringing a properly pleaded False
Claims Act action” against the defendant in the future.
Ibid.
Based on Williams and its progeny, the federal
government has adopted the practice of filing “notices of
interest” in qui tam cases in which it has not intervened,
asking courts to specify that the dismissal orders be
without prejudice to the government. District courts
routinely oblige. See, e.g., United States v. KForce Gov’t
Sols., Inc., No. 8:13-CV-1517-T-36TBM, 2014 WL
5823460, at *9 (M.D. Fla. Nov. 10, 2014) (“Count I will be
dismissed with prejudice as to [relator] and without
prejudice as to the United States.”); United States ex rel.
Jean-Louis v. City of Riverside, No. EDCV 17-00379
AG(ASx), 2019 WL 1877601, at *3 (C.D. Cal. Jan. 9, 2019)
(similar); United States ex rel. Rostholder v. Omnicare,
Inc., No. 07-cv-1283, 2012 WL 3399789, at *15 (D. Md.

15
Aug. 14, 2012) (“[I]t would be inappropriate to dismiss
with prejudice as to the United States[.]”), aff’d, 745 F.3d
694 (4th Cir. 2014).4
B. The New Mexico Court of Appeals Broadens The
Government Exemption

The New Mexico Court of Appeals’ decision expanded
the holding of Williams in two important respects. First,
while Williams’ actual holding only dictates exempting
the government from dismissal with prejudice when the
relator’s complaint is dismissed for a technical pleading
deficiency under Rule 9(b), see 417 F.3d at 454, the Court
of Appeals read it to create a sweeping rule freeing the
government from the binding effect of any dismissal for
failure to state a claim in a non-intervened case. See App.
18a (“The Williams holding was not limited to the Rule
9(b) pleading standard.”). Because any Rule 12(b)(6)
dismissal is “based only on the relator’s complaint, not the
factual bases underlying the allegations,” App. 11a, the
New Mexico Court of Appeals reasoned that “such a [Rule
12(b)(6)] dismissal does not preclude the government’s
claims when the government has not intervened,” ibid.
Thus, while the court acknowledged that Dickson was “an
adjudication on the merits as to Relator, consistent with
the general rule that a dismissal under Rule 12(b)(6) is an
adjudication on the merits for claim preclusion purposes,”
App. 19a, it held that Dickson’s judgment “on the merits”
did not bind the State because “claim preclusion in the qui
tam context could operate adverse to the public interest,”
App. 15a. In other words, only summary judgment or a
trial verdict for a qui tam defendant would bind the
government—if it could ever be bound at all.

4

See also, e.g., Sturycz, 28 St. Louis U. Pub. L. Rev. at 462-463
(arguing that claim preclusion should not “provide a defense to
repetitive claims” in the qui tam context).

16
The decision below expanded Williams in a second
respect. Williams and the other cases in that line
involved federal courts modifying judgments that were
still open on appeal—i.e., a non-final judgment for res
judicata purposes—to explicitly specify that they were
without prejudice to the real party in interest: the
government. The New Mexico Court of Appeals took that
one step further by purporting to construe a final
judgment of a court of a different sovereign that said
nothing about exempting the government, and
interpreting it to include an exemption that its wording
did not support. The actual Dickson judgment provided
without qualification that the matter was “DISMISSED.”
App. 184a-185a. The New Mexico Court of Appeals
recognized that as a general matter, such an unadorned
dismissal constituted “an adjudication on the merits for
claim preclusion purposes” under federal law. App. 19a.
But from that silent order, the Court of Appeals inferred
for policy reasons that the order would not have its
ordinary effect against the State of New Mexico. Because
the New Mexico Supreme Court declined to rule in this
case, the Court of Appeals’ decision provides the
statewide rule governing all New Mexico courts.5
5

The New Mexico Supreme Court granted certiorari, received
briefing, and, after Chief Justice Nakamura’s retirement
announcement, heard oral argument with an even number of
justices (four) participating. The court quashed the writ without
explanation three weeks later. App. 24a-25a. The New Mexico
Supreme Court frequently quashes writs of certiorari when it
determines after argument that the case does not meet its particular
statutory bases for review, which are limited to cases involving (1) a
conflict with a decision of the state supreme court or court of
appeals, (2) “a significant question of law under the constitution of
New Mexico or the United States,” or (3) an “issue of substantial
public interest.” See, e.g., State v. Conn, 847 P.2d 744, 745 (N.M.
1993) (quoting NMSA 1978 §34-5-14(B) (emphasis added)). See
generally Ramah Navajo Sch. Bd., Inc. v. Bureau of Revenue of

17
C.

The Seventh and Ninth Circuits Have Held That
A Dismissal Against A Qui Tam Relator Binds
The Government

By contrast, the Seventh and Ninth Circuits have
squarely held that the dismissal of a non-intervened qui
tam action on the pleadings for failure to state a claim
under Rule 12(b)(6) is binding on the government. A state
or the federal government “is a ‘real party in interest’ in a
case brought under the FCA” or a state analogue because
the action is litigated in its name and to its financial
benefit, Eisenstein, 556 U.S. at 930, and the government
exercises substantial control by its ability to intervene,
dismiss, and settle such actions. The Seventh and Ninth
Circuits have therefore held that the government and its
qui tam relator are in privity and that, when a qui tam
action is litigated to a final judgment, that judgment is
binding on both the relator and the government entity in
whose name it is brought. See United States ex rel.
Chovanec v. Apria Healthcare Grp. Inc., 606 F.3d 361, 362
(7th Cir. 2010); United States ex rel. Lusby v. Rolls-Royce
Corp., 570 F.3d 849, 853 (7th Cir. 2009); Stoner v. Santa
Clara Cnty. Office of Educ., 502 F.3d 1116, 1126 (9th Cir.
2007); In re Schimmels, 127 F.3d 875, 882 (9th Cir. 1997).
As Judge Easterbrook explained, these cases rest on
the straightforward principle that “[t]he plaintiff in a qui
tam action, after all, is the United States rather than the
relator,” and that accordingly, “whether the United
States wins or loses in the initial action, that is the end of
the dispute.” Chovanec, 606 F.3d at 362. “That the
[government] is bound is why it is a real party in interest.”
Lusby, 570 F.3d at 853. The Seventh Circuit thus
explicitly rejected the notion that a district court could
order that “dismissal, though with prejudice to [the
N.M., 458 U.S. 832, 836 (1982) (granting review of New Mexico
Court of Appeals decision after the State’s Supreme Court quashed
the writ of certiorari).

18
relator], is without prejudice to the United States,” so that
“the United States may pursue a suit under the False
Claims Act even if a qui tam suit has been filed and lost,
and even if that loss blocks actions by other relators.”
Lusby, 570 F.3d at 853. It explained: “The Supreme
Court thought otherwise in Eisenstein.” Ibid. It is not an
option for courts to bend basic rules of claim preclusion to
benefit the government as a litigant: Instead, “[t]he
[government] must protect its interest by intervening in a
qui tam action rather than by asserting a right to file a
False Claims Act suit after the defendant has prevailed.”
Ibid.
The Ninth Circuit reached the same conclusion in In
re Schimmels, 127 F.3d at 884. There, the government
“admit[ted] that a relator in a qui tam action is in privity
with the United States ‘for some purposes,’” but argued
that the relator could not have adequately represented
the government’s interests in the underlying bankruptcy
proceeding that yielded an adverse judgment against the
relator. See id. at 882. The court rejected the
government’s partial privity theory, noting that “there is
an unity of interest between the relators and the
government who will share any and all recovery in the
qui tam action against the [defendants].” Id. at 883.
Given that unity of interest and the government’s
authority to intervene in a qui tam case, the court held
that “the doctrine of res judicata applies to parties and
their privies, and as the government has been conclusively
shown to be in privity with the relators, the involuntary
dismissal of the relators’ claim [under Federal Rule of
Civil Procedure 41(b)] has a preclusive effect not only on
the relators, but also on the government.” Id. at 884. The
Second and Fourth Circuits have likewise noted that
judgments against relators bind the government in
holding that pro se litigants may not serve as relators.
See Wojcicki v. SCANA/SCE&G, 947 F.3d 240, 244 (4th

19
Cir. 2020) (“Even if the United States does not intervene
in a qui tam action brought pursuant to the FCA, ‘the
United States is bound by the relator’s actions for
purposes of res judicata.’”) (quoting Stoner, 502 F.3d at
1126); see also United States ex rel. Mergent Servs. v.
Flaherty, 540 F.3d 89, 93-94 (2d Cir. 2008).
A number of district courts similarly have dismissed
qui tam actions with prejudice to the government when it
declined to intervene. So long as the government had an
opportunity to intervene in the case, these courts have
concluded that “[t]o dismiss these claims without
prejudice at [the end of a multi-year litigation] would be
manifestly unfair to defendants.” United States ex rel.
Woods v. N. Ark. Reg’l Med. Ctr., No. 03-3086, 2006 WL
2583662, at *4 (W.D. Ark. Sept. 7, 2006); see also United
States ex rel. Jones & Wert Constr. Specialties, Inc. v.
Straub Const., Inc., No. 10CV1415 JLS RBB, 2013 WL
4883152, at *3 (S.D. Cal. Sept. 12, 2013) (“A dismissal with
prejudice as to [relator] on the basis of res judicata would
preclude subsequent suits by the Government or other
potential relators.”).6
The circuits are thus intractably divided on the
fundamental issue of the preclusive effect of the dismissal
of a qui tam claim. Only this Court’s review can resolve
this recurring issue.
II. THE DECISION BELOW IS WRONG

This Court should also grant review to correct the
decision below, which, at bottom, represents a state
6

See also, e.g., David Freeman Engstrom, Public Regulation of
Private Enforcement: Empirical Analysis of DOJ Oversight of Qui
Tam Litigation Under the False Claims Act, 107 Nw. U. L. Rev.
1689, 1710 (2013) (“[B]ecause a relator stands in the shoes of the
United States and sues on its behalf, any judgment will have
preclusive effect on the government’s later assertion of
transactionally related claims * * * .”).

20
court’s misapplication of federal law to the exclusive
benefit of one party—the State. See Taylor v. Sturgell,
553 U.S. 880, 891 (2008) (“The preclusive effect of a
federal-court judgment is determined by federal common
law.”).
A.

Under Federal Law, The Dickson Dismissal Was
Presumptively An Adjudication On The Merits

The Court of Appeals made a fundamental mistake by
holding that the Dickson dismissal was without prejudice
to the State. The plain text of the Federal Rules makes
clear that the dismissal was with prejudice. Federal Rule
of Civil Procedure 41(b) provides:
Unless the dismissal order states otherwise, a
dismissal under this subdivision (b) and any
dismissal not under this rule—except one for lack
of jurisdiction, improper venue, or failure to join
a party under Rule 19—operates as an
adjudication on the merits.
Fed. R. Civ. P. 41(b) (emphases added). Earlier this year,
and just days after the New Mexico Supreme Court
quashed the writ in this case, this Court reaffirmed the
plain import of that provision: “When a court dismisses a
case for failure to state a claim, but neglects to specify
whether the order is with or without prejudice,” then
“courts [must] treat the dismissal ‘as an adjudication on
the merits’—meaning a dismissal with prejudice.”
Lomax v. Ortiz-Marquez, 140 S. Ct. 1721, 1725 (2020);
accord Moitie, 452 U.S. at 399 n.3 (“[t]he dismissal for
failure to state a claim under Federal Rule of Civil
Procedure 12(b)(6) is a ‘judgment on the merits’” for res
judicata purposes).
Here, the Dickson dismissal order unqualifiedly
stated that “Relator’s Fourth Amended Complaint is
DISMISSED.” App. 185a. It did not state that the
dismissal was without prejudice to the State of New

21
Mexico, and it did not give leave to amend. As Lomax
recently reaffirmed, federal law treats such a dismissal as
being “with prejudice” and “a judgment on the merits,
with the same preclusive effects as any other valid final
judgment.” 18 Moore’s Federal Practice § 131.30 (2019).
The Ninth Circuit has explained in this precise context,
“Rule 41(b) and the doctrine of res judicata do not * * *
operate independently of each other; rather, the latter
extends the scope of the former to include not only [the
relator], but also those in privity therewith.” Schimmels,
127 F.3d at 884-885.
B. There Is No Basis For Creating A Public Policy
Exception For Qui Tam Cases

The New Mexico Court of Appeals expanded
Williams’s “public policy” exception and applied it in the
res judicata context. Its decision is squarely foreclosed
by this Court’s precedent.
In Moitie, this Court “consider[ed] the validity of the
Court of Appeals’ novel exception to the doctrine of res
judicata” that was created to allow appellants to benefit
from an intervening decision in a related case. 452 U.S. at
398. In rejecting such an exception, this Court reinforced
the importance of res judicata as a foundational rule that
is not subject to ad hoc equitable exceptions:
[W]e do not see the grave injustice which would
be done by the application of accepted principles
of res judicata. “Simple justice” is achieved
when a complex body of law developed over a
period of years is evenhandedly applied. The
doctrine of res judicata serves vital public
interests beyond any individual judge’s ad hoc
determination of the equities in a particular case.
There is simply “no principle in law or equity
which sanctions the rejection by a federal court
of the salutary principle of res judicata.”

22
Id. at 401 (quoting Heister v. Woodruff, 327 U.S. 726, 733
(1946)).
Nor is there any basis for carving out an exception to
res judicata for the real party in interest in a qui tam
lawsuit—the state or federal government. The conclusion
that the government is bound by a decision obtained by a
qui tam relator who litigated on its behalf is firmly
grounded in the common law. As Blackstone explained:
“But if any one hath begun a qui tam, or popular, action,
no other person can pursue it; and the verdict passed upon
the defendant in the first suit is a bar to all others, and
conclusive even to the king himself.”
3 William
Blackstone, Commentaries on the Laws of England *160
(second emphasis added); accord, e.g., United States ex
rel. Cimznhca, LLC v. UCB, Inc., No. 19-2273, 2020 WL
4743033, at *8 (7th Cir. Aug. 17, 2020) (quoting
Blackstone); Miami Copper Co. v. State, 149 P. 758, 761
(Ariz. 1915) (same). This Court reaffirmed in Eisenstein
that that the government “is bound by the judgment in all
FCA actions regardless of its participation in the case.”
556 U.S. at 936; see also Lusby, 570 F.3d at 852.
The Williams rationale is that governments should
be exempted from res judicata effects of non-intervened
qui tam suits to preserve their ability to pursue claims
that might be compromised by relators’ counsel. But as
this Court has explained, the government has the full
ability to protect its own interests: “If the United States
believes that its rights are jeopardized by an ongoing qui
tam action, the FCA provides for intervention.”
Eisenstein, 556 U.S. at 936. There is thus no basis for an
equitable rule exempting the government from ordinary
principles of res judicata: “The [government] must
protect its interest by intervening in a qui tam action
rather than by asserting a right to file a False Claims Act
suit after the defendant has prevailed.” Lusby, 570 F.3d
at 853. The government need not litigate the case to

23
protect its interest; it can intervene simply to dismiss the
action, and thereby eliminate the risk of an adverse
precedent. See, e.g., Cimznhca, 2020 WL 4743033, at *1.
The State of New Mexico likewise had the full
statutory authority to protect its interests in Dickson by
intervening, dismissing, or settling the State’s claims in
that case. Indeed, this litigation was stayed for the very
purpose of allowing the State to exercise those authorities
in Dickson after the State acknowledged “that’s a very
fair point,” and that it was “unfair” that petitioners “ha[d]
to defend in two jurisdictions” against the same claims.
App. 83a. As one district court explained, “[t]o dismiss
these claims without prejudice at this juncture,” thereby
exempting the government from the ordinary principles
of res judicata after it stood by during years of qui tam
litigation conducted with its full knowledge, “would be
manifestly unfair to defendants.” Woods, 2006 WL
2583662, at *4.
C.

The Decision Below Violates Core Federalism
Principles

The Court of Appeals’ decision violated a core
principle of federal supremacy that “State courts have no
power to revise the action of the Federal courts.” Claflin
v. Houseman, 93 U.S. 130, 137 (1876); Mondou v. New
York, N.H. & H.R. Co., 223 U.S. 1, 58 (1912) (same); see
U.S. Const. Art. VI, Cl. 2. As noted above, the Dickson
dismissal, which said nothing about exempting the State
from its res judicata effects, was presumptively with
prejudice to both the relator and the State, as the real
party in interest. In the guise of “constru[ing] the
[Dickson dismissal] order as without prejudice to the
government,” App. 19a, the Court of Appeals—sitting in

24
collateral review of the federal judgment—added terms
nowhere present in the order and changed its meaning.7
That was impermissible, in plain violation of “the
comity between state and federal courts that has been
recognized as a bulwark of the federal system.” Allen, 449
U.S. at 96. This Court “ha[s] long held that States cannot
give [federal court] judgments merely whatever effect
they would give their own judgments, but must accord
them the effect that this Court prescribes.” Semtek Int’l
Inc. v. Lockheed Martin Corp., 531 U.S. 497, 507 (2001)
(emphasis added). “The requirement that federal court
judgments command at least the central core of res
judicata effects in state courts is indispensable to
federalism.” Williams Nat. Gas Co. v. City of Okla. City,
890 F.2d 255, 265 n.11 (10th Cir. 1989) (internal quotation
marks omitted). If the State had wanted to exempt itself
from the binding effect of Dickson, it should have done as
the federal government has done countless times, see pp.
14-15, supra, and requested that the federal district court
modify its order to exempt the State, or sought to appeal.
Having neglected to do so, the Dickson dismissal “[was]
not open to collateral attack,” Moitie, 452 U.S. at 398, and
the state court was not free to give the now-final federal
judgment a different effect than its plain terms dictated.
7

Given the federal interests at issue, this case is comfortably
within the jurisdictional ambit of Cox Broadcasting Corp. v. Cohn,
420 U.S. 469, 482-483 (1975), because (1) the federal issue (the res
judicata effect of a federal case) has been finally decided in state
court; (2) petitioners may prevail on non-federal grounds on
remand, precluding future review of this issue; (3) reversal of the
state court on the res judicata issue would resolve the case; and (4)
the critical interests in finality of federal judgments would be
threatened if review is denied. See Montana v. United States, 440
U.S. 147, 153 (1979) (identifying systemic federal interests in res
judicata); Fort Wayne Books, Inc. v. Indiana, 489 U.S. 46, 55-56
(1989) (granting certiorari to address federal issues arising from
state enforcement suits under Indiana RICO statute).

25
III. THE ISSUE IS IMPORTANT AND RECURRING

The preclusive effect of dismissed qui tam cases is
unquestionably an important issue. The number of
federal qui tam actions has mushroomed over the past
three decades. See Dep’t. of Justice, Fraud Statistics
Overview: Oct. 1, 1986 - Sept. 30, 2019, at 1 (2019),
https://perma.cc/8DYT-3Z5U. From 2010 to 2019,
federal district courts fielded an average of 666 claims
annually, or nearly 13 new lawsuits each week. State qui
tam actions have likewise proliferated.
Moreover,
virtually all non-intervened cases fail, and courts dismiss
many of them for failure to state a claim, just as the
Dickson court did. See Michael Rich, Prosecutorial
Indiscretion: Encouraging the Department of Justice to
Rein in Out-of-Control Qui Tam Litigation Under the
Civil False Claims Act, 76 U. Cin. L. Rev. 1233, 1264
(2008) (“Ninety-four percent of non-intervened cases
result in no recovery.”); David O’Neill, Resolving the
Confusion:
Granting the Government Unfettered
Discretion to Dismiss Qui Tam Actions, 49 Pub. Cont.
L.J. 403, 411-410, 418 (2020) (collecting empirical studies
and noting that “relators rarely recover money after the
government chooses not to intervene in their action”).
Moreover, thirty-one states and nine counties have
enacted analogous FCA statutes, and Congress has
provided a significant financial incentive for more states
to follow suit.8 Many suits combine federal and state FCA
8

See 6 Joel Androphy, White Collar Crime § 42:32 (2d ed.)
(updated July 2020) (cataloguing state and local FCA analogues);
Deficit Reduction Act of 2005, Pub. L. No. 109-171, § 6031, 120 Stat.
72-73 (2006); Publication of OIG Guidelines for Evaluating State
False Claims Acts, 71 Fed. Reg. 48552 (Aug. 21, 2006). The
prerequisites for receiving federal funds under this standard
include, inter alia, a state provision requiring the action to be filed
under seal for 60 days to allow the state attorney general to review
it. At least 21 states have passed legislation complying with

26
claims. This case illustrates that phenomenon: The
Fourth Amended Complaint in Dickson asserted claims
under the federal FCA and 24 states’ analogues. Such
mass groupings of state FCA actions are increasingly
common.9
The courts’ “public policy” exception to res
judicata—and the Williams line of cases on which it
rests—creates a one-sided loophole in qui tam litigation,
asymmetrically exempting only the state and federal
governments from rules that serve the indispensable
function of “reliev[ing] parties of the cost and vexation of
multiple lawsuits, conserve[ing] judicial resources, * * *
and * * * prevent[ing] inconsistent decisions.” Allen, 449
U.S. at 94. Under these decisions, the government may
deputize a relator to litigate on its behalf without
expending any resources. It enjoys the lion’s share of any
recovery if the relator succeeds. But if the relator is
minimum federal standards. See Cal. Gov’t Code §§ 12650 et seq.;
Colo. Rev. Stat. Ann. §§ 25.5-4-303.5 et seq.; Conn. Gen. Stat. §§ 4274 et seq.; Ga. Code Ann. §§ 49-4-168 et seq.; Haw. Rev. Stat. Ann.
§§ 661-21 et seq.; 740 Ill. Comp. Stat. Ann. 175/1 et seq.; Ind. Code
Ann. §§ 5-11-5.7-1 et seq.; Iowa Code Ann. §§ 685.1 et seq.; Mass.
Gen. Laws ch. 12, §§ 5A et seq.; Mont. Code Ann. §§ 17-8-401 et seq.;
Nev. Rev. Stat. Ann. §§ 357.010 et seq.; N.Y. State Fin. Law §§ 187
et seq.; N.C. Gen. Stat. §§ 1-605 et seq.; Okla. Stat. tit. 63, §§ 5053 et
seq.; R.I. Gen. Laws Ann. §§ 9-1.1-1 et seq.; Tenn. Code Ann. §§ 715-181 et seq.; Tex. Hum. Res. Code Ann. §§ 36.001 et seq.; Vt. Stat.
Ann. tit. 32, §§ 630 et seq.; Va. Code Ann. §§ 8.01-216.1 et seq.; Wash.
Rev. Code Ann. §§ 74.66.005 et seq.
9
See, e.g., United States ex rel. Wallace v. Exactech, Inc., No. 2:18CV-01010-LSC, 2020 WL 4500493, at *1 (N.D. Ala. Aug. 5, 2020)
(federal FCA and 23 state analogues); see also Mason v. Health
Mgmt. Assocs., LLC, 421 F. Supp. 3d 237, 241 (W.D.N.C. 2019)
(federal FCA, seven state analogues); United States ex rel. King v.
Solvay S.A., 823 F. Supp 2d 472, 481 (S.D. Tex. 2011) (federal FCA
and 23 state analogues); United States ex rel. Bogart v. King
Pharm., 414 F. Supp. 2d 540, 541 (E.D. Pa. 2006) (federal FCA and
nearly a dozen state analogues).

27
unsuccessful, the government faces no risk and can go into
court and pursue the very same claims against the very
same defendants. Unsurprisingly, the states (like New
Mexico) and the federal government are actively
exploiting this loophole.10
Such lawsuits impose significant costs on litigants
and the courts. Defending FCA lawsuits “requires a
tremendous expenditure of time and energy,” requiring
defendants to “turn their focus from their businesses to
defending against allegations of fraud.” Todd J. Canni,
Who’s Making False Claims, the Qui Tam Plaintiff or the
Government Contractor?, 37 Pub. Cont. L.J. 1, 11 n.66
(2007). Companies “spend billions each year” defending
against such lawsuits. John T. Bentivoglio et al., False
Claims Act Investigations: Time for a New Approach?,
3 Fin. Fraud L. Rep. 801, 801 (2011). Those costs are
ultimately borne by the public in the form of higher prices
for goods and services. Rich, 76 U. Cin. L. Rev. 1233, 1264
(2008) (“most non-intervened [qui tam] suits exact a net
cost on the public”).
And of course, these suits exact a heavy cost on the
court systems that must accommodate repeated
lawsuits—costs that are particularly unjustifiable
because governments seek to relitigate the very same
claims that courts have already expended significant
resources to adjudicate. Again, this case is a perfect
illustration. Nearly a decade after Dickson commenced
(and nearly five years after that case was finally
10

See, e.g., KForce, 2014 WL 5823460, at *6 n.2, *9 (dismissing and
denying motion to amend complaint, but holding that dismissal was
“without prejudice” to the government, who filed a statement of
interest); United States v. Organon USA, Inc., No. CV H-08-3314,
2013 WL 12142351, at *33-*34 (S.D. Tex. Feb. 1, 2013) (holding
dismissal was with prejudice as to relator but without prejudice as
to the government when government did not intervene but “filed
statement to respond to arguments made by Defendants”).

28
concluded), the State of New Mexico seeks to relitigate
anew in state court claims arising from the same operative
facts that the State “could have asserted” in Dickson.
App. 28a.
The res judicata effect of federal judgments is a
subject of special solicitude for this Court, which, it has
emphasized, “has the last word on the claim-preclusive
effect of all federal judgments.” Semtek Int’l, 531 U.S. at
507. This Court’s review is warranted.
IV. IN THE ALTERNATIVE, THIS COURT SHOULD
VACATE THE JUDGMENT BELOW AND REMAND
FOR FURTHER CONSIDERATION IN LIGHT OF
LUCKY BRAND DUNGAREES AND LOMAX

Just last term, this Court issued two decisions that
have clarified the res judicata effect of federal judgments.
Because those decisions postdate the judgment under
review, at a minimum, this Court should grant the
petition, vacate the judgment below and remand for
further consideration in light of those decisions. See
Wellons v. Hall, 558 U.S. 220, 225 (2010) (per curiam)
(vacatur and remand for further consideration in light of
intervening precedent is warranted if there is “a
reasonable probability that the decision below rests upon
a premise that the lower court would reject if given the
opportunity for further consideration”).
On May 14, 2020, the day after oral argument in the
New Mexico Supreme Court, this Court decided Lucky
Brand Dungarees, Inc. v. Marcel Fashions Group, Inc.,
140 S. Ct. 1589 (2020), which clarified that federal courts’
res judicata analysis employs the “transactional”
approach to deciding whether two causes of actions are
the same. Id. at 1594-1595. Thus, to the extent the Court
of Appeals’ application of its “public policy” exception
rested on the district court’s conclusion that the claims in
Dickson and this case were not the same, it should be
permitted to reassess that conclusion in light of the

29
holding in Lucky Brand, which applied the Restatement’s
“transactional” test, under which a judgment bars parties
and privies from bringing later claims based on a
“common nucleus of operative facts,” “regardless of
whether they were asserted or determined in the prior
proceeding.” Ibid.
What is more, on June 8, 2020, three days after the
New Mexico Supreme Court quashed its writ of certiorari,
this Court issued its unanimous decision in Lomax, which
clarified the “old equitable principle” codified in Federal
Rule of Civil Procedure 41(b), that when courts dismiss a
complaint without specifying whether the dismissal is
with or without prejudice, the default rule is that “courts
[must] treat the dismissal ‘as an adjudication on the
merits’—meaning a dismissal with prejudice.” 140 S. Ct.
at 1725.11 Because the New Mexico Court of Appeals’
opinion below rests on its interpretation of a dismissal
that did not “specify whether the order is with or without
prejudice,” ibid., it should be given an opportunity to
reconsider that decision in light of Lomax.
CONCLUSION

The petition for a writ of certiorari should be granted.
In the alternative, this Court should grant the writ of
certiorari, vacate the judgment below, and remand for

11

Notably, during the pre-Lomax oral argument before the New
Mexico Supreme Court, Justice C. Shannon Bacon raised a number
of questions concerning whether dismissals under Rule 12(b)(6)
were with prejudice under Rule 41(b). See Oral Argument at 7:2610:21, State ex rel. Balderas v. Bristol-Myers Squibb Co., No. S-1SC-37430 (May 13, 2020), https://perma.cc/M3GD-NKBL.

30
further consideration in light of Lucky Brand Dungarees
and Lomax.
Respectfully submitted.
ANAND AGNESHWAR
ARNOLD & PORTER
KAYE SCHOLER LLP
250 West 55th Street
New York, NY
10019
(212) 836-8000

JOHN P. ELWOOD
Counsel of Record
DANIEL S. PARISER
MURAD HUSSAIN
ANNA K. THOMPSON
KOLYA D. GLICK
ARNOLD & PORTER
KAYE SCHOLER LLP
EARL E. DEBRINE, JR. 601 Massachusetts Ave., NW
ALEX C. WALKER
Washington, DC 20001
MODRALL, SPERLING,
(202) 942-5000
ROEHL, HARRIS &
john.elwood@arnoldporter.com
SISK, P.A.
500 Fourth Street,
N.W., Suite 1000
Albuquerque, NM
87102
(505) 848-1800
SEPTEMBER 2020

APPENDIX

APPENDIX A
IN THE COURT OF APPEALS OF
THE STATE OF NEW MEXICO
Opinion Number: _____________
Filing Date: October 24, 2018
NO. A-1-CA-36906
STATE OF NEW MEXICO ex rel. HECTOR BALDERAS, ATTORNEY GENERAL,
Plaintiff-Appellee,
v.
BRISTOL-MYERS SQUIBB COMPANY, SANOFIAVENTIS U.S. LLC, SANOFI US SERVICES, INC.
f/k/a SANOFI-AVENTIS U.S. INC., SANOFISYNTHELABO INC., and DOE DEFENDANTS 1 to
100,
Defendants-Appellants.
APPEAL FROM THE DISTRICT COURT OF
SANTA FE COUNTY
Sarah M. Singleton, District Judge Pro Tem
* * * * *

(1a)

2a
OPINION
VANZI, Chief Judge.
{1} In this interlocutory appeal, we consider whether
a federal district court’s dismissal of qui tam claims for
failure to state a claim bars the State from pursuing different claims arising from similar facts, where the State
had not intervened in the qui tam action. We conclude that
it does not and, therefore, affirm the denial of Defendants’
motion to dismiss.
BACKGROUND
Qui Tam Actions
{2} In order to situate the facts leading to this appeal,
we begin with an overview of qui tam actions generally
and the relevant statutes that establish and govern them.
“In a ‘qui tam action,’ a private plaintiff, . . . known as a
‘relator,’ brings suit on behalf of the government to recover a remedy for a harm done to the government.” 36
Am. Jur. 2d Forfeitures and Penalties § 83 (2018) (footnotes omitted). “He or she pursues the government’s
claim against the defendant and asserts the injury in fact
suffered by the government, which confers standing on
the relator to bring the action as a representative of the
[s]tate and as a partial assignee of the government’s
claim.” Id. (footnotes omitted). A qui tam action arises
only by statute, specifically authorizing a private party to
sue on behalf of the government. Id. The federal False
Claims Act (FCA) and state laws similar to it are typical
qui tam statutes. See United Seniors Ass’n v. Philip Morris USA, 500 F.3d 19, 24 (1st Cir. 2007) (stating that the
FCA is a “typical and commonly-invoked qui tam action”).
The FCA and the New Mexico Medicaid False Claims
Act
{3} “The [FCA] prohibits false or fraudulent claims
for payment to the United States, and authorizes civil

3a
actions to remedy such fraud to be brought by the Attorney General or by private individuals in the government’s
name.” 32 Am. Jur. 2d False Pretenses § 85 (2018); 31
U.S.C. §§ 3729-3733 (2012). Under the FCA, “[t]he Attorney General diligently must investigate a violation of the
false claims statute[,]” and “[i]f the Attorney General
finds that a person has violated or is violating such statute, the Attorney General may bring a civil action against
the person.” 32 Am. Jur. 2d False Pretenses § 85; 31
U.S.C. § 3730(a). In addition, the FCA permits relators to
“file qui tam civil actions on behalf of the United States
for the making of a false claim against government funds.”
32 Am. Jur. 2d False Pretenses § 85; 31 U.S.C. § 3730(b).
{4} Similarly, the New Mexico Medicaid False
Claims Act (MFCA), NMSA 1978, §§ 27-14-1 to -15 (2004),
provides for liability where a person presents “a claim for
payment under the medicaid program knowing that such
claim is false” or otherwise defrauds the state through the
state medicaid program. Section 27-14-4. Like the FCA,
the MFCA requires the Human Services Department
(HSD) to investigate suspected violations and permits
HSD to bring a civil action. Section 27-14-7(A). In addition, the MFCA contains a qui tam provision that permits
“[a] private civil action [to] be brought by an affected person for a violation of the [MFCA] on behalf of the person
bringing suit and for the state.” Section 27-14-7(B).
{5} Both the FCA and MFCA require a relator to
provide a copy of the complaint and written disclosure of
material evidence possessed by the relator to the government so that the government may determine whether
there is substantial evidence that a violation has occurred.
31 U.S.C. § 3730(b)(2); § 27-14-7(C). The complaint is
sealed for at least sixty days to allow the government to
undertake such an investigation. 31 U.S.C. § 3730(b)(2);
§ 27-14-7(C). Upon completion of the investigation, the
government may either “proceed with the action, in which

4a
case the action shall be conducted by the [g]overnment[,]”
or decline to take over the action. 31 U.S.C. § 3730(b)(4);
§ 27-14-7(E). If the government declines to pursue the
claims in the relator’s complaint, “the person who initiated
the action shall have the right to conduct the action.” 31
U.S.C. § 3730(c)(3); § 27-14-8(D). Regardless of whether
the government intervenes in the action, the relator may
receive a portion of any ensuing recovery. 31 U.S.C.
§ 3730(d); § 27-14-9.
{6} The FCA and MFCA differ in that, under the
MFCA, the relator may continue the action only “[i]f the
department determined that there is substantial evidence
that a violation of the [MFCA] has occurred” and that “[i]f
the department determines that there is not substantial
evidence that a violation has occurred, the complaint shall
be dismissed.” Section 27-14-7(C), (E)(2).
The First Suit: In re Plavix Marketing, Sales Practice & Products Liability Litigation
{7} The first suit at issue was initiated in March 2011
by relator Elisa Dickson (Relator), who filed a complaint
alleging that Bristol-Myers Squibb Company, SanofiAventis U.S., LLC; Sanofi-Aventis U.S., Inc.; and SanofiSynthelabo, Inc., (Defendants), manufacturers and marketers of the prescription drug Plavix, promoted Plavix in
violation of the FCA and various states’ similar fraud statutes, including New Mexico’s MFCA. See In re Plavix
Mktg., Sales Practice & Prods. Liab. Litig. (No. II) v.
Bristol-Myers Squibb Co., ___ F. Supp. 3d ___, 2017 WL
2780744, at *1-4 (D.N.J. 2017).1 Pursuant to the provisions
of the MFCA, Relator served New Mexico with “a copy of
the complaint and written disclosure of substantially all
material evidence and information [Relator] possesses.”
1

Relator filed the initial complaint in Illinois, but the suit was transferred to the United States District Court for the District of New Jersey to be part of the Plavix Multi-District Litigation. Id. at *2.

5a
Section 27-14-7(C). New Mexico declined to intervene in
Relator’s suit and, therefore, declined to take over litigation of the MFCA claim. In re Plavix Mktg., 2017 WL
2780744, at *2.
{8} Relator filed several amended complaints. Id. In
August 2015, the federal district court dismissed the New
Mexico MFCA claim, among others, for failure to state a
claim for relief. Id. A year later, in August 2016, Relator
filed a fourth amended complaint reasserting the MFCA
claim, among others. Id. at *3. On Defendants’ motion, the
federal district court dismissed Relator’s fourth amended
complaint in June 2017. Id. at *1, *3. Relator did not appeal the dismissal or request permission to amend the
complaint again. This final dismissal is central to Defendants’ claim preclusion argument.
The Second Suit: State of New Mexico ex rel. Hector
Balderas, Attorney General v. Bristol-Myers Squibb,
et al.
{9} Shortly after Relator filed the fourth amended
complaint in In re Plavix Marketing, but before its final
dismissal, the New Mexico Attorney General (the State)
brought the present action in the First Judicial District
Court. The complaint alleges that “Defendants’ false, deceptive, and unfair labeling and promotion of their prescription antiplatelet drug Plavix” violated the New Mexico Unfair Practices Act (UPA), NMSA 1978, §§ 57-12-1
to -26 (1967, as amended through 2009); the New Mexico
Medicaid Fraud Act (MFA), NMSA 1978, §§ 30-44-1 to - 8
(1989, as amended through 2004); and the New Mexico
Fraud Against Taxpayers Act (FATA), NMSA 1978, §§
44-9-1 to -14 (2007, as amended through 2015), as well as
common law and equitable causes of action. The complaint
did not allege violations of the MFCA.
{10} Defendants moved to dismiss the State’s complaint, arguing that the State had failed to state its claims.

6a
They also maintained that the suit should be dismissed
without prejudice or stayed pending resolution of the In
re Plavix Marketing action and that the State was inappropriately splitting its claims. Without ruling on the substantive arguments in the motion, the state district court
stayed the action pending the outcome of Defendants’ motion to dismiss in In re Plavix Marketing. Once the federal district court dismissed Relator’s fourth amended
complaint, the state district court lifted the stay and ordered supplemental briefing on the impact of the dismissal of Relator’s claims on the State’s complaint and Defendants’ motion to dismiss. In supplemental briefing, Defendants argued that the doctrine of claim preclusion bars
the State’s complaint. They also argued that, even if claim
preclusion did not bar the State’s claims in their entirety,
the claims based on the MFA and FATA should be dismissed for failure to state a claim for the same reasons
relied on by the federal district court.
{11} The state district court granted in part and denied in part Defendants’ motion to dismiss for failure to
state a claim. It found that the State’s MFA claim failed
as a matter of law and that the economic loss doctrine
barred the State’s negligence claim. It therefore dismissed those claims with prejudice. It found that the State
had inadequately pleaded the UPA and equitable tolling
claims but dismissed those claims without prejudice and
ordered the State to file an amended complaint if it chose
to rectify the deficiencies in the first complaint. The court
found the remaining claims adequately pleaded. The State
then filed its first amended complaint, which includes
claims for violations of the UPA and FATA, as well as
common law claims for fraud and unjust enrichment.
{12} In a separate order, the state district court denied Defendants’ motion to dismiss the State’s complaint
on claim preclusion grounds. Although it stated that Relator’s claims had been dismissed “with prejudice,” it

7a
found that “[claim preclusion] does not apply here because
the causes of action are not the same in the two suits” and
that “[R]elator in [In re Plavix Marketing] did not assert
any of the claims the State asserts in this case, but rather
only a single New Mexico [MFCA] claim.” It also stated
that “while [R]elator . . . stood in the shoes of the State of
New Mexico for purposes of the New Mexico [MFCA]
claim, [R]elator did not stand in the State’s shoes for purposes of the claims asserted by the State here.” Finally,
the state district court concluded that “in a case such as
this, where [R]elator’s claims were dismissed based on a
failure to comply with the heightened pleading requirements of [Federal Rule of Civil Procedure] 9(b), and not
based on the merits of the claim, it would be inappropriate
to bar the State’s claims.”
{13} However, the state district court also found that
“[r]egarding the application of [claim preclusion] only,” its
order “(1) does not practically dispose of the merits of the
action, (2) involves a controlling question of law as to
which there is substantial ground for difference of opinion, and (3) an immediate appeal from this order or decision may materially advance the ultimate termination of
the litigation.” See NMSA 1978, § 39-3-4(A), (B) (1999)
(providing for interlocutory appeal of district court orders
pursuant to this Court’s appellate jurisdiction). It therefore certified for interlocutory appeal the portion of the
order pertaining to application of claim preclusion. This
Court granted Defendants’ application for interlocutory
appeal. See Rule 12-203 NMRA (governing interlocutory
appeals).
DISCUSSION
{14} The issue before the Court is whether the federal court’s dismissal of Relator’s MFCA claim precludes
the State’s claims for violations of the UPA and FATA, as
well as common law fraud and unjust enrichment. We review such questions of law de novo. Bank of N.Y. v.

8a
Romero, 2016-NMCA-091, ¶ 15, 382 P.3d 991. In addition,
“[b]ecause the prior action was in federal court, federal
law determines the preclusive effect of a federal judgment.” Moffat v. Branch, 2005-NMCA-103, ¶ 11, 138 N.M.
224, 118 P.3d 732; see Restatement (Second) of Judgments
§ 87 (1982) (“Federal law determines the effects under the
rules of [claim preclusion] of a judgment of a federal
court.”). However, this Court may rely on both federal
and New Mexico law on claim preclusion because
“[f]ederal law and New Mexico law are not divergent on
claim preclusion doctrine, and both find the Restatement
(Second) of Judgments . . . persuasive.” Moffat, 2005NMCA-103, ¶ 11.
General Claim Preclusion Law
{15} “[Claim preclusion] prevents a party or its privies from repeatedly suing another party for the same
cause of action when the first suit involving the parties resulted in a final judgment on the merits.” Rosette, Inc. v.
U.S. Dep’t of the Interior, 2007-NMCA-136, ¶ 33, 142 N.M.
717, 169 P.3d 704. Generally, the doctrine applies where
“three elements are met: (1) a final judgment on the merits in an earlier action, (2) identity of parties or privies in
the two suits, and (3) identity of the cause of action in both
suits.” Id. When these elements are satisfied, the defense
of claim preclusion bars relitigation not only of claims actually brought by the plaintiff and its privies, but also
claims that could have been brought in the first action.
Kirby v. Guardian Life Ins. Co. of Am., 2010-NMSC-014,
¶ 61, 148 N.M. 106, 231 P.3d 87.
{16} For claim preclusion to apply, the first suit must
have ended in a “judgment on the merits.” Rosette, Inc.,
2007-NMCA-136, ¶ 33. Generally, a dismissal for failure
to state a claim under Federal Rule of Civil Procedure
12(b)(6) is a “judgment on the merits” for purposes of
claim preclusion. Federated Dep’t Stores, Inc. v. Moitie,

9a
452 U.S. 394, 399 n.3 (1981).2 Although this general rule is
often stated broadly, it is not without nuance. Because “[a]
motion to dismiss for failure to state a claim under Rule 1012(B)(6) . . . tests the legal sufficiency of the complaint,
not the facts that support it[,]” Wallis v. Smith, 2001NMCA-017, ¶ 6, 130 N.M. 214, 22 P.3d 682, the designation of such a dismissal as “on the merits” is something of
a misnomer. In Kirby, the New Mexico Supreme Court
explained that “[a] dismissal with prejudice is an adjudication on the merits only to the extent that when a claim
has been dismissed with prejudice, the [final judgment on
the merits] element of [claim preclusion] . . . will be presumed so as to bar a subsequent suit.” 2010-NMSC-014,
¶ 66 (emphasis added). This is so because “[i]f this were
otherwise, plaintiffs could simply ignore dismissals and
file the same claim as many times as they wished, so long
as the claim never progressed to a determination of the
substantive issues.” Id. Thus, the intent behind considering a Rule 12(b)(6) dismissal as “on the merits” is practical: to limit repetitive filings. See Kirby, 2010-NMSC-014,
¶ 66. Such a dismissal obviously does not involve “a judicial determination of” the actual merits. See id. ¶ 67. Conversely, “[t]he words ‘without prejudice’ when used in an
order or decree generally indicate that there has been no
resolution of the controversy on its merits and leave the
issues in litigation open to another suit as if no action had
ever been brought.” Bralley v. City of Albuquerque, 1985NMCA-043, ¶ 18, 102 N.M. 715, 699 P.2d 645.

2

“Because the language of Rule 1-012 [NMRA] closely parallels that
of its federal counterpart, Rule 12 of the Federal Rules of Civil Procedure, we find federal authority interpreting Rule 12 . . . instructive.”
Doe v. Roman Catholic Diocese of Boise, Inc., 1996-NMCA-057, ¶ 5,
121 N.M. 738, 918 P.2d 17. We also cite to Rule 1-012(B)(6) NMRA
and Federal Rule of Civil Procedure 12(b)(6) interchangeably.

10a
Defendants’ Arguments
{17} Defendants contend that the elements of claim
preclusion are met here. Defendants argue that the In re
Plavix Marketing dismissal was “on the merits” because
Relator either failed to plead the requisite materiality under Universal Health Services, Inc. v. United States ex
rel. Escobar, ___ U.S.___, 136 S. Ct. 1989, 2001-03 (2016),
or failed to allege conduct recognized as violative of the
FCA. See United States ex rel. Petratos v. Genentech Inc.,
855 F.3d 481, 487 (3d Cir. 2017) (“A [FCA] violation includes four elements: falsity, causation, knowledge, and
materiality.”); In re Plavix Mktg., 2017 WL 2780744, *8
(same). They also claim that the State was in privity with
Relator because Relator represented the State’s interests
in the In re Plavix Marketing action. Finally, they argue
that the State’s claims “arise out of a common nucleus of
operative facts” related to Defendants’ marketing practices and, therefore, constitute the “same cause of action”
as in In re Plavix Marketing. In sum, Defendants maintain that, as a privy to Relator, the State was required to
bring all of its claims in In re Plavix Marketing, and having failed to do so, the State must be barred from bringing
them in a different suit.
Claim Preclusion in the Context of Qui Tam Actions
{18} We first observe that, as a general proposition,
“[i]f [the relator] had litigated a qui tam action to the gills
and lost, neither another relator nor the [government]
could start afresh.” United States ex rel. Lusby v. RollsRoyce Corp., 570 F.3d 849, 853 (7th Cir. 2009). This is true
because the relator sues on behalf of the government to
vindicate the government’s interests, and, although the
government is not a named party to the relator’s suit, it is
a real party in interest. United States ex rel. Eisenstein v.
City of New York, 556 U.S. 928, 934 (2009) (stating that
the government, although a real party in interest, is not a
“party” to a qui tam action).

11a
{19} However, courts have also recognized that, under certain circumstances, the government’s role in vindicating public interests militates against preclusion of its
claims. Cf. Nathan D. Sturycz, The King and I?: An Examination of the Interest Qui Tam Relators Represent
and the Implications for Future False Claims Act Litigation, 28 St. Louis U. Pub. L. Rev. 459, 462-63 (2009)
(noting that even though “[i]n the non-FCA context, the
concepts of preclusion would normally prevent duplicative
litigation[, a]pplication of preclusion [in FCA cases] is
muddled . . . by the distinction between the interests represented in a prior private cause of action and those represented in FCA litigation”). Thus, courts have repeatedly found that suits by or on behalf of the government
should not be precluded by certain actions of a private
party, even when that party acts as a qui tam relator. This
is especially true when the first suit is dismissed for reasons unrelated to the merits of the claims.
{20} For example, federal courts have relied on the
fact that a Rule 12(b)(6) dismissal is based only on the relator’s complaint, not the factual bases underlying the allegations, to hold that such a dismissal does not preclude
the government’s claims when the government has not intervened. See, e.g., United States ex rel. Williams v. Bell
Helicopter Textron, Inc., 417 F.3d 450, 455-56 (5th Cir.
2005).
{21} In Williams, the district court dismissed the relator’s FCA claims because the relator failed to plead
them with sufficient particularity under Rules 12(b)(6)
and (9)(b). Williams, 417 F.3d at 455. The district court
dismissed the complaint with prejudice as to both the relator and the government, stating that it was “dismissing
the claims against the government with prejudice because
it believed ‘the United States has had ample opportunity
to participate in the prosecution of those claims if [it] had
any notion that any of them has the slightest merit,’ ”

12a
suggesting that the government’s failure to intervene indicated that it found the claims meritless. Id.
{22} The United States Court of Appeals for the Fifth
Circuit reversed and modified the dismissal to be without
prejudice as to the government. Id. at 456. First, the court
dismissed as “unreasonable” any speculation about the
government’s reasons for not intervening and the district
court’s inference that the government would have intervened if it found the relator’s FCA claims “meritorious.”
Id. at 455. It observed that the FCA requires the Attorney
General to conduct an investigation of the relator’s allegations, but the FCA “does not require the government to
proceed if its investigation yields a meritorious claim.” Id.
“Indeed, absent any obligation to the contrary, it may opt
out for any number of reasons. For example, a decision
not to intervene may ‘not necessarily be an admission by
the [government] that it has suffered no injury in fact, but
rather the result of a cost-benefit analysis.’ ” Id. (alterations omitted) (quoting United States ex rel. Berge v. Bd.
of Trs. of the Univ. of Ala., 104 F.3d 1453, 1458 (4th Cir.
1997)). The court concluded, “[G]iven the Rule 9(b) deficiencies, the government may have determined that the
costs associated with proceeding based on a poorly
drafted complaint outweighed any anticipated benefits.”
Williams, 417 F.3d at 455.
{23} The Williams court then noted that a dismissal
with prejudice as to the government would give private
parties “perverse incentives” to file poorly drafted or improperly pleaded qui tam actions. Id. “By essentially requiring the government to intervene in order to avoid forfeiting any future claims against the defendant, private
parties would have the added incentive to file FCA suits
lacking in the required particularity, knowing full well
that the government would be obligated to intervene and
ultimately ‘fill in the blanks’ of the deficient complaint.”
Id. It went on to state that the district court’s approach

13a
would allow “a relator, in the most egregious of circumstances, to make sweeping allegations that, while true, he
is unable to effectively litigate, but which nonetheless bind
the government, via [claim preclusion], and prevent it
from suing over those concerns at a later date when more
information is available.” Id. (internal quotation marks
and citation omitted). It therefore concluded that the district court had abused its discretion by dismissing the
complaint with prejudice as to the government. Id. at 456.
{24} Without deciding the preclusive effect of a Rule
12(b)(6) dismissal on future related actions, but relying on
Williams, the Eleventh Circuit also modified a district
court’s dismissal for failure to state a claim to be without
prejudice to the government. Urquilla-Diaz v. Kaplan
Univ., 780 F.3d 1039, 1057 (11th Cir. 2015). A number of
federal district courts have also followed Williams and
held that a dismissal of a relator’s complaint for insufficient pleading should be without prejudice to the government. In each of these cases, the government had declined
to intervene in the relators’ actions. See, e.g., United
States v. KForce Gov’t Sols., Inc., No. 8:13-cv-1517-T36TBM, 2014 WL 5823460, at *6 n.2, *9 (M.D. Fla. Nov.
10, 2014) (dismissing an FCA complaint for failure to satisfy the Rule 9 pleading requirements and stating that dismissal is without prejudice to the government); United
States ex rel. Boros v. Health Mgmt. Assocs. (Health
Mgmt. I), No. 4:10-cv-10013-KMM, 2013 WL 12077816, at
*1-2 (S.D. Fla. July 26, 2013) (clarifying that dismissal was
without prejudice to the government after the relator’s
FCA complaint was dismissed for failure to state a claim);
United States ex rel. Banigan v. Organon USA, Inc., Civil
Action H-08-3314, 2013 WL 12142351, at *34 (S.D. Tex.
Feb. 1, 2013) (agreeing that “the dismissal [for inadequate
pleadings] should be without prejudice to the [government] because it has no involvement in preparing the complaint” and stating that “if the [c]ourt dismisses [the

14a
r]elators’ complaint on insufficient pleading grounds, the
dismissal would not preclude the government from bringing or continuing an action involving the same or similar
claims”); United States ex rel. Rostholder v. Omnicare,
Inc., No. CCB-07-1283, 2012 WL 3399789, at *15 (D. Md.
Aug. 14, 2012) (stating that “[t]he government’s decision
not to intervene . . . does not suggest that the government
necessarily believed that no FCA case was viable . . . [and
a]ccordingly, it would be inappropriate to dismiss with
prejudice as to the [government] or as to the states or localities on whose behalf relator brought this claim” (emphasis added) ), aff’d, 745 F.3d 694 (4th Cir. 2014). But see
Lusby, 570 F.3d at 853 (stating that the district court
erred in ordering a qui tam complaint dismissed with prejudice to the plaintiff and without prejudice to the government, but holding that judgment in a private suit did not
bar a later qui tam action).
{25} Similarly, courts have dismissed a complaint
with prejudice to the relator, but without prejudice to the
government, where the relator failed to prosecute or
acted improperly in litigation. See, e.g., United States ex.
rel. Prince v. Va. Res. Auth., 2014 WL 3405657, at *3
(W.D. Va. July 10, 2014) (failure to prosecute), aff’d, 593
Fed. App’x 230 (4th Cir. 2015); United States ex rel. King
v. DSE, Inc., No. 8:08-CV-2416-T-23EAJ, 2013 WL
610531, at *11 (M.D. Fla. Jan. 17, 2013) (litigation misconduct); cf. United States ex rel. Vaughn v. United Biologics, L.L.C., ___ F.3d. ___, 2018 WL 5000074, at *5 (5th Cir.
2018) (stating that “when the case’s outcome is decided by
the relator’s voluntary decision to quit, courts tend not to
bind the [g]overnment to that decision automatically” and
collecting cases).
{26} Although distinguishable on its facts, State ex
rel. Peterson v. Aramark Correctional Services, LLC,
2014-NMCA-036, 321 P.3d 128, echoes the reasoning in
Williams. In Peterson, this Court considered whether a

15a
summary judgment in the plaintiffs personal injury suit
barred the same plaintiff’s later qui tam action against the
same defendant. 2014-NMCA-036, ¶¶ 1-2. Holding that it
did not, this Court noted that, as a qui tam relator, the
plaintiff represented the state, rather than himself, and
therefore, his capacity in the two suits was not the same
and the “same parties or their privies” element of claim
preclusion was not met. Id. ¶¶ 24, 33. In its analysis, this
Court, like Williams, recognized that claim preclusion in
the qui tam context could operate adverse to the public
interest. Peterson, 2014-NMCA-036, ¶ 30. It stated that
“ ‘it would be inappropriate to snuff out the government’s
interest [in the qui tam action] just because a potential relator thoughtlessly omitted a qui tam claim from a[n earlier] personal suit.’ ” Id. (alterations omitted) (quoting
Lusby, 570 F.3d at 852). “[W]ere a personal lawsuit held
to preclude a qui tam suit on claim preclusion grounds, the
government would be incapable of vindicating its interest
by bringing a new qui tam suit, either on its own or
through another relator” because the government would
be bound by the judgment in the personal lawsuit. Id.3
{27} Defendants argue that the Williams holding is
inapposite for three reasons. Defendants first argue that
the United States Supreme Court’s decision in Eisenstein supersedes Williams. Defendants rely on the statement in Eisenstein that “the [government] is bound by
the judgment in all FCA actions regardless of its participation in the case.” 556 U.S. at 936. But the Eisenstein
Court was not considering the issue here; rather, the issue
3

Notably, although it was unnecessary for the Peterson Court to
discuss this fact under the circumstances of that case, “the district
court granted [the defendant’s] motion for summary judgment, and
dismissed, with prejudice, all claims brought on behalf of [the qui tam
p]laintiff, stating, however, that its order did not prejudice the
[s]tate’s ability to bring a related action based on the same facts.” Id.
¶ 20.

16a
there was whether the government was a “party” to a privately initiated FCA action such that the private party
could benefit from the longer period in which to appeal
provided to the government under Federal Rule of Appellate Procedure 4(a)(1)(B). Eisenstein, 556 U.S. at 931.
“The general rule is that cases are not authority for propositions not considered.” Sangre de Cristo Dev. Corp. v.
City of Santa Fe, 1972-NMSC-076, ¶ 23, 84 N.M. 343, 503
P.2d 323.
{28} In addition, the statement relied on by Defendants was a statement of the appellant’s argument, not a
statement of law by the Court. See Eisenstein, 556 U.S. at
936 (“[P]etitioner relies on the fact that the [government]
is bound by the judgment in all FCA actions regardless of
its participation in the case.” (emphasis added)). “[I]n
light of Eisenstein’s narrow holding—that the [g]overnment was not a ‘party’ for the purposes of [Rule]
4(a)(1)(B)—it would be inappropriate to interpret this
passing observation so broadly.” Vaughn, 2018 WL
5000074, at *6 (rejecting an argument that Eisenstein abrogated Williams); accord USA ex rel. Mastej v. Health
Mgmt. Assocs. (Health Mgmt. II), No. 2:11-cv-89-FtM29DNF, 2014 WL 12616929, at *2 (M.D. Fla. June 10,
2014); Health Mgmt. I, 2013 WL 12077816, at *1. Finally,
as shown above, a number of federal courts have relied on
Williams after Eisenstein was decided in 2009. But see
Lusby, 570 F.3d at 853 (stating that Eisenstein foreclosed
dismissal without prejudice as to the government).
{29} Defendants next argue that the policy considerations in Williams are inapposite because the MFCA “required New Mexico to determine whether there was substantial evidence of a violation . . . and to dismiss the claim
if none existed.” They argue that this “obligation means
that no qui tam complaint brought under the [MFCA]
should ever receive the State’s approval to proceed if, like
the [Williams] complaint, it is so facially deficient that it

17a
lacks substantial evidentiary support.” It is true that Section 27-14-7 requires that, when a claim is supported by
substantial evidence, the state must either pursue the
claim or permit the relator to pursue it. See § 27-14-7(E)
(providing that if there is substantial evidence, the state
“shall: (1) proceed with the action, in which case the action
shall be conducted by the department; or (2) notify the
court and the person who brought the action that it declines to take over the action” (emphasis added)). However, Defendants’ argument conflates a determination of
evidence supporting a claim with a determination of the
adequacy of the relator’s complaint. The state is required
to determine only whether “there is substantial evidence
that a violation has occurred,” not whether the relator’s
complaint adequately alleges a violation. Section 27-147(C); see Wallis, 2001-NMCA-017, ¶ 6 (stating that “[a]
motion to dismiss for failure to state a claim under Rule
1012(B)(6) . . . tests the legal sufficiency of the complaint,
not the facts that support it”). To hold that the state is required to involve itself in the articulation of the relator’s
claims in the complaint is tantamount to requiring the
state to intervene in the action. Such a result is contrary
to the clear intent of the MFCA to deputize private parties to seek recovery on the state’s behalf. See Berge, 104
F.3d at 1458 (stating that “the plain language of the [FCA]
clearly anticipates that even after the [government] has
‘diligently’ investigated a violation . . . , the [g]overnment
will not necessarily pursue all meritorious claims; otherwise there is little purpose to the qui tam provision permitting private attorneys general”); see Vaughn, 2018 WL
5000074, at *5 (citing Williams for the proposition that
“the non-intervening [g]overnment should not be bound
by the fate of an incompetent relator, lest it be forced to
intervene in every action”); see also § 27-14-8(D) (“If the
state elects not to proceed with the action, the person
bringing the action shall have the right to conduct the action.”); cf. Williams, 417 F.3d at 455 (stating that the

18a
government might decline to intervene, even if there is evidence of a violation, because “the costs associated with
proceeding based on a poorly drafted complaint [by the
relator] outweighed any anticipated benefits”).
{30} Finally, Defendants contend that Williams is
factually distinguishable from the circumstances here.
They argue that in Williams, the qui tam complaint was
dismissed because it was “so deficient [under Rule 9(b)]
that the court never reached the merits of the claim[,]”
Williams, 417 F.3d at 456, whereas here Relator’s claim
was instead dismissed based on the “heightened pleading
standard for materiality under the FCA,” rather than the
pleading requirements for fraud under Rule 9(b). In re
Plavix Mktg., 2017 WL 2780744, *10. They point out that
the federal district court found that Relator had “pleaded
herself out of court” by alleging facts that negated an essential element of an FCA claim. Thus, because Relator
“could not plead the required element of ‘materiality’ as a
matter of law[,]” the dismissal was on the merits.
{31} We do not read Williams as narrowly as Defendants. The Williams holding was not limited to the
Rule 9(b) pleading standard. Instead, the core of the Williams holding is the failure to adequately plead an FCA
claim under Rule 12(b)(6), regardless of the standard applied. See Williams, 417 F.3d at 453 (stating that the defendant “moved to dismiss under Rule 12(b)(6) for failure
to state a claim because the complaint did not comply with
the requirements of Rule 9(b)”). The reasoning for the
holding was that the government should not be bound by
the relator’s weaknesses in pleading what might be a valid
claim, whatever those weaknesses are. In other words,
“[w]hy would Congress want [a poorly plead but meritorious] earlier suit to bar a later potentially successful suit
that might result in a large recovery for the [g]overnment?” Kellogg Brown & Root Servs., Inc. v. United
States ex rel. Carter, 135 S. Ct. 1970, 1979 (2015); see id.

19a
(rejecting an argument that “a first-filed suit would bar
all subsequent related suits even if that earlier suit was
dismissed for a reason having nothing to do with the merits”). Hence, even if the In re Plavix Marketing dismissal
was not based on Rule 9(b), an issue we need not decide,
Williams would still apply here. See KForce Gov’t Sols.,
2014 WL 5823460, at *9 (dismissing the relator’s complaint where “the facts . . . plead . . . preclude a claim under
the FCA” with prejudice, but without prejudice as to the
government).
Dismissal of Relator’s Qui Tam Action Does Not Bar
the State’s Claims
{32} The dismissal order in In re Plavix Marketing
does not specify whether it is with or without prejudice to
Relator or the government. In re Plavix Mktg., 2017 WL
2780744, at *1, *23. Nevertheless, because the order did
not provide for a fifth amendment and disposed of all of
Relator’s claims, we construe it as an adjudication on the
merits as to Relator, consistent with the general rule that
a dismissal under Rule 12(b)(6) is an adjudication on the
merits for claim preclusion purposes. Moitie, 452 U.S. at
399 n.3 (stating that “[t]he dismissal for failure to state a
claim under Federal Rule of Civil Procedure 12(b)(6) is a
judgment on the merits” (internal quotation marks and citation omitted) ); see Kirby, 2010-NMSC-014, ¶ 66, 148
N.M. 106, 231 P.3d 87 (stating that this approach prevents
repetitive suits); Bralley, 1985-NMCA-043, ¶ 14 (“An order dismissing a party’s entire complaint without authorizing or specifying a definite time for leave to file an
amended complaint, is a final order for purposes of appeal.”).
{33} However, for the reasons stated in Williams and
its progeny, we construe the order as without prejudice to
the government. Cf. Bralley, 1985-NMCA-043, ¶ 18 (stating that “[t]he words ‘without prejudice’ when used in an
order or decree generally indicate that there has been no

20a
resolution of the controversy on its merits and leave the
issues in litigation open to another suit as if no action had
ever been brought”). Thus, as to the State, the federal district court’s dismissal of Relator’s fourth amended complaint is not a “final judgment on the merits” for claim
preclusion purposes. “Because the claim preclusion doctrine does not bar a subsequent lawsuit unless all [of the
claim preclusion] elements are met, we do not consider the
parties’ remaining claim preclusion arguments.” Peterson, 2014-NMCA-036, ¶ 33.
CONCLUSION
{34} Consistent with federal FCA and claim preclusion law, we construe the In re Plavix Marketing dismissal as without prejudice to the State’s claims, and, therefore, hold that the dismissal does not bar the State’s present claims under the UPA and FATA, as well as common
law claims for fraud and unjust enrichment. Accordingly,
we affirm the state district court’s denial of Defendants’
motion to dismiss.
{35} IT IS SO ORDERED.
LINDA M. VANZI, Chief Judge
WE CONCUR:
J. MILES HANISEE, Judge
JULIE J. VARGAS, Judge

21a
APPENDIX B

IN THE COURT OF APPEALS OF
THE STATE OF NEW MEXICO
STATE OF NEW MEXICO ex rel.
HECTOR BALDERAS, Attorney General,
Plaintiff-Appellee,
v.
BRISTOL-MYERS SQUIBB COMPANY,
SANOFI-AVENTIS U.S. LLC, SANOFI
U.S. SERVICES INC., formerly known as
SANOFI-AVENTIS U.S. INC.,
SANOFI-SYNTHELABO INC., and DOE DEFENDANTS 1-100,
Defendants-Appellants.
No. A-1-CA-36906
ORDER DENYING MOTION FOR REHEARING
This matter is before the Court on Appellants’ motion
for rehearing and Appellee’s response thereto. The original panel has considered the motion and response.
THE COURT ORDERS THAT the motion is DENIED.
________________________
LINDA M. VANZI, Chief
Judge

22a
APPENDIX C

IN THE SUPREME COURT OF
THE STATE OF NEW MEXICO
_____________
March 11, 2019
NO. S-1-SC-37430
STATE OF NEW MEXICO, ex rel.
HECTOR BALDERAS, ATTORNEY GENERAL,
Plaintiff-Respondent,
v.
BRISTOL-MYERS SQUIBB COMPANY,
SANOFI-AVENTIS U.S. LLC, SANOFI
U.S. SERVICES, INC. f/k/a SANOFI-AVENTIS
U.S. INC.,
SANOFI-SYNTHELABO INC., and DOE DEFENDANTS 1-100,
Defendants-Petitioners.
_____________
ORDER
WHEREAS, this matter came on for consideration
by the Court upon petition for writ of certiorari and response filed pursuant to Rule 12-502 NMRA, petitioners’
motion for leave to file a reply, and response thereto, and
the Court having considered the foregoing and being sufficiently advised, Chief Justice Judith K. Nakamura,

23a
Justice Barbara J. Vigil, Justice Michael E. Vigil, Justice
C. Shannon Bacon, and Justice David K. Thomson concurring;
NOW, THEREFORE, IT IS ORDERED that the
petition is GRANTED and a writ of certiorari shall issue
to the New Mexico Court of Appeals;
IT IS FURTHER ORDERED that the petition is
GRANTED on all questions as presented in the petition,
and a subsequent order shall be entered setting forth instructions regarding a briefing schedule, if any; and
IT IS FURTHER ORDERED that the motion for
leave to file a reply is DENIED.
IT IS SO ORDERED.

[seal]

WITNESS, the Honorable Judith K. Nakamura, Chief Justice of the Supreme Court
of the State of New Mexico, and the seal of
said Court this 11th day of March, 2019.

Joey D. Moya, Chief Clerk of the Supreme
Court of the State of New Mexico

24a
APPENDIX D

IN THE SUPREME COURT OF
THE STATE OF NEW MEXICO
_________________
June 05, 2020
NO. S-1-SC-37430
STATE OF NEW MEXICO, ex rel.
HECTOR BALDERAS, ATTORNEY GENERAL,
Plaintiff-Respondent,
v.
BRISTOL-MYERS SQUIBB COMPANY,
SANOFI-AVENTIS U.S. LLC, SANOFI
US SERVICES, INC. f/k/a SANOFI-AVENTIS
U.S. INC.,
SANOFI-SYNTHELABO INC., and DOE DEFENDANTS 1-100,
Defendants-Petitioners.
_____________
ORDER
WHEREAS, this matter came on for consideration
upon petition for writ of certiorari filed pursuant to Rule
12-502 NMRA, and the Court having considered said petition and being sufficiently advised, issued its writ of certiorari on March 11, 2019;

25a
WHEREAS, the parties filed briefs and subsequently presented oral arguments on May 13, 2020; and
WHEREAS, having considered the foregoing, the
judgment of the Court is that the writ shall be quashed as
improvidently granted, Justice Barbara J. Vigil, Justice
Michael E. Vigil, Justice C. Shannon Bacon, and Justice
David K. Thomson concurring; Chief Justice Judith K.
Nakamura not participating;
NOW, THEREFORE, IT IS ORDERED that the
writ of certiorari issued on March 11, 2019, is QUASHED;
and
IT IS FURTHER ORDERED that upon issuance of
mandate in accordance with Rule 12-402(B) NMRA the
record proper, transcript of proceedings, and any exhibits
shall be returned to the New Mexico Court of Appeals.
IT IS SO ORDERED.

[seal]

WITNESS, the Honorable Judith K. Nakamura, Chief Justice of the Supreme Court
of the State of New Mexico, and the seal of
said Court this 5th day of June, 2020.

26a
APPENDIX E

STATE OF NEW MEXICO
COUNTY OF SANTA FE
FIRST JUDICIAL DISTRICT COURT
STATE OF NEW MEXICO, ex rel. HECTOR
BALDERAS, ATTORNEY GENERAL,
Plaintiff,
vs.
BRISTOL-MYERS SQUIBB COMPANY,
SANOFI-AVENTIS U.S. LLC
SANOFI US SERVICES INC., formerly
known as SANOFI-AVENTIS U.S. INC.,
SANOFI-SYNTHELABO INC., and
DOE DEFENDANTS 1 to 100,
Defendants.
No. D-101-CV-2016-02176
ORDER DENYING DEFENDANTS’ MOTION TO
DISMISS BASED ON RES JUDICATA AND CERTIFICATION OF THE ISSUE FOR INTERLOCUTORY APPEAL
THIS MATTER, having come before the Court on
Defendants’ Motion to Dismiss based on res judicata, and
THIS COURT, having reviewed the briefing on the Motion, including supplemental briefing, and having heard
oral argument on November 3, 2017, FINDS:
1. In September 2016, the State of New Mexico
brought this action against Defendants, manufacturers of

27a
the prescription drug Plavix. The State alleges that Defendants engaged in false, deceptive, and unfair marketing of Plavix as more fully alleged in the State’s complaint,
and asserts causes of action for violations of the New Mexico Unfair Practices Act, NMSA 1978, Sections 57-12-1 et
seq., the New Mexico Medicaid Fraud Act, NMSA 1978,
Sections 30-44-1, et seq., and the New Mexico Fraud
Against Taxpayers Act (“FATA”), NMSA 1978, Sections
44-9-1 et seq., as well as common law claims for fraud, negligence, and unjust enrichment.
2. This Court previously stayed this action pending
resolution of another lawsuit against Defendants in New
Jersey federal court, United States ex rel. Dickson v.
Bristol Myers Squibb Co., MDL No. 13-2418, No. 13-1039
(D.N.J.) (“Dickson”). Dickson was a federal False Claims
Act (“FCA”) qui tam action brought by a relator on behalf
of the federal government and multiple states, including
the State of New Mexico, alleging that Defendants fraudulently promoted Plavix. On behalf of the State of New
Mexico, the relator asserted a single cause of action for
violation of the New Mexico Medicaid False Claims Act,
NMSA, Sections 27-14-1 et seq., a cause of action not asserted by the State in this action.
3. On June 27, 2017, the federal court in Dickson dismissed the relator’s Fourth Amended Complaint with
prejudice at the pleading stage, including the New Mexico
Medicaid False Claims Act claim brought on behalf of the
State of New Mexico. The court found that the relator
failed to plead the element of materiality required to state
a claim under, inter alia, the New Mexico Medicaid False
Claims Act. The court explained that “the imposition by
the Supreme Court in [Universal Health Servs., Inc. v.
United States and Massachusetts, ex rel. Escobar, 136 S.
Ct. 1989, 2001 (2016)] of a heightened pleading standard
for materiality under the FCA to be dispositive of

28a
Relator’s allegations in the [Fourth Amended Complaint].” No appeal was taken from this order of dismissal
in Dickson.
4. In August 2017, Defendants moved to dismiss this
action, arguing that, under the res judicata doctrine, the
State’s claims are barred by the dismissal in Dickson. Res
judicata applies when (1) there was a final judgment in an
earlier action, (2) the earlier judgment was on the merits,
(3) the parties in the two suits are the same, and (4) the
cause of action is the same in both suits.
5. This Court finds that res judicata does not apply
here because the causes of action are not the same in the
two suits. The relator in Dickson did not assert any of the
claims the State asserts in this case, but rather only a single New Mexico Medicaid False Claims Act claim. And,
with the exception of the State’s FATA claim here, the relator could not have asserted the claims the State asserts
here because the relator lacked authority to do so. If the
State had intervened in Dickson, the State could have asserted those claims, but the State elected not to intervene.
While the relator could have asserted the State’s FATA
claim in Dickson, she was not required to do so, and therefore res judicata does not bar the State from asserting its
FATA claim here.
6. Thus, while the relator in the Dickson case stood
in the shoes of the State of New Mexico for purposes of
the New Mexico Medical False Claims Act claim, the relator did not stand in the State’s shoes for purposes of the
claims asserted by the State here.
7. Furthermore, in a case such as this, where the relator’s claims were dismissed based on a failure to comply
with the heightened pleading requirements of Rule 9(b),
and not based on the merits of the claim, it would be inappropriate to bar the State’s claims.

29a
8. The Court makes no ruling on whether the dismissal of the Dickson case would preclude a New Mexico
Medicaid False Claims Act claim here.
9. Based on the foregoing, as well as the legal arguments and authorities presented in the parties’ briefs and
by counsel during oral argument, Defendants’ Motion to
Dismiss on the basis of res judicata is DENIED.
10. Regarding the application of res judicata only,
the Court FINDS that this Order: (1) does not practically
dispose of the merits of the action, (2) involves a controlling question of law as to which there is substantial ground
for difference of opinion, and (3) an immediate appeal
from this order or decision may materially advance the ultimate termination of the litigation. NMSA 1978 § 39-3-4.
11. Therefore, the portion of this Order regarding the
application of res judicata is hereby Certified for interlocutory appeal.
IT IS SO ORDERED.
________________________________
Sarah M. Singleton, Judge Pro Tem,
Sitting by Designation
* * * * *

30a
APPENDIX F

STATE OF NEW MEXICO
COUNTY OF SANTA FE
FIRST JUDICIAL DISTRICT COURT
STATE OF NEW MEXICO, ex rel. HECTOR
BALDERAS, ATTORNEY GENERAL,
Plaintiff,
vs.
BRISTOL-MYERS SQUIBB COMPANY, SANOFIAVENTIS U.S. LLC, SANOFI US SERVICES INC.,
formerly known as SANOFI-AVENTIS U.S. INC.,
SANOFI-SYNTHELABO INC., and DOE
DEFENDANTS 1 to 100,
Defendants.
No. D-101-CV-2016-02176
Hon. Sarah Singleton
PLAINTIFF’S FIRST AMENDED COMPLAINT
FOR DECLARATORY RELIEF, DAMAGES,
RESTITUTION AND CIVIL PENALTIES
1. Plaintiff, the State of New Mexico (hereinafter
“the State”), by and through its Attorney General, Hector
Balderas, hereby brings this action against Defendants
Bristol-Myers Squibb Company (“BMS”), Sanofi-Aventis
U.S. LLC, Sanofi US Services Inc., formerly known as
Sanofi-Aventis U.S. Inc., and Sanofi-Synthelabo Inc. (collectively, “Defendants”) and alleges, upon information
and belief, as follows:
2. This action arises from Defendants’ false, deceptive, and unfair labeling and promotion of their prescription antiplatelet drug Plavix (clopidogrel bisulfate), which

31a
are actionable under the New Mexico Unfair Practices
Act, NMSA 1978, Sections 57-12-1 et seq., and the New
Mexico Fraud Against Taxpayers Act, NMSA 1978, Sections 44-9-1 et seq., and for other common law and equitable causes of action stated herein by the New Mexico Attorney General in the exercise of his statutory powers.
3. Beginning in March 1998, until the present, Defendants have engaged in a false, deceptive, and unfair
marketing strategy designed to increase revenues from
Plavix. Since at least March 1998, Defendants knew or
should have known that Plavix has diminished or no effect
on a substantial and significant percentage of the patient
population and that those patients for whom Plavix would
not work could be identified through a simple genetic test.
Yet, Defendants failed to disclose that negative efficacy
information because it would adversely affect the number
of Plavix prescriptions written and, thus, sales and revenues. For such patients, Plavix does not prevent heart attacks, strokes, or vascular death, and it presents a considerable risk of gastrointestinal bleeding and other complications. After scientists began to learn that Plavix has diminished or no effect on a significant percentage of the
patient population, Defendants sought to protect Plavix’s
sales and increase revenues by marketing higher (and
more expensive) doses of Plavix for such patients, placing
them at even greater risk, while triggering substantially
higher pharmacy costs incurred by government payors.
4. Since March 1998, Defendants have also falsely
and misleadingly sought to replace aspirin with Plavix,
which costs one hundred times more than aspirin, for
treatment of patients at risk for ischemic events. Defendants ignored, concealed, and minimized clinical trial data
and other information showing that Plavix is only as effective as – or in some cases even less effective than – aspirin
in treating such patients, and that Plavix has a higher
chance of causing gastrointestinal bleeding and other

32a
complications. Despite that information, Defendants
falsely and misleadingly marketed Plavix as being more
effective and safer than aspirin. Defendants also falsely
and misleadingly marketed Plavix as being more effective
and safer than other competitor drugs. In 2010, the
American Stroke Association (“ASA”) confirmed what
Defendants knew or by the exercise of reasonable care
should have known at all relevant times: “No studies have
compared clopidogrel [Plavix] with placebo, and studies
comparing it with other antiplatelet agents [including aspirin] have not clearly established that it is superior or
even equivalent to any one of them.”
5. In addition, Defendants falsely, deceptively, and
unfairly marketed Plavix as effective and safe for uses for
which the drug had not been shown to be effective or safe.
Defendants also, through deliberate deception or otherwise, knowingly caused false claims to be submitted to the
State for reimbursement in connection with prescriptions
for a drug that was not medically necessary and was not
cost-effective.
6. Defendants’ aggressive marketing strategy,
combined with Defendants’ successful cover-up of mounting adverse efficacy and safety evidence, produced billions of dollars in profits for Defendants. Plavix’s sales in
the United States peaked at $6.62 billion in 2011.
7. Plaintiff seeks to recover the costs of Plavix and
the costs of Plavix-related illnesses, including, but not limited to, expenditures for:
a. Medical assistance provided under New Mexico’s
Medicaid Program pursuant to the Public Assistance Act,
N.M. STAT. ANN. § 27-2-1 et seq.;
b. Public employees’ health insurance coverage
costs pursuant to the Group Benefits Act, N.M. STAT.
ANN. § 10-7B-6;

33a
c. Retired public employees’ group insurance costs
from the Retiree Health Care Fund, pursuant to the Retiree Health Care Act, N.M. STAT. ANN. § 10-7C-8;
d. Public employees and school board retirees’
group health insurance costs from the Public School Insurance Fund, pursuant to the Public School Insurance
Authority Act, N.M. STAT. ANN. § 22-2-6.6 and/or N.M.
STAT. ANN. § 22-29-1; and
e. Any other expenditures by the New Mexico Human Services Department, the New Mexico Department
of Health, the New Mexico Department of Corrections,
the Risk Management Division of the General Services
Department, the Retiree Health Care Authority and/or
the Public Schools Insurance Authority.
f. Patients who have received Plavix prescriptions
and/or treatment for Plavix-related illnesses in connection with expenditures made by the above-described State
programs, agencies and/or departments are hereinafter
collectively referred to as “State of New Mexico participants”.
8. The State brings this action exclusively under the
laws of the State of New Mexico. No federal claims are
being asserted, and to the extent that any claim or factual
assertion set forth herein may be construed to have stated
any claim under federal law, such claim is expressly and
undeniably disavowed and disclaimed by the State.
9. Nor does the State bring this action on behalf of
a class or any group of persons that can be construed as a
class. Nor does the State bring this as a mass action or
state its claims and causes of action in any way that can be
construed as a mass action. The claims asserted herein
are brought solely by the State and are wholly independent of any claims that individual users of Plavix may have
against Defendants.

34a
THE PARTIES

10. Plaintiff, the State of New Mexico, is a body politic created by the Constitution and laws of the State of
New Mexico, and as such is not a citizen of any State.
11. Attorney General Hector Balderas is the present
Attorney General of the State of New Mexico. Attorney
General Hector Balderas is acting pursuant to his authority under, inter alia, NMSA 1978, Sections 8-5-1 et seq.,
the New Mexico Unfair Practices Act, NMSA 1978, Sections 57-12-1 et seq., and the New Mexico Fraud Against
Taxpayers Act, NMSA 1978, Sections 44-9-1 et seq.
12. Upon information and belief, Defendant BristolMyers Squibb Company (“BMS”) is a Delaware corporation with its principal corporate offices at 345 Park Avenue, New York, New York 10154 and facilities throughout
the State of New Jersey. Plaintiff is informed and believes, and based thereupon alleges, that at all relevant
times BMS has manufactured, advertised, labeled, marketed, promoted, sold, and distributed Plavix in the
United States, and has, directly or through and in concert
with its co-Defendants, systematically and continuously
advertised, marketed, promoted, sold, and/or distributed
Plavix within the State of New Mexico. BMS is registered
to do business in New Mexico.
13. Upon information and belief, Defendant SanofiAventis U.S. LLC is a Delaware limited liability company
with headquarters and research facilities located at 55
Corporate Drive, Bridgewater, New Jersey 08807. Plaintiff is informed and believes, and based thereupon alleges,
that at all relevant times Sanofi-Aventis U.S. LLC has engaged in the business of manufacturing, developing, advertising, labeling, marketing, promoting, selling, and/or
distributing Plavix in the United States, and has, directly
or through and in concert with its co-Defendants, systematically and continuously advertised, marketed,

35a
promoted, sold, and/or distributed Plavix within the State
of New Mexico.
14. Upon information and belief, Defendant Sanofi
US Services Inc., formerly known as Sanofi-Aventis U.S.
Inc., is a Delaware corporation with offices located at 55
Corporate Drive, Bridgewater, New Jersey 08807. Plaintiff is informed and believes, and based thereupon alleges,
that at all relevant times Defendant Sanofi US Services
Inc. f/k/a Sanofi-Aventis U.S., Inc. has engaged in the
business of manufacturing, developing, advertising, labeling, marketing, promoting, selling, and/or distributing
Plavix in the United States, and has, directly or through
and in concert with its co-Defendants, systematically and
continuously advertised, marketed, promoted, sold,
and/or distributed Plavix within the State of New Mexico.
15. Upon information and belief, Defendant SanofiSynthelabo Inc. is a Delaware corporation. Plaintiff is informed and believes, and based thereupon alleges, that at
all relevant times Sanofi-Synthelabo Inc. has engaged in
the business of manufacturing, developing, advertising,
labeling, marketing, promoting, selling, and/or distributing Plavix in the United States, and has, directly or
through and in concert with its co-Defendants, systematically and continuously advertised, marketed, promoted,
sold, and/or distributed Plavix within the State of New
Mexico.
16. Defendants Sanofi-Aventis U.S. LLC, Sanofi US
Services Inc., formerly known as Sanofi-Aventis U.S.,
Inc., and Sanofi-Synthelabo Inc. are collectively referred
to as “Sanofi” in this Complaint.
17. At all relevant times, Defendants have packaged,
distributed, supplied, sold, placed into the stream of commerce, labeled, described, marketed, advertised, promoted, and purported to warn or purported to inform users regarding the benefits and risks associated with the
use of the prescription drug Plavix.

36a
18. DOE DEFENDANTS 1 to 100 are sued herein
under fictitious names for the reason that after diligent
and good faith efforts their names, identities, and capacities, whether individual, corporate, associate, or otherwise, are presently unknown to Plaintiff. Plaintiff will
make the names or identities of said Defendants known to
the Court after the same have been ascertained. Plaintiff
is informed and believes, and based thereupon alleges,
that each of the Defendants designated herein as a DOE
DEFENDANT has taken part in and participated with,
and/or aided and abetted, some or all of the other Defendants in some or all of the matters referred to herein and
has been in some manner responsible for some or all of
the deceptive and unfair practices and violations of New
Mexico’s Unfair Practices Act and Fraud Against Taxpayers Act, and all common law violations alleged herein.
19. Plaintiff is informed and believes, and based
thereupon alleges, that at all relevant times, each Defendant has occupied agency, employment, joint venture, or
other relationships with each of the other named and
DOE DEFENDANTS; that at all times herein mentioned
each Defendant has acted within the course and scope of
said agency, employment, joint venture, and/or other relationship; that each other Defendant has ratified, consented to, and approved the acts of its agents, employees,
joint venturers, and representatives; and that each has actively participated in, aided and abetted, or assisted one
another in the commission of the wrongdoing alleged in
this Complaint.
20. At all relevant times, Defendants, and each of
them, have engaged in the business of, or were successors
in interest to, entities engaged in the business of researching, licensing, designing, formulating, developing, compounding, testing, manufacturing, producing, processing,
assembling, inspecting, distributing, marketing, labeling,
promoting, packaging, advertising, distributing, and/or

37a
selling the prescription drug Plavix as an antiplatelet
medication to individuals and entities in the State of New
Mexico, including the City and County of Santa Fe, New
Mexico.
21. At all relevant times, Defendants have been authorized to do business within the State of New Mexico
and have in fact sold and supplied Plavix to individuals and
entities located within every county of the State of New
Mexico.
JURISDICTION AND VENUE

22. The courts of New Mexico have jurisdiction over
the subject matter of this action pursuant to, inter alia,
Article VI, Section 13 of the New Mexico Constitution.
23. This Court has personal jurisdiction over Defendants because Defendants do business in New Mexico
and/or have the requisite minimum contacts with New
Mexico necessary to constitutionally permit the Court to
exercise jurisdiction with such jurisdiction also being
within the contemplation of the New Mexico “long arm”
statute, NMSA 1978, Section 38-1-16.
24. Defendants did distribute, supply, market, sell,
promote, and advertise Plavix and otherwise commit the
wrongful acts and omissions described herein in New
Mexico and specifically in Santa Fe County.
25. Venue is proper in Santa Fe County pursuant to
NMSA 1978, Section 38-3-1 because: (1) the Attorney
General resides in Santa Fe County, New Mexico; and (2)
the causes of action alleged herein originated in part in
Santa Fe County. Venue is also proper in Santa Fe
County pursuant to NMSA 1978, Section 57-12-8 because
Defendants have used methods, acts or practices in Santa
Fe County which are unlawful under the Unfair Practices
Act.
26. The instant Complaint does not confer diversity
jurisdiction upon the federal courts pursuant to 28 U.S.C.

38a
§ 1332. Likewise, federal question subject matter jurisdiction pursuant to 28 U.S.C. § 1331 is not invoked by the
instant Complaint, as it sets forth herein exclusively state
law claims against Defendants. Nowhere herein does
Plaintiff plead, expressly or implicitly, any cause of action
or request any remedy which is founded upon federal law.
The issues presented in the allegations of the instant
Complaint do not implicate significant federal issues; do
not turn on the substantial federal interpretation of federal law; nor do they raise a substantial federal question.
Indeed, Plaintiff expressly avers that the only causes of
action claimed, and the only remedies sought herein, are
for those founded upon the statutory, common, and decisional laws of the State of New Mexico. Further, assertion of federal jurisdiction over the claims made herein
would improperly disturb the congressionally approved
balance of federal and state responsibilities. Neither this
case, nor any issue in this case has any effect on the federal system as a whole. Accordingly, any improvident and
dilatory attempt by Defendant to remove this case to federal court would be without a reasonable legal basis in fact
or law.
FACTUAL BACKGROUND
I.

DEFENDANTS’ FALSE, DECEPTIVE, AND UNFAIR MARKETING OF PLAVIX

27. Plavix is an oral tablet formulation of clopidogrel
bisulfate manufactured by BMS and jointly marketed in
the United States by Defendants. All marketing and pricing decisions for Plavix have been made and implemented
jointly by Defendants. Since March 17, 1998, Plavix has
been exclusively marketed in the United States by Defendants under the registered trademark “Plavix®.”
28. Plavix was first approved by the FDA on November 17, 1997 for the reduction of atherosclerotic events,
i.e., myocardial infarction (also known as a heart attack),

39a
stroke, and vascular death, in patients with atherosclerosis documented by recent stroke, recent myocardial infarction, or established peripheral arterial disease
(“PAD”). On February 27, 2002, the FDA approved
Plavix for the treatment of patients with a certain type of
Acute Coronary Syndrome (unstable angina/non-ST-elevation myocardial infarction), also known as “NSTEMI.”
On August 17, 2006, the FDA approved Plavix for the
treatment of patients with another type of Acute Coronary Syndrome (ST-elevation myocardial infarction), also
known as “STEMI.”
A.

Failure to Disclose Plavix’s Diminished Effectiveness in a Significant Percentage of the Patient
Population

29. On March 25, 2010, Defendants added a black
box warning to Plavix’s label that states that Plavix does
not become effective until it is metabolized into its active
form by the CYP2C19 liver enzyme. Individuals with
particular CYP2C19 genotypes are CYP2C19 poor metabolizers. The black box warning added in March 2010
cautions that Plavix has diminished effectiveness in patients who are CYP2C19 poor metabolizers, and recommends alternative therapies in such patients.
30. It is believed that a significant percentage of the
patient population in New Mexico consists of CYP2C19
poor metabolizers.
31. The black box warning added in March 2010 also
states that patients who are CYP2C19 poor metabolizers
treated with Plavix have higher cardiovascular event
rates than patients with normal CYP2C19 function. The
black box warning further states that tests are available
to identify a patient’s CYP2C19 genotype and aid in determining prescribing decisions, and to consider alternative treatment in patients identified as CYP2C19 poor metabolizers.

40a
32. Plaintiff is informed and believes, and based
thereupon alleges, that since at least March 1998, 12 years
before the black box warning was added, Defendants
knew or by the exercise of reasonable care should have
known that Plavix has diminished or no effect on patients
who are CYP2C19 poor metabolizers. Upon information
and belief, Defendants, however, failed to disclose that information in order to protect Plavix’s sales and revenues.
33. Plaintiff is also informed and believes, and based
thereupon alleges, that since at least 2003, Defendants
knew or by the exercise of reasonable care should have
known that Plavix has diminished or no effect on patients
who are also taking drugs that are CYP2C19 inhibitors.
Upon information and belief, Defendants, however, failed
to disclose that information in order to protect Plavix’s
sales and revenues.
34. Plaintiff is further informed and believes, and
based thereupon alleges, that when information about
Plavix’s lack or utter absence of efficacy in patients who
are poor CYP2C19 metabolizers became known in the scientific community through other channels, Defendants attempted to undermine that information and protect
Plavix’s sales and increase its revenues by urging physicians to prescribe higher (and more expensive) doses of
Plavix to such patients, putting them at a higher risk of
gastrointestinal bleeding and other complications associated with Plavix.
35. Scientific literature available years before Defendants submitted Plavix’s new drug application
(“NDA”) in 1997 described the genetic variations of the
CYP2C19 enzyme that cause it to metabolize poorly in a
significant percentage of the patient population, and the
prevalence of those genetic variations in certain populations (e.g., Caucasian, African, and Asian). Such literature also described the effect of those genetic variations
on drugs dependent on the CYP2C19 enzyme. An article

41a
in the Journal of Biological Chemistry concluded in 1994
that a defect in the CYP2C19 enzyme interfered with metabolization of numerous drugs. However, and importantly, the article’s authors stated that they were able
to test for the defect through a simple genetic test.
36. When Defendants submitted their NDA for
Plavix in 1997, they relied on a very small data set and
claimed not to understand exactly how the drug was metabolized. However, Defendants indicated that they knew
that Plavix was metabolized in the liver, and that the
CYP2C19, CYP2B6, and CYP3A4 enzymes of the cytochrome P450 system were principally involved.
37. In 2002 and 2003, published studies distinguished
between responders and non-responders to Plavix. In
2002, individual variations in responsiveness to Plavix
were reported.
38. Several articles published in 2004 and 2005 confirmed that Plavix has diminished or no effect on a significant portion of Plavix patients because they metabolize
the drug poorly.
39. In 2005, the Journal of the American College of
Cardiology published the results of a study, which Defendants sponsored, examining the effectiveness of 544 individuals to Plavix, concluding that “there is a very large
range of responsiveness to ex vivo testing” in patients using Plavix, and that “it is likely that a small but significant
portion of patients are receiving inadequate protection
from thrombotic events despite currently standard antiplatelet therapy, whereas a similar proportion may be at
higher risk for bleeding complications.”
40. In February 2006, the Journal of the American
College of Cardiology published an abstract concluding
that patients with a CYP2C19*2 allele are associated with
a diminished response to Plavix, which may also explain

42a
why patients had previously reported variability in response to the drug.
41. In June 2006, the American Society of Hematology published the results of a study in an article stating
that “pharmacodynamic response to [Plavix] varies
widely from subject to subject, and about 25% of patients
treated with standard [Plavix] doses display low ex vivo
inhibition of ADP-induced platelet aggregation.” The authors concluded that “response to [Plavix] was strongly
influenced by the CYP2C19 genotypic status.”
42. In January 2009, a study in the New England
Journal of Medicine concluded that among persons
treated with Plavix, “carriers of a reduced-function
CYP2C19 allele had significantly lower levels of the active
metabolite of [Plavix], diminished platelet inhibition, and
a higher rate of major adverse cardiovascular events, including stent thrombosis, than did noncarriers.” That
study found that approximately 30% of the study participants had at least one reduced-function CYP2C19 allele.
A different study published in 2009 estimated that the
presence of such an allele is even more prevalent in African-American and Asian populations.
43. Plaintiff is informed and believes, and based
thereupon alleges, that Defendants have known or should
have known of additional information regarding Plavix’s
diminished or complete lack of effectiveness in many patients since at least March 1998.
44. There is no indication that Defendants brought
any of the foregoing information about Plavix’s lack of effectiveness to the public’s attention until after the FDA
notified Defendants in March 2009 of “new safety information” that should be included in Plavix’s labeling; Defendants knew or should have known of information regarding Plavix’s diminished or complete lack of effectiveness in many patients for over a decade.

43a
45. Plaintiff is further informed and believes, and
based thereupon alleges, that Defendants have misrepresented and failed to adequately disclose that Plavix is less
effective in elderly patients than in younger patients,
which Defendants knew or in the exercise of reasonable
care should have known since at least August 2001.
46. By making statements about Plavix’s efficacy
and/or safety without disclosing information regarding
Plavix’s diminished or complete lack of effectiveness in
many patients, Defendants made false and misleading
statements and representations when marketing the
drug, including in its labeling, sales materials, and other
promotional materials and efforts.
47. Upon information and belief, at all relevant
times, Defendants made the foregoing statements and
omissions concerning Plavix’s efficacy and safety to
healthcare providers and the general public throughout
the nation, including New Mexico.
B. False, Deceptive, and Unfair Superiority Claims

48. Plaintiff is informed and believes, and based
thereupon alleges, that since March 1998, Defendants
have sought to increase Plavix sales and market share by
making false and misleading superiority claims about
Plavix relative to aspirin, the traditional treatment for patients with or at risk for atherosclerosis. Aspirin costs approximately $.04 per pill, while Plavix costs approximately
$4.00 per pill.
49. The efficacy and safety of Plavix and aspirin for
treatment of patients at risk for ischemic events were
studied in the Clopidogrel vs. Aspirin in Patients at Risk
for Ischemic Events (“CAPRIE”) clinical trial, the results
of which were published in 1996. The CAPRIE trial studied 19,185 patients who were divided into three subgroups
of approximately 6,300 patients. The three subgroups
were respectively comprised of: (1) patients who

44a
experienced a recent stroke; (2) patients who experienced
recent myocardial infarction; and (3) patients who experienced symptomatic PAD. Half of the patients in each subgroup were given 325 mg of aspirin once daily and the
other half were given 75 mg of Plavix once daily. The primary objective of the study was to compare the rates of
ischemic stroke, myocardial infarction, and vascular death
between patients taking Plavix and patients taking aspirin.
50. The CAPRIE trial results showed an absolute
risk reduction of only 0.5%. In other words, out of every
1,000 patients, a mere 5 patients experienced a benefit
from treatment with Plavix in comparison to treatment
with aspirin. While Plavix showed a slightly significant
relative risk reduction of 8.7%, that figure was based in
large part on the results in the PAD subgroup, which
demonstrated a relative risk reduction of 23.8%. In the
subgroups comprised of patients who had a recent stroke
or myocardial infarction, the trial results did not show
that Plavix had a statistically significant risk reduction; in
fact, aspirin had a greater relative risk reduction than
Plavix in patients who had a recent myocardial infarction.
Plaintiff is informed and believes, and based thereupon alleges, that notwithstanding those results, since Plavix’s
product launch in March 1998, Defendants have falsely
and misleadingly marketed Plavix as being superior to aspirin in treating stroke and heart attack patients in order
to take market share away from aspirin medications.
51. Plaintiff is also informed and believes, and based
thereupon alleges, that since March 1998, Defendants
have falsely and misleadingly promoted Plavix and the
CAPRIE trial results by not fully disclosing the results of
the trial’s subgroups, and by minimizing and failing to
provide all of the data concerning adverse events occurring in the CAPRIE trial and other clinical trials involving
Plavix.

45a
52. Relatedly, Plaintiff is informed and believes, and
based thereupon alleges, that since March 1998, Defendants have falsely and misleadingly promoted Plavix for
primary prevention of disease, including primary prevention of strokes and myocardial infarctions, in all patients
at risk for atherosclerosis. Plavix has not been approved
for primary prevention, and it is not the standard of care.
Generic aspirin remains the standard of care for patients
with or at risk for atherosclerosis.
53. Similarly, Plaintiff is informed and believes, and
based thereupon alleges, that since March 1998, Defendants have also falsely and misleadingly promoted Plavix
as being more effective and safer than other competitors,
such as Aggrenox, in order to increase Plavix’s sales and
market share. On information and belief, Defendants’
strategy with respect to such competitors was similar to
its strategy regarding aspirin in that Defendants made
false and misleading statements about clinical trials involving those competitors when the trial results did not
support Defendants’ marketing messages.
54. Plaintiff is also informed and believes, and based
thereupon alleges, that Defendants falsely and misleadingly promoted Plavix at much higher dosages than those
approved by the FDA in order to compensate for the
drug’s low efficacy, while failing to disclose that Plavix is
associated with hemorrhagic adverse events at its recommended dosage and that higher dosages of Plavix increase
the risk of those and other adverse events associated with
Plavix.
55. Further, Plaintiff is informed and believes, and
based thereupon alleges, that since March 1998, Defendants have also increased Plavix’s sales and market share
by falsely and misleadingly promoting the drug as being
effective and safe for uses for which it had not been
demonstrated to be effective or safe.

46a
56. In 2010, the ASA confirmed what Defendants
knew or should have known all along when the ASA
amended its Guidelines for the Prevention of Stroke in
Patients with Ischemic Stroke or Transient Ischemic Attack (the “2010 ASA Guidelines”) and stated that “[n]o
studies have compared clopidogrel with placebo, and studies comparing it with antiplatelet agents have not clearly
established that it is superior or equivalent to any one of
them.”
57. The 2010 ASA Guidelines also stated that “there
have been no clinical trials to indicate that switching antiplatelet agents reduces the risk for subsequent events.”
Plaintiff is informed and believes, and based thereupon alleges, that Defendants knew or should have known that
switching patients from another antiplatelet medication
to Plavix had not been shown to reduce the risk for subsequent events, yet Defendants have falsely, deceptively,
and unfairly misrepresented and promoted such medication changes at all relevant times in order to increase
Plavix’s sales and market share.
58. In addition, Plaintiff is informed and believes,
and based thereupon alleges, that Defendants have
falsely, deceptively, and unfairly marketed Plavix by failing to timely disclose the results of the Clopidogrel for
High Atherothrombotic Risk and Ischemic Stabilization,
Management, and Avoidance (“CHARISMA”) trial that
showed no benefit of combination therapy in patients taking Plavix and aspirin versus patients taking aspirin
alone. The CHARISMA trial also showed a significant increase in bleeding symptoms in patients taking Plavix and
aspirin versus patients taking aspirin alone.
59. Defendants’ marketing efforts also encompassed
their labeling of Plavix, as indicated above. At all relevant
times, Defendants made false or misleading statements
and representations about Plavix’s efficacy in the drug’s
labeling, including its package insert or label, as well as in

47a
sales materials, and other promotional materials and efforts.
60. Upon information and belief, at all relevant
times, Defendants made the foregoing statements and
omissions about Plavix’s purported efficacy and superiority to healthcare providers and the general public
throughout the nation, including New Mexico.
C.

Additional False, Deceptive, and Unfair Conduct
Concerning Important Safety Information

61. With respect to safety, the CAPRIE trial results
showed less gastrointestinal bleeding in patients taking
Plavix than in patients taking aspirin. But, the dosage of
aspirin used in the trial—325 mg daily—is more than four
times higher than the average dosage physicians advise
for their patients. Physicians’ average recommended dosage of 81 mg daily is just as effective as the 325 mg daily
dosage but much less likely to lead to gastrointestinal
bleeding. Plaintiff is informed and believes, and based
thereupon alleges, that Defendants knew or should have
known of the misleading nature of the CAPRIE trial results since at least March 1998, yet Defendants falsely and
misleadingly marketed Plavix as being as safe or safer
than aspirin based on the CAPRIE trial results. Plaintiff
is also informed and believes, and based thereupon alleges, that since March 1998, Defendants have misrepresented and failed to adequately disclose important safety
information about Plavix revealed in the CAPRIE trial,
other clinical trials, and other sources of adverse event information, including information showing that Plavix is
less safe than aspirin.
62. Although Defendants have never compared
Plavix to a lower dosage of aspirin in a clinical trial, in
Clopidogrel versus Aspirin and Esomepraxole to Prevent
Recurrent Ulcer Bleeding, a study published in the New
England Journal of Medicine in January 2005, Plavix was

48a
demonstrated to cause appreciably more gastrointestinal
bleeding than aspirin taken in conjunction with Prilosec,
an inexpensive over-the-counter drug, in patients with a
history of aspirin-induced ulcers. The study demonstrated that switching patients who had aspirin-induced
ulcers from aspirin to Plavix is neither safe nor anywhere
near as cost-effective as adding Prilosec to aspirin therapy. Plaintiff is informed and believes, and based thereupon alleges, that Defendants were aware of that circumstance many years before that study was published, and
did not disclose the results of that study to healthcare professionals or the general public after the study was published, but rather continued to falsely and misleadingly
market Plavix as being as safe or safer than aspirin.
63. Plaintiff is informed and believes, and based
thereupon alleges, that since March 1998, Defendants
have falsely and misleadingly marketed Plavix as having
a lower risk of gastrointestinal bleeding than aspirin in
patients with an increased risk of gastrointestinal bleeding.
64. Plaintiff is informed and believes, and based
thereupon alleges, that since at least March 1998, Defendants knew or should have known that Plavix causes more
gastrointestinal bleeding and other complications than
other antiplatelet medications, yet Defendants misrepresented and failed to adequately disclose that information
to healthcare providers and the general public.
65. Plaintiff is informed and believes, and based
thereupon alleges, that since March 1998, Defendants
have misrepresented and failed to adequately disclose
that patients are at a higher risk of gastrointestinal bleeding and other complications when taking aspirin in conjunction with Plavix than when taking aspirin alone.
66. Plaintiff is informed and believes, and based
thereupon alleges, that since at least August 2001, Defendants have misrepresented and failed to adequately

49a
disclose that elderly patients taking Plavix have an increased risk of gastrointestinal bleeding as compared to
younger patients taking Plavix.
67. As noted above, Defendants’ marketing efforts
also encompassed their labeling of Plavix. At all relevant
times, Defendants made false or misleading statements
and representations about Plavix’s safety in the drug’s labeling, including its package insert or label, sales materials, and other promotional materials and efforts.
68. Upon information and belief, at all relevant
times, Defendants made the foregoing statements and
omissions about Plavix’s safety to healthcare providers
and the general public throughout the nation, including
New Mexico.
D.

Defendants’ False and Misleading Representations and Omissions Regarding the Alleged Effectiveness, Safety and Superiority of Plavix Caused
Third Parties to Submit Claims for Reimbursement to the State of New Mexico That Were False
Within the Meaning of New Mexico Law

69. Defendants, in marketing Plavix, knew that
pharmacies and other facilities supplying Plavix to patients throughout New Mexico would routinely be seeking
reimbursement from the State of New Mexico under its
Medicaid (and related) programs. As a result, Defendants, by promoting Plavix as safer and more effective than
other medications when it was not, at 100 times the cost of
available alternatives, knowingly caused innocent third
parties to submit claims for reimbursement to the State
of New Mexico that Defendants knew or should have
known did not qualify for payment.
70. By doing so, Defendants obtained, by means of
false or fraudulent representation or promise, large sums
of money from the State of New Mexico in connection with
delivery of or payment for health care benefits that are in

50a
whole or in part paid for or reimbursed or subsidized by
the state.
71. Defendants benefited from this deception by increased prescriptions of Plavix, resulting in increased
profits for Defendants.
72. In addition, Defendants’ misleading conduct,
statements and omissions regarding the alleged effectiveness, superiority, and safety of Plavix deprived physicians
and the State of New Mexico of the ability to accurately
determine whether the drug was in fact “medically necessary” in any given situation.
73. By writing prescriptions for Plavix for which reimbursement would be sought through public assistance
programs, physicians were certifying by implication that
the treatment was safe, medically necessary and cost-effective, when in fact it was not, because Plavix was ineffective or unsafe or both.
74. Therefore, by causing physicians to unwittingly
certify that Plavix was medically necessary and cost-effective when it was not, Defendants knowingly caused the
submission of a false claims to the State of New Mexico in
violation of New Mexico law.
E.

The FDA’s Repeated Objections to Defendants’
False, Deceptive, and Unfair Marketing

75. As discussed more fully above, Defendants have
systematically and deliberately promoted Plavix through
false and misleading marketing that overstates the drug’s
efficacy, advances unsubstantiated superiority claims,
and minimizes critical adverse event and risk information.
As a result, the FDA has repeatedly admonished Defendants’ promotion of Plavix.
76. For example, on November 23, 1998, the FDA’s
Division of Drug Marketing, Advertising, and Communications (“DDMAC”) reprimanded Sanofi, stating that Defendants’ dissemination of a letter, purportedly authored

51a
by a physician, violated the Federal Food, Drug, and Cosmetic Act (“FDCA”) because it promoted Plavix for an unapproved use (immediately prior to coronary artery stent
placement) and an unapproved dose (300 mg loading
dose), as well as because it lacked fair balance in failing to
disclose safety risks associated with the use of Plavix. In
particular, the letter explained as follows: “Because
Plavix is associated with hemorrhagic adverse events at
recommended 75 mg/day dose, promotion of Plavix in patients receiving coronary artery intervention, at four
times the recommended dose, in combination with other
agents known to increase the risk of bleeding, raises significant patient safety concerns.”
77. On December 18, 1998, DDMAC again admonished Sanofi, stating that multiple promotion materials it
disseminated—a brochure, a journal advertisement, and
a video—contained promotional claims that were false or
misleading and lacking in fair balance because they made
unsubstantiated superiority claims about Plavix relative
to aspirin, overstated Plavix’s efficacy, and minimized or
failed to adequately present adverse event and risk information.
78. On May 9, 2001, DDMAC alerted Sanofi that its
dissemination of a particular visual aid for Plavix contained false or misleading promotional claims because it
overstated the drug’s efficacy, included an unsubstantiated superiority claim about Plavix relative to aspirin, and
included a misleading efficacy presentation. In particular,
the Warning Letter stated:
On page 4 of the visual aid you present the claim,
“Significant overall risk reduction vs. aspirin 325 mg
in CAPRIE, a 3 year study of 19,185 patients.” This
claim is misleading because it suggests that Plavix is
superior to aspirin when such has not been demonstrated by substantial evidence. As previously
stated in our December 18, 1998, untitled letter, the
CAPRIE trial does not provide substantial

52a
evidence to support the implication that Plavix
has superior efficacy over aspirin. Therefore,
claims suggesting that Plavix is significantly better than aspirin are misleading because they are
not based on substantial evidence.
79. On June 9, 2001, DDMAC again reprimanded
Sanofi, stating that the dissemination of a direct-to-consumer television advertisement for Plavix was misleading
and violated regulatory requirements because it minimized the role of physicians in determining whether
Plavix is the appropriate therapy for a patient’s condition,
and because it did not ensure adequate provision for disseminating Plavix’s approved product labeling.
80. On March 26, 2009, DDMAC again reprimanded
Sanofi, stating that three of its internet advertisements
were misleading because they made representations or
suggestions about the efficacy of Plavix but failed to communicate any risk information associated with the use of
the drug, thereby indicating that Plavix is safer than has
been demonstrated.
F.

The Impact of Defendants’ False, Deceptive, and
Unfair Marketing of Plavix

81. As discussed above, Defendants launched and
maintained a massive promotional campaign to increase
Plavix’s sales and market share. Plavix’s blockbuster
sales were driven by Defendants’ decision to put marketing, sales, and corporate profits ahead of science and patient safety. Plaintiff is informed and believes, and based
thereupon alleges, that Defendants knew that the dissemination of information about Plavix’s true efficacy and
safety profile would devastate Plavix’s sales and make
Plavix unable to compete with other established, cheaper,
and safer atherosclerosis therapies. Thus, Defendants
chose, and continue to choose, to put their corporate profits ahead of patients’ safety and repeatedly failed, and

53a
continued to fail, to disclose critical efficacy and safety information about Plavix, including information about diminished or no responsiveness to Plavix that has led to the
need for a black box warning on Plavix’s label.
82. As shown above, Defendants’ corporate strategy
and business model is dictated not by science, but by sales
and marketing. Plaintiff is informed and believes, and
based thereupon alleges, that Defendants’ marketing and
commercial personnel exert extensive control over scientific and medical decisions, such as the initiation of clinical
trials, the types of trials done, the design of those trials,
and the reporting and publication of trial data, all with the
ultimate goal of producing further support for Defendants’ marketing messages and bolstering sales of Plavix.
83. On information and belief, Defendants also obscured or failed to report important safety information,
including information relating to Plavix’s risk of gastrointestinal bleeding, because doing so would jeopardize
Plavix’s sales and would be inconsistent with Defendants’
key marketing and sales messages, as discussed above.
Defendants’ top priority is neither science nor safety, but
rather marketing. Marketing concerns infected and distorted Defendants’ entire Plavix scientific program and
continue to do so to this today.
84. Further, Plaintiff is informed and believes, and
based thereupon alleges, that Defendants maintained a
marketing-based publication strategy designed to misleadingly influence medical and scientific literature by
promoting the publication of medical and scientific articles that would support their marketing messages about
Plavix’s efficacy and safety and/or suggest dissatisfaction
with competing therapies. On information and belief, that
strategy included practices such as ghostwriting articles
and hiring outside ghostwriting companies, giving Defendants’ marketing personnel editorial and substantive
input into decisions about what scientific studies to

54a
publish and the actual content of such publications, and
forming misleading financial and promotional relationships with authors, “opinion leaders,” and other physicians. On information and belief, Defendants gave their
marketing departments extensive control over Defendants’ research and publication decisions so that medical
and scientific publications could be used as tools to promote Defendants’ Plavix marketing messages.
85. In short, Defendants have profited tremendously
by making false and misleading statements and representations regarding Plavix’s efficacy and safety, as detailed
above.
86. Plaintiff is informed and believes, and based
thereupon alleges, that Defendants’ conduct described
herein is only a fraction of their false and misleading
Plavix marketing.
87. Defendants failed to adequately disclose facts
sufficient to arouse suspicion of the existence of the claims
that Plaintiff now asserts. Plaintiff was not alerted to the
existence and scope of Defendants’ wrongful conduct and
the claims arising from such conduct, and could not have
acquired such knowledge earlier through the exercise of
reasonable diligence. Through their public statements,
marketing, and advertising, Defendants’ self-concealing
scheme and affirmative conduct to perpetuate that
scheme deprived New Mexico patients, their insurers,
public healthcare providers, public entities, and government payors of actual or presumptive knowledge of facts
sufficient to put them on notice of potential claims.
88. Defendants’ far-reaching, massive, and widespread promotional campaign to drive Plavix’s sales was
specifically directed at and did influence the State of New
Mexico. Defendants’ sales representatives, lobbyists, Defendants’ “opinion leaders”, and company “scientists”
presented false and misleading information regarding the

55a
safety and efficacy of Plavix which was reasonably relied
upon by the State of New Mexico.
89. In addition, Defendants, through their control
and manipulation of studies and research publications,
their sponsorship of medical education programs, their
submission of false and misleading information to the
FDA, their use of “opinion leaders”, their failure to adequately warn of Plavix’s true risks in their labeling and
other marketing materials, and their false and deceptive
marketing conducted by Defendants’ sales representatives, lobbyists, “opinion leaders”, and company “scientists”, caused false and misleading information regarding
the safety and efficacy of Plavix to be reasonably relied
upon by the State of New Mexico.
90. Defendants engaged in a premeditated program
to influence consumers, prescribers, and the State of New
Mexico to believe that Plavix was a superior drug when it
was not.
91. The financial toll that Defendants’ false and deceptive marketing of Plavix has had on the State of New
Mexico has been dramatic. Relying upon Defendants;
promises of superior treatment and better outcomes compared with aspirin and other competitor drugs, the State
of New Mexico paid a hefty premium for a drug that in
truth was no more efficacious than far cheaper drugs, but
was far more dangerous.
92. The State of New Mexico seeks the most effective and safest treatment for its residents and relies on
pharmaceutical companies to fairly and accurately represent the safety and efficacy of their products. Defendants
have wholly violated that trust, and instead have perpetrated their fraudulent scheme to defraud the State of
New Mexico, and have bilked the State of New Mexico out
of millions of dollars by making false representations that
Plavix was better than existing medications, and could decrease ischemic risks.

56a
93. Defendants’ false, misleading, and deceptive
marketing of Plavix resulted in millions of dollars of
Plavix sales to the State of New Mexico, sales that otherwise would not have been made. Defendants were unjustly enriched and profited from the suppression of the
truth and misleading promotion of Plavix.
94. Defendants’ false, misleading and deceptive marketing of Plavix also resulted in State of New Mexico participants who took Plavix experiencing gastrointestinal
bleeding. As a result, the State of New Mexico has borne
and will bear additional costs for the care and treatment
of these undisclosed increased incidents of bleeding.
95. This Complaint is based solely upon the laws of
the State of New Mexico, and contains causes of action
found within those laws. To the extent that the Defendant
asserts that any claim contained herein raises a substantial question of federal law or a federal cause of action,
Plaintiff hereby disavows any such claim.
II. STATUTES OF LIMITATIONS HAVE NOT RUN
AGAINST THE STATE ON ANY CAUSE OF ACTION
IT HAS ALLEGED

96. The general rule is that statutes of limitations do
not run against the State unless the statute expressly includes the State or does so by clear implications. See Bd.
Of Ed., Sch. Dist. 16, Artesia, Eddy Cty v. Standhardt,
1969-NMSC-118, ¶ 17, 80 N.M. 543. Since no statute implicated by any cause of action the State has asserted expressly includes the State or does so by clear implication,
the State’s claims are not barred by any statute of limitation.

57a
COUNT I
VIOLATIONS OF THE NEW MEXICO
UNFAIR PRACTICES ACT
[NMSA 1978, Section 57-12-3]

97. The State repeats and reiterates the allegations
previously set forth herein.
98. Defendants’ acts and omissions complained of in
paragraphs 27-80, constitute false or misleading oral or
written statements or other representations and omissions that Defendants knowingly made in the regular
course of their trade and in connection with the sale of
their goods, which may have, tended to, or did deceive or
mislead consumers and medical professionals. These acts
and omissions constitute unfair and deceptive trade practices as defined under Section 57-12-2(D) and in violation
of Section 57-12-3.
99. Defendants engaged in the above-described acts
and omissions intentionally and with knowledge that
harm might result, and thus willfully as defined under
Section 57-12-11.
100. Defendants engaged in unfair or deceptive acts
or practices by failing to disclose, in Plavix’s labeling and
otherwise, that Plavix has diminished or no effect on a significant percentage of the patient population.
101. Defendants also engaged in unfair or deceptive
acts or practices by making statements about Plavix’s efficacy and/or safety, in Plavix’s labeling and otherwise,
without disclosing that Plavix has diminished or no effect
on a significant percentage of the patient population.
102. Defendants also engaged in unfair or deceptive
acts or practices by falsely and misleadingly marketing
Plavix as being more effective and safer than aspirin in
Plavix’s labeling and otherwise.

58a
103. Defendants also engaged in unfair or deceptive
acts or practices by failing to disclose, in Plavix’s labeling
and otherwise, that Plavix has a greater chance of causing
gastrointestinal bleeding and other complications than aspirin.
104. Defendants’ willful and repeated acts and omissions relating to Plavix, as described above constitute unfair or deceptive acts or practices in the conduct of commerce, both of which violate the New Mexico Unfair Practices Act, NMSA 1978, Section 57-12-3, including:
a. Defendants represented that Plavix has characteristics, uses and benefits that it does not have, in violation of NMSA 1978, Section 57-12-2 (D)(5).
b. Defendants represented that Plavix has superior
benefits as compared to other competitor medications
that it does not have, in violation of NMSA 1978, Section
57-12-2 (D)(7).
c. Defendants represented that Plavix was a safe
and effective drug when such representations were untrue, false and misleading, in violation of NMSA 1978,
Section 57-12-2 (D)(7).
d. Defendants engaged in conduct using exaggeration, innuendo or ambiguity as to material facts regarding
the risk-benefit profile of Plavix which created a likelihood of confusion and misunderstanding, in violation of
NMSA 1978, Section 57-12-2 (D)(14).
e. Defendants made deceptive representations of
material facts regarding Plavix, in violation of NMSA
1978, Section 57-12-2 (D)(14).
f. Defendants’ promotional activities regarding
Plavix, including publishing and distributing statements
which were misleading and deceptive, and which omitted
material information necessary to make the statements
not be misleading and deceptive, or tending to deceive,
were in violation of NMSA 1978, Section 57-12-2 (D)(14).

59a
g. Defendants’ conduct constitutes an unconscionable trade practice in that it took advantage of the lack of
knowledge of the State, New Mexico health care professionals and State of New Mexico participants regarding
Plavix’s risk-benefit profile, in violation of NMSA 1978,
Section 57-12-2 (E)(1).
h. Defendants’ conduct constitutes an unconscionable trade practice in that it resulted in a gross disparity
between the value received and the price paid, in violation
of NMSA 1978, Section 57-12-2 (E)(2).
105. Each exposure of a state employee or contractor, New Mexico health care professional or New Mexico
patient to misleading and deceptive information regarding Plavix communicated in any manner by a sales representative constitutes a separate violation pursuant to
NMSA 1978, Section 57-12-11.
106. Each exposure of a state employee or contractor, New Mexico health care professional or New Mexico
patient to a misleading and/or deceptive print advertisement regarding Plavix constitutes a separate violation
pursuant to NMSA 1978, Section 57-12-11.
107. Each exposure of a state employee or contractor, New Mexico health care professional or New Mexico
patient to a misleading and/or deceptive brochure regarding Plavix constitutes a separate violation pursuant to
NMSA 1978, Section 57-12-11.
108. Each exposure of a state employee or contractor, New Mexico health care professional or New Mexico
patient to other misleading and/or deceptive information
regarding Plavix, provided directly or indirectly by Defendants, e.g., by means of package labeling, warning,
Dear Healthcare Provider letters, CD-ROMs, DVDs, dinners sponsored by Defendants, PowerPoint presentations, promotional items, continuing medical education
materials and events sponsored by Defendants and

60a
meetings sponsored by Defendants, constitutes a separate violation pursuant to NMSA 1978, Section 57-12-11.
109. Each piece of marketing material used or disseminated in New Mexico which contained false or deceptive representations constitutes a separate, distinct,
knowing and willful violation of the Unfair Practices Act.
110. Each Plavix prescription written in New Mexico without an adequate warning constitutes a separate
and distinct violation of the Unfair Practices Act.
111. Each exposure of a New Mexico resident to
Plavix resulting from the aforementioned conduct of Defendants constitutes a separate violation pursuant to
NMSA 1978, Section 57-12-11.
112. To the extent applicable, Defendants cannot invoke the “Safe Harbor” provisions of the Unfair Practices
Act because of their complete failure to disclose at least
the following known risks to the FDA in a timely manner:
a. the genetic variations of the CYP2C19 enzyme
that cause Plavix to metabolize poorly in a significant percentage of the patient population;
b. the prevalence of those genetic variations in certain populations (e.g., Caucasian, African, and Asian);
c. that a defect in the CYP2C19 enzyme interfered
with the metabolization of numerous drugs, including
Plavix;
d. that the defect in the CYP2C19 enzyme that interfered with the metabolization of numerous drugs, including Plavix, could be tested through a simple genetic
test;
e. that Plavix has diminished or no effect on patients who are CYP2C19 poor metabolizers;
f. that Plavix was not more effective and safer than
aspirin;

61a
g. the factors that gave rise to the misleading nature of the CAPRIE trial results;
h. that Plavix is less effective in elderly patients
than in younger patients;
i. that elderly patients taking Plavix have an increased risk of gastrointestinal bleeding compared to
younger patients taking Plavix;
j. that Plavix is not more effective and safer than
competitor drugs;
k. that Plavix was demonstrated to cause appreciably more gastrointestinal bleeding than aspirin taken in
conjunction with Prilosec;
l. that switching patients who had aspirin-induced
ulcers from aspirin to Plavix is neither safe nor anywhere
near as cost-effective as adding Prilosec to aspirin therapy; and
m. that patients are at a higher risk of gastrointestinal bleeding and other complications when taking aspirin
in conjunction with Plavix than when taking aspirin alone.
113. Defendants’ violations of the Unfair Practices
Act were and continue to be willful.
114. Unless enjoined from doing so, Defendants will
continue to violate the New Mexico Unfair Practices Act.
115. The State seeks reimbursement of all monies
paid for Plavix by the State of New Mexico.
116. The State of New Mexico also seeks restitution
for all monies paid for Plavix in connection with State of
New Mexico programs and/or by state agencies and/or departments.
117. The State of New Mexico also seeks disgorgement of profits from Defendants for all sales of Plavix in
connection with State of New Mexico programs and/or by
state agencies and/or departments.

62a
118. The State of New Mexico also seeks all recoverable penalties under Section 57-12- 11 for violations of
the New Mexico Unfair Practices Act.
COUNT II
VIOLATIONS OF THE NEW MEXICO
FRAUD AGAINST TAXPAYERS ACT
[NMSA 1978, Section 44-9-3]

119. The State repeats and reiterates the allegations previously set forth herein.
120. Defendants’ willful and repeated acts and omissions relating to Plavix, as described above, violate the
New Mexico Fraud Against Taxpayers Act, NMSA 1978,
Section 44-9-3.
121. In representing that Plavix had superior efficacy than other established drugs, by failing to disclose
that Plavix has diminished or no effect on a significant
percentage of the patient population, by falsely and misleadingly marketing Plavix as being more effective and
safer than aspirin, by failing to disclose, in Plavix’s labeling and otherwise, that Plavix has a greater chance of
causing gastrointestinal bleeding and other complications
than aspirin, by falsely and misleadingly marketing Plavix
as more effective and safer than other competitor drugs,
by falsely and misleadingly marketing Plavix as effective
and safe for uses for which the drug had not been shown
to be effective, by falsely and misleadingly marketing
Plavix as having a lower risk of gastrointestinal bleeding
than aspirin in patients with an increased risk of gastrointestinal bleeding, by falsely and misleadingly marketing
Plavix as being as safe and effective in elderly patients as
in younger patients and in failing to disclose the true facts
regarding safety and efficacy of Plavix, Defendants knowingly presented, or caused to be presented, false claims

63a
for payment or approval, in violation of NMSA 1978, Section 44-9-3A(1).
122. In representing that Plavix had superior efficacy than other established drugs, by failing to disclose
that Plavix has diminished or no effect on a significant
percentage of the patient population, by falsely and misleadingly marketing Plavix as being more effective and
safer than aspirin, by failing to disclose, in Plavix’s labeling and otherwise, that Plavix has a greater chance of
causing gastrointestinal bleeding and other complications
than aspirin, by falsely and misleadingly marketing Plavix
as more effective and safer than other competitor drugs,
by falsely and misleadingly marketing Plavix as effective
and safe for uses for which the drug had not been shown
to be effective, by falsely and misleadingly marketing
Plavix as having a lower risk of gastrointestinal bleeding
than aspirin in patients with an increased risk of gastrointestinal bleeding, by falsely and misleadingly marketing
Plavix as being as safe and effective in elderly patients as
in younger patients and in failing to disclose the true facts
regarding safety and efficacy of Plavix, Defendants knowingly made, used, or caused to be made or used, false, misleading or fraudulent statements to obtain or support the
approval of, or the payment on, false or fraudulent claims,
in violation of NMSA 1978, Section 44-9-3A(2).
123. By engaging in the wrongful conduct described
herein, Defendants conspired to defraud the State by obtaining approval or payment on false or fraudulent claims.
124. On information and belief, Defendants’ clinical
research and publication strategies were directed and influenced largely by marketing concerns rather than by
medical or safety concerns, and Defendants’ management
allowed marketing personnel to direct the company’s socalled scientific research rather than enabling independent analysis. Defendants repeatedly failed to disclose important safety information; they improperly and

64a
deceptively influenced the medical and scientific literature and the perception of Plavix within the medical community; they consistently downplayed Plavix’s risks; they
formed deceptive and misleading financial and promotional relationships with “opinion leaders,” speakers and
other physicians for the purpose of promoting the product; they engaged in misleading sales training, sales tactics, and marketing to prescribers, participants in State
programs, and/or the State of New Mexico that misrepresented the safety and efficacy of Plavix; they engaged in
the ghostwriting of medical and scientific articles; and
they engaged in other deceptive and misleading marketing, lobbying, public relations, and sales practices as described herein. Defendants marketed Plavix as safe and
effective with the intent that the State rely on their representations so that the medical providers would not prescribe, and the State pay for, other effective, safe competitor drugs.
125. In addition, Defendants, through their control
and manipulation of studies and research publications,
their sponsorship of medical education programs, their
submission of false and misleading information to the
FDA, their use of “opinion leaders”, their failure to adequately warn of Plavix’s true risks in their labeling and
other marketing materials, and their false and deceptive
marketing conducted by their sales representatives, lobbyists, and “opinion leaders,” caused false and misleading
information regarding the safety and efficacy of Plavix to
be reasonably relied upon by the State of New Mexico.
126. Defendants’ aggressive, illegal promotions
have induced a misallocation of State funds through a pattern of fraudulent conduct. Defendants made or caused
false claims, statements and representations of material
fact to be made in connection with the State of New Mexico programs and/or in connection with expenditures
made by State agencies and/or departments. In addition,

65a
Defendants knowingly and willfully concealed or failed to
disclose material facts, events and/or transactions which
affected Defendants’ entitlement to payment, reimbursement, or benefits under the State’s programs or by State
agencies and/or departments, and/or the amount of payment, reimbursement, or benefit to which the Defendants
were entitled for services, goods or assistance rendered in
connection with the State’s programs and/or to State
agencies and/or departments. Defendants’ scheme included the implementation of intentionally deceptive marketing practices. Defendants intended that their fraudulent promotions be relied upon for the expenditure of public money, and result in the reimbursement of prescriptions by the State of New Mexico.
127. As a result of Defendants’ fraudulent marketing of Plavix, the State of New Mexico has paid millions of
dollars for Plavix and has paid excessive prices for Plavix.
As a result, Defendant has been illegally enriched at the
expense of the State of New Mexico. Further, the State
of New Mexico has been required and will be required to
pay the costs of treatment of State of New Mexico participants actively harmed by Defendants’ actions.
128. In representing that Plavix had superior efficacy than other established drugs, by failing to disclose
that Plavix has diminished or no effect on a significant
percentage of the patient population, by falsely and misleadingly marketing Plavix as being more effective and
safer than aspirin, by failing to disclose, in Plavix’s labeling and otherwise, that Plavix has a greater chance of
causing gastrointestinal bleeding and other complications
than aspirin, by falsely and misleadingly marketing Plavix
as more effective and safer than other competitor drugs,
by falsely and misleadingly marketing Plavix as effective
and safe for uses for which the drug had not been shown
to be effective, by falsely and misleadingly marketing
Plavix as having a lower risk of gastrointestinal bleeding

66a
than aspirin in patients with an increased risk of gastrointestinal bleeding, by falsely and misleadingly marketing
Plavix as being as safe and effective in elderly patients as
in younger patients and in failing to disclose the true facts
regarding safety and efficacy of Plavix, Defendants acted
with actual knowledge of the falsity of the representations
or acted in either deliberate ignorance or reckless disregard of the truth or falsity of the information. Defendants’ wrongful conduct resulted in charges to the State of
New Mexico for goods or services that were so deficient
as to be worthless.
129. Each claim for Plavix presented to the State of
New Mexico or to a contractor, grantee or other recipient
of state funds constitutes a separate violation pursuant to
NMSA 1978, Section 44-9-3.
130. In addition to, or in the alternative, each exposure of a state employee or contractor, New Mexico health
care professional or State of New Mexico participant to
misleading and deceptive information regarding Plavix
communicated in any manner by a sales representative
made or used, or caused to be made or used to obtain or
support the approval of or the payment on a claim for
Plavix constitutes a separate violation pursuant to NMSA
1978, Section 44-9-3.
131. In addition to, or in the alternative, each exposure of a state employee or contractor, New Mexico health
care professional or State of New Mexico participant to a
misleading and/or deceptive print advertisement regarding Plavix made or used, or caused to be made or used to
obtain or support the approval of or the payment on a
claim for Plavix constitutes a separate violation pursuant
to NMSA 1978, Section 44-9-3.
132. In addition to, or in the alternative, each exposure of a state employee or contractor, New Mexico health
care professional or State of New Mexico participant to a
misleading and/or deceptive brochure regarding Plavix

67a
made or used, or caused to be made or used to obtain or
support the approval of or the payment on a claim for
Plavix constitutes a separate violation pursuant to NMSA
1978, Section 44-9-3.
133. In addition to, or in the alternative, each exposure of a state employee or contractor, New Mexico health
care professional or State of New Mexico participant to
other misleading and/or deceptive information regarding
Plavix made or used, or caused to be made or used to obtain or support the approval of or the payment on a claim
for Plavix constitutes a separate violation pursuant to
NMSA 1978, Section 44-9-3.
134. In addition to, or in the alternative, each piece
of marketing material used or disseminated in New Mexico which contained false or deceptive representations regarding Plavix made or used, or caused to be made or used
to obtain or support the approval of or the payment on a
claim for Plavix constitutes a separate violation pursuant
to NMSA 1978, Section 44-9-3.
135. In addition to, or in the alternative, each Plavix
prescription written in New Mexico in connection with
State of New Mexico programs without an adequate
warning constitutes a separate and distinct violation of
the New Mexico Fraud Against Taxpayer’s Act.
136. As a direct and proximate result of Defendants’
wrongful conduct, the State of New Mexico and it citizens
have suffered and will continue to suffer substantial damage and injury as a result of Defendants’ violations of the
New Mexico Fraud Against Taxpayer’s Act.
137. Pursuant to the New Mexico Fraud Against
Taxpayer’s Act, the State is entitled to three times the
amount of damages sustained by the State because of Defendants’ violations of the New Mexico Fraud Against
Taxpayer’s Act, a civil penalty of not less than five thousand dollars ($5,000) and not more than ten thousand

68a
dollars ($10,000) for each violation, reasonable attorneys’
fees, and costs.
COUNT III
FRAUD

138. Plaintiff repeats and reiterates the allegations
previously set forth herein.
139. Defendants’ warnings of Plavix contained false
representations and/or failed to accurately represent the
material facts of the full range and severity of risks and
adverse reactions associated with the product.
140. Defendants’ Plavix-related representations
and assertions to the State of New Mexico, prescribers,
and State of New Mexico participants contained intentional misrepresentations and material omissions as to the
safety of Plavix and its defective design.
141. Defendants were negligent in not making accurate representations regarding the side effects and adverse medical conditions associated with the use of Plavix.
142. Defendants knew or reasonably should have
known through adequate testing that the representations
made to the State with regard to the safety and efficacy of
Plavix were false or incomplete, and misrepresented the
material facts of Plavix’s unsafe and defective condition.
143. The State, through its programs, departments
and agencies, expended millions of dollars for Plavix prescriptions which were directly caused by the fraudulent
and misleading statements of the Defendants.
144. Defendants willfully, knowingly and deceptively withheld material facts regarding the risks and side
effects associated with Plavix from the State of New Mexico, prescribers, and State of New Mexico participants.
145. Defendants intentionally withheld information
regarding the safety risks and side effects associated with

69a
Plavix with the intent to induce the State of New Mexico,
prescribers and State of New Mexico participants.
146. The State of New Mexico, prescribers and
State of New Mexico participants were justified in their
reliance on Defendants to educate them as to the risks and
dangerous and potentially life-threatening side effects associated with Plavix use.
147. Defendants’ far-reaching, massive, and widespread promotional campaign to drive Plavix’s sales was
specifically directed at and did influence the State of New
Mexico. Defendants’ sales representatives, lobbyists,
“opinion leaders”, and company “scientists” directly communicated with the State of New Mexico, and in connection therewith, presented false and misleading information regarding the safety and efficacy of Plavix which
was reasonably relied upon by the State of New Mexico.
148. In addition, Defendants, through their control
and manipulation of studies and research publications,
their submission of false and misleading information to
the FDA, their use of “opinion leaders”, their failure to
adequately warn of Plavix’s true risks in their labeling and
other marketing materials, and their false and deceptive
marketing conducted by Defendant sales representatives,
lobbyists and “opinion leaders,” caused false and misleading information regarding the safety and efficacy of Plavix
to be reasonably relied upon by the State of New Mexico.
149. Defendants’ aggressive, illegal promotions
have induced a misallocation of State funds through a pattern of fraudulent conduct which caused false claims to be
submitted to the State of New Mexico’s programs, agencies and departments. Defendants executed and conspired to execute a plan to defraud the State of New Mexico in connection with the delivery of or payment for
Plavix. Defendants’ plan included the implementation of
intentionally deceptive marketing schemes. Defendants
intended that their fraudulent promotions would result in

70a
the reimbursement of prescriptions by the State of New
Mexico’s programs, agencies and departments.
150. Each of the Defendants’ misleading and deceptive statements, representations and advertisements related to Plavix were material to the State’s reimbursement of Plavix.
151. As a proximate and legal result of Defendants’
fraudulent misrepresentations, the State of State of New
Mexico has suffered and will continue to suffer damages,
and is therefore entitled to recover for those damages.
152. The reprehensible nature of the Defendants’
conduct further entitles the State to an award of punitive
damages.
COUNT IV
UNJUST ENRICHMENT

153. Defendants knowingly, willfully and intentionally marketed and promoted Plavix in a false and deceptive manner as more particularly alleged in paragraphs
27-80 above.
154. Defendants knowingly, willfully and intentionally withheld information from the State, prescribers and
State of New Mexico participants regarding the risks associated with Plavix use.
155. The State paid, reimbursed or otherwise conferred a benefit upon Defendants that directly resulted
from the Defendants’ fraudulent marketing practices.
156. Further, Defendants have been unjustly enriched in the form of profits as a result of their fraudulent
marketing practices.
157. As a matter of equity, Defendants should be required to disgorge their unjustly obtained profits from
purchases of Plavix.

71a
RELIEF REQUESTED

WHEREFORE, Plaintiff, the State of New Mexico,
prays for judgment against Defendants as follows:
A.
Adjudge and decree that Defendants engaged
in conduct in violation of the New Mexico Unfair Practices
Act, §57-12-1, et seq.,
B.
Adjudge and decree that Defendants engaged
in conduct in violation of the New Mexico Fraud Against
Taxpayers Act, §44-9-1, et seq.;
C.
Grant permanent injunctive relief and award
restitution against Defendants pursuant to §57-12-8(B)
NMSA 1978;
D.
Award the State its damages as set forth
herein;
E.
Award the state restitution as set forth herein;
F.
Award the State disgorgement of all Defendant’s profits obtained as a result of Plavix sales in New
Mexico;
G.
Award maximum civil penalties as provided by
law;
H.
Award the State punitive damages;
I.
Award the State the costs of prosecuting this
action, together with interest, including prejudgment interest, and reasonable attorneys’ fees in connection with
the prosecution of this case; and
J.
Grant further relief as this Court may deem
just and proper under the circumstances.
DATED: January 05, 2018
Respectfully submitted,
OFFICE OF THE NEW MEXICO
ATTORNEY GENERAL

72a
/s/ P. Cholla Khoury
Hector Balderas, Attorney General
P. Cholla Khoury
Director, Consumer and Environmental Protection
Post Office Drawer 1508
Santa Fe, New Mexico 87504-1508
(505) 827 – 7484
ckhoury@nmag.gov
/s/ Marcus J. Rael, Jr.
Marcus J. Rael, Jr.
marcus@roblesrael.com
Robles, Rael & Anaya
500 Marquette Ave NW Suite 700
Albuquerque, NM 87102
(505) 242-2228 (Telephone)
(505) 242-1106 (Facsimile)
Russell Budd
rbudd@baronbudd.com
Baron & Budd, P.C.
The Centrum
3102 Oak Lawn Ave #1100
Dallas, TX 75219
Tel: (214) 521-3605
Fax: (214) 520-1181
Daniel Alberstone
dalberstone@baronbudd.com
Jonas P. Mann
jmann@baronbudd.com
Peter Klausner
pklausner@baronbudd.com
Baron & Budd, P.C.
15910 Ventura Blvd., Suite 1600

73a
Encino, CA 91436
Tel: (818) 839-2333
Fax: (818) 986-9698
Burton LeBlanc
bleblanc@baronbudd.com
Baron & Budd, P.C.
2600 CitiPlace Dr.
Baton Rouge, LA 70808
Tel: (225) 927-5441
Fax: (225) 927-5449
Attorneys for Plaintiff THE
STATE OF NEW MEXICO,
By and Through the
ATTORNEY GENERAL FOR
THE STATE OF NEW MEXICO,
HECTOR BALDERAS
* * * * *

74a
APPENDIX G

FIRST JUDICIAL DISTRICT COURT
COUNTY OF SANTA FE
STATE OF NEW MEXICO
STATE OF NEW MEXICO, ex rel
HECTOR BALDERAS, ATTORNEY GENERAL
Plaintiff,
vs.
BRISTOL-MEYERS SQUIBB COMPANY, et al,
Defendants.
D-101-CV-2016-2176
TRANSCRIPT OF PROCEEDINGS
On the 1st day of March 2017, this matter came on for
hearing on MOTIONS before the HONORABLE SARAH SINGLETON, Judge of the First Judicial District,
State of New Mexico.
The Plaintiff, STATE OF NEW MEXICO, appeared
by Counsel of Record, CHOLLA KHOURY, MARCUS
RAEL and DANIEL ALBERSTONE.
The Defendants, BRISTOL-MYERS SQUIBB
COMPANY, et al, appeared by Counsel of Record, TIM
HOLM, DREW HARKER.
At which time the following proceedings were held:
[2] March 1, 2017
(In open court.)
THE COURT: We are here today in the matter of
State of New Mexico ex rel Hector Balderas Attorney

75a
General, versus Bristol-Myers Squibb Company and others. It’s D-101-CV-2016-02176. Will counsel for plaintiff
enter appearances, please?
MR. ALBERSTONE: Good afternoon, Your Honor.
Dan Alberstone appearing on behalf of the state.
MR. RAEL: Marcus Rael on behalf of the state.
MS. KHOURY: Cholla Khoury with the office of the
New Mexico Attorney General’s Office.
THE COURT: And for the defendants?
MR. HOLM: Your Honor, I’m Tim Holm for the defendants, and I would like to introduce you to my co-counsel, who is national counsel, Drew Harker from Arnold
and Porter. Also at counsel table is Owen Dunn from Arnold and Porter. Owen is not pro hacced in, but he will be
sitting at counsel table, if that’s okay with the Court.
(CourtCall connection made.)
THE COURT: Would counsel who are appearing by
telephone please state their names.
MR. AGNESHWAR: This Anand Agneshwar from
Arnold and Porter.
MS. HENSON: Cecily Williams Henson with [3]
Bristol-Myers Squibb Company.
MR. DOVDAVANY: Good afternoon, Dan Dovdavany from Santa Fe.
* * * * *
[7] * * *
MR. HARKER: So, as I said, Your Honor, the Dickson case was filed in 2011. New Mexico is a named party
in the case. Just in 2016, a few short months ago, the state
filed its own case here in New Mexico which is essentially

76a
a copycat of the case pending in New Jersey, in particular,
the Dickson case.
THE COURT: Well, it’s not exactly a copycat.
MR. HARKER: Well, Your Honor, when you look at
the claims that are pending in Dickson versus the claims
that are filed here, you will see that in fact, of the 52 paragraphs -- of the 52 paragraphs that allege facts from the
Dickson case, 47 of them are repeated in the New Mexico’s case here in Santa Fe. So that’s about 90 percent of
the -- of the operative facts when you include both Dickson
and JKJ. So there is a substantial overlap, Your Honor,
of the claims in the two cases.
And I’m sure Your Honor is asking me that question
because under the test in New Mexico, in addition to same
parties, there is also -- also a test for same [8] claims. And
here, I would submit to you, Your Honor, there are certainly enough of an overlap between the two cases to satisfy the same claims test.
In Dickson, the relator there alleges that defendants
improperly marketed Plavix as superior to aspirin. That
is a claim that is repeated by the attorney general here in
New Mexico. In Dickson the relator claimed that the defendants improperly marketed Plavix as superior to drugs
that it competed against. That is also repeated here in
New Mexico, Your Honor.
In addition, in Dickson the relator claimed that the
defendants improperly marketed Plavix as medically necessary, and that is also repeated here in New Mexico,
Your Honor. In Dickson, the plaintiff, the relator claimed
that the defendants misled doctors about the risk of bleeding with Plavix. That’s also repeated in the New Mexico
complaint.

77a
The defendants also withheld information -- in Dickson, it was alleged earlier that defendants withheld information about so-called variability of response, meaning
that individuals with a certain genetic trait may not be as
responsive to Plavix as other people. That’s also repeated
in New Mexico.
The defendants in Dickson, the allegation is also that
the defendants failed to disclose a certain subgroup [9]
data from the Caprie clinical trial. That’s also repeated in
New Mexico. And that Dickson also alleged that the
Caprie trial, which is the foundational study for Plavix,
was conducted in a misleading way by using an inappropriate dosage of aspirin, and that’s also repeated in New
Mexico.
So we have this very, very substantial overlap, Your
Honor, between the two cases, which I think clearly satisfies the same claims test. The test there is a so-called
transactional test, and that looks for a common nucleus of
operative facts and, I think, clearly, Your Honor, based on
the overlap between the claims in Dickson, in JKJ, and the
claims in the New Mexico case here, we -this -- this situation clearly satisfies the transactional test, you know,
more on the common nucleus of operative facts, which was
announced by Potter v. Pierce in New Mexico as the
standard to apply.
So what Potter v. Pierce listed the factors to help determine if there is a common nucleus: Do the facts relate
in time, space, origin and motivation, do the facts form a
convenient trial unit, and the treatment of facts as a single
unit conformed to the parties’ expectations or business
understanding or usage.
We talked about the substantial overlap between the
various claims, the - the various complaints. I just also
point out, Your Honor, that in terms of looking at this [10]

78a
common nucleus of operative facts, what would the two
courts be looking at?
Well, the allegations in both complaints rest on statements made by the companies to doctors or to the public
about Plavix, both its efficacy and its safety profile. Well,
how are -- how do drug companies communicate to health
care professionals and the public and the like, in other
words, those communications are what is the thing -- are
the things that are at issue in both cases, those communications.
So, let’s break it down. Pharmaceutical companies
communicate with doctors through their sales representatives. So communications between the sales representatives and doctors in New Mexico are going to be the things
that, one of the things that are going to be at issue in the
Dickson case as well as this case.
So you are going to have the same witnesses, the sales
reps and the doctors talking about what the sales reps allegedly said to the doctors and whether or not it was false,
misleading or unfair. So that’s one common nucleus of operative facts, the fact that we are going to be looking at
sales reps and their promotional activities with doctors.
What’s another common nucleus of operative facts
here? Companies’ interactions with New Mexico Medicaid, because the companies had contact with New Mexico
Medicaid [11] as part of the promotional activities, those
will be relevant in both Dickson and here in New Mexico.
The same people, we would talk to the same people in
New Mexico Medicaid both with respect to the claims in
Dickson, as well as with respect to the claims here in New
Mexico.
THE COURT: Does it make any difference that New
Mexico has been dismissed from that Dickson case?

79a
MR. HARKER: Your Honor, actually New Mexico
has not been dismissed from Dickson.
THE COURT: Well, there is a motion to reconsider
something pending, but the operative order right now has
them dismissed.
MR. HARKER: Yes. And they are dismissed, but a
new complaint has been filed, including bringing allegations on behalf of New Mexico. So when you look at the
pending complaint, which we have moved to dismiss -THE COURT: Has it made new allegations that this
drug was not on the approved list from the FDA?
MR. HARKER: No.
THE COURT: It’s going to be hard to get around
that ruling.
MR. HARKER: We think it will be very hard, but
nevertheless we were under an obligation to bring this before Your Honor, because if you waive the defense of [12]
claims for it initially, you have waived it entirely. So we
didn’t think -THE COURT: When do you think that judge would
act on the next -- I mean, I’m assuming you are going to
move to dismiss again -- when do you think that judge
would render a decision on that? I mean, I don’t know how
many times you get to replead it.
MR. HARKER: That’s a good question, Your Honor.
They are already up to the fourth amended complaint.
The simple answer to that question is, it would just be a
guess on my part how long it will take Judge Wolfson to
decide the case. The motions are fully briefed.
THE COURT: Oh, they are briefed already?

80a
MR. HARKER: Yes, Your Honor, they are fully
briefed, and we are still waiting -- we are waiting for a decision. But they were only -- the briefing was only completed early this year, so in January a reply brief went in.
It did take Judge Wolfson a bit of time to decide the original motion to dismiss, but I -- the signals that she is sending is that this will be less
THE COURT: Won’t take quite so long?
MR. HARKER: That’s right, Your Honor. I mean,
essentially they have asked for a redo. The plaintiffs have
asked for a redo, in large measure. And as we pointed out
in our papers, what’s particularly disturbing here, Your
[13] Honor, is that she dismissed the New Mexico allegations.
THE COURT: I know that.
MR. HARKER: And what happened was, they got
dismissed in federal court, and then the state turned
around and took those allegations and brought their own
case here.
Talk about forum shopping.
THE COURT: I mean, it seems to me that’s appropriate. I -- if, if except for that person from Illinois refiling
their case, it would seem, if your state claims get dismissed by a federal court, you come and file them in state
court. That seems to me to be good.
MR. HARKER: Well, except you do have this doctrine called res judicata.
THE COURT: Well, you can argue res judicata,
maybe, on the things that were dismissed, but they have
other claims here under state law that were not even considered by that judge.

81a
MR. HARKER: And our point is, is that for judicial
efficiency, for fairness, for to avoid a burden on us, it
would make sense if there in New Mexico -- there in Dickson, and as I said, there is a fourth amended complaint
where the allegations that they are currently bringing in
New Mexico are are contained in the fourth amended
complaint, there is a process for them to intervene, either
dismiss the case in New Jersey and say, “We are out of
the [14] case in New Jersey, and we are going to bring it
here in Santa Fe,” a consolidated set of allegations against
the companies, you know, based on Plavix and allegations
about false advertising with respect to Plavix, or under
the federal statute they are able to take all of their state
claims and bring them in the New Jersey case.
The false -- the Federal False Claims Act gives the
Court there ancillary jurisdiction over every single one of
New Mexico’s claims. They have a number of options,
Your Honor. All we are saying is that one should not be - but we will keep a foot in the New Jersey camp and see
how we do with Judge Wolfson in New Jersey, and we’ll
keep a separate, but essentially the same foot in New
Mexico to see how we do with Judge Singleton.
They should either cut or fish bait -- or, excuse me -fish or cut bait, and you know, let’s try the case in in New
Jersey, bring all the state claims in the court in New Jersey, or dismiss New Jersey -- New Mexico out of the New
Jersey case and bring the case they want to bring here in
Santa Fe. They can’t have their cake and eat it, too, and
that’s what they are trying to do.
THE COURT: Okay. I guess I better ask the other
side for their opinion because we have limited time today.
MR. ALBERSTONE: And I, Your Honor, Dan Alberstone from Baron and Budd, and I do have an opinion,
[15] and that opinion is contrary to Mr. Harker’s opinion.

82a
THE COURT: Are you able to answer my initial
question? I really don’t quite understand -- I mean, I can
see how it might have been done legally, but why does this
woman, the sales rep from Illinois, get to bring a case that
involves New Mexico law?
First, that’s my first question. My next question is,
what did New Mexico know about it and why didn’t they
do something about it?
MR. ALBERSTONE: The first question I don’t have
an answer as to how or why. I do know the state at some
point became aware of the claim and did not intervene in
the lawsuit.
THE COURT: Okay. Were they informed? The way
it would work here is they have to be informed, and then
they get to choose, do we want to prosecute this, or are we
going to defer and let you prosecute it? Did they go
through any of those steps as to the New Mexico portion
of the claim?
MR. ALBERSTONE: All I can tell you is, based on
the discussions that I have had with the folks I interacted
with is that a decision was made not to intervene, but I
don’t have that specific information for you.
THE COURT: I understand there was a decision not
to intervene because they didn’t intervene.
[16] MR. ALBERSTONE: Right. I don’t have that
information, Your Honor.
THE COURT: Why don’t they do it now, if they want
to bring this case -MR. ALBERSTONE: Because they don’t need to.
THE COURT: -- case go away.
* * * * *

83a
[25] * * *
THE COURT: Okay. I found their New Mexico allegations, and it appears to be under the New Mexico Medicaid False Claims Act.
MR. ALBERSTONE: Right. That’s a single claim
and it’s not a claim in our lawsuit.
THE COURT: Okay.
MR. ALBERSTONE: And again, the basis for this
claims splitting stay request was the cases that they cited
to Your Honor, and I think I have been true both to the
statutes -- statute that I cited to Your Honor and the cases
they cited where the decisions did not comport to what
they put in their briefs.
THE COURT: Okay. And so your answer to why the
State of New Mexico and the attorney general’s office did
not tell that New Jersey court to get lost, we want to pursue our own claim, is they didn’t need to?
MR. ALBERSTONE: That’s correct, although,
given an opportunity I would do that.
THE COURT: Well, why don’t you have the opportunity now to do that?
MR. ALBERSTONE: Well, I -THE COURT: Seriously, I’m wondering, because
[26] there is something that seems unfair about having to
defend in two jurisdictions.
MR. ALBERSTONE: Let me explain something,
Your Honor. You are right, and I’m going to consult with
the client about that; I think that’s a very fair point. But
I want -- I want to put this in context about litigating in
two different jurisdiction. These folks, we talked about
national counsel and counsel on the line, they are litigating

84a
in the New Jersey federal court in multi-court litigation,
involving state’s attorneys general from Virginia, Mississippi, Louisiana, Hawaii, which I also represent, I just
represent Hawaii, and hundreds if not thousands of personal injury lawsuits.
This is a spec on the litigation that they are involved
in back east, and all relating to the same issues. So you
know, there is not much of a burden or inconvenience -you shouldn’t be left with the impression these folks are
just litigating in -THE COURT: I’m not thinking they are sole practitioners having to run around from New Jersey to New
Mexico and Hawaii and everywhere.
MR. ALBERSTONE: Fair enough. What I just
meant to say was, there is a lot of lawsuits relating to the
same facts, this isn’t any burden on them. But in any
event, I think we are legally correct, that we’re allowed to
proceed [27] on the claims we have asserted in this court
based on the case law I have discussed with the Court.
THE COURT: Well, as I understand -- maybe it’s
different for this kind of a case that they brought in New
Jersey, but in the qui tam actions or FATA actions, the
relator is representing the State of New Mexico. I mean,
if the attorney general declines to intervene and prosecute it himself, then they are representing the State of
New Mexico.
So why isn’t that the case here in New Jersey? You’ve
got somebody already representing the State of New
Mexico, and so what you are saying is because you have
different theories of recovery, you get to bring -- you get
to do it here, also?
MR. ALBERSTONE: There is two issues. One is,
they are different claims that are being brought, some of

85a
which can only be brought by the state attorney general,
that’s number one. And Number 2 is, the state attorney
general has made the decision that in its consumer protection cases it wants to bring its consumer protection
cases in state court in the state of New Mexico.
THE COURT: I understand that. I just wish they
would have gotten out of New Jersey.
MR. ALBERSTONE: And I’m going to consult with
the client about that. It’s a fair point, like I said, from 1
the very beginning. And again, you’ve got to look at the
[28] context of that relator case, here is somebody who is
doing a shotgun approach from Illinois representing -purporting to represent 24 or 25 different states.
THE COURT: That’s not -MR. ALBERSTONE: I just threw a number out,
frankly.
THE COURT: Okay.
MR. ALBERSTONE:
Honor

Okay.

Thank you, Your

THE COURT: You wish to respond?
MR. HARKER: I will say, you know, I’m glad to answer your questions. I think you kind of got to the heart
of and you understand how unfair this is and why we are
doing this, why is the state doing this.
One thing I never heard Mr. Alberstone say about the
Dickson case was that the state wasn’t going to take any
money that Miss Dickson was able to win for it in that
Dickson case. So, you know, he can say all he wants about
the state can consent and so on --

86a
THE COURT: Isn’t Dickson, it appears more likely
to me, but if she wins money under that theory that she’s
pleaded, which I’m forgetting again the name of it.
MR. HARKER: Medicaid False Claims Act.
THE COURT: Yeah, Medicaid False Claims Act,
isn’t it possible that here in New Mexico they would recover money from your client for violations of different
statutes?
[29] MR. HARKER: These statutes are so closely interrelated, Your Honor, in New Mexico, the Fraud
Against Taxpayers Act, the Medicaid False Claims Act,
the Medicaid Fraud Act, that, I mean, that would be obviously something we would have to look at, but one of the
harms that the state that had been announced in terms of
the claims splitting rule is to avoid the burden, a, the burdens of defending cases in different places, as well as the
possibility of inconsistent results and also double judgments, and that’s what we are concerned about.
The state, in fact -- the state did in fact consent. When
you look at the statute, whether it was the attorney general or the human services department, the statute -- the
statute that we cited to you does require the state to consent to the relator going forward without intervention.
The state has enormous power over the relator’s case,
which I will say this, the relator in that case was represented by the Grace Fall firm in Texas, so she might be in
Arkansas, but believe me, she is very capably represented
there. But the New Mexico statute, what does it say -THE COURT: She might be capably represented,
but really, what does she know -- I mean, what does she
even care about New Mexico compared to the other stuff
she is arguing about.

87a
[30] MR. HARKER: The thing is, Your Honor, the
reason why, and, you know, we are focused on the fact that
they have brought a separate count, a different count than
in New Mexico. I don’t know why New Mexico didn’t
bring a Medicaid False Claims Act count. Perhaps it was
to be able to maintain -- they knew they were claims splitting, and they wanted to be able to maintain as much distance between the two cases as possible.
THE COURT: Yeah, but -MR. HARKER: I was going to say, but under New
Mexico law, the fact, the status or the test is, same parties
and same claims. It has nothing to do with the fact that
the counts are different. That is the law in some places,
like in Hawaii, it’s important whether or not the counts
line up. But here in New Mexico, case after case, either
for res judicata purposes or for purposes of claims splitting say that the legal theories that are used are irrelevant
to the idea of whether or not the claims are improperly
split.
THE COURT: Not if the Court in the first case
doesn’t have jurisdiction over the claims that they want to
raise in the second case.
MR. HARKER: And Your Honor, let me address
that, if that’s of concern to you.
THE COURT: Well, it is.
[31] MR. HARKER: Under the false -- and I didn’t
hear -- I mentioned this earlier, and I didn’t hear Mr. Alberstone dispute this, but under the -- under 31-USC3732, that’s the part of the False Claims Act, it specifically
says that the federal court has ancillary jurisdiction over
any state claim that the state wants to bring.
So they can bring those claims, the claims that they
are saying that Dickson couldn’t bring, Miss Dickson

88a
couldn’t bring, they can take those claims -- they can just
basically transport their current case and file it in New
Jersey. They don’t want to do that.
THE COURT: Right, they don’t want to do that.
They want their case tried in New Mexico, which is certainly understandable.
MR. HARKER: But they can’t have a foot in New
Jersey and also have a foot in New Mexico, and that’s the
problem that we have, Your Honor.
THE COURT: But you could, if you just use the jurisdiction analysis, then they could have a foot in both
states, because the one place, that relator cannot bring
claims that have to be brought by the attorney general,
and the attorney general isn’t bound by her selection of
forum.
MR. HARKER: No, but -THE COURT: On those claims that only the [32] attorney general can bring.
MR. HARKER: Then what they need to do is they
need to get out of New Jersey.
THE COURT: Well, I couldn’t agree with you more,
but I would probably say that to anybody.
MR. HARKER: But aren’t we talking -- we are sort
of talking about a classic situation of claims splitting. I
think you have seen how much overlap there is between
the two cases. The attorney general can intervene. The
attorney general can come in and dismiss Miss Dickson,
take over the case in New Jersey, bring all of their claims,
and all we are saying, Your Honor, is they shouldn’t be
able to have two bites at the apple.

89a
And the way that this went down, as I said before,
Miss Dickson loses the New Mexico claims and suddenly
the attorney general brings them here, resurrects them.
THE COURT: Again, I think that’s perfectly appropriate, but what can I say?
MR. HARKER: I think, again, once assuming that
Judge Wolfson follows what she did the first time and
doesn’t change course and dismisses New Mexico’s claims
from the Dickson case, I think then we will have the different argument about res judicata. Right now we are
talking about claims splitting. At that moment we will
have a discussion [33] about res judicata, and we will have
an opportunity, both Mr. Alberstone and myself, to fully
brief the issue that we are talking about.
THE COURT: The res judicata?
MR. HARKER: Yes, in the context of res judicata.
THE COURT: Okay. Thank you.
MR. HARKER: Anything else, Your Honor?
THE COURT: Not on this issue. I think that I have
a fair amount of discretion in the matter of whether or not
a case should be stayed in favor of previously filed litigation, and I have to say, I don’t like the idea of the New
Mexico related claims being litigated in two places at once.
Frankly, this great inconvenience claim doesn’t really
impress me as to these defendants, and they are perfectly
capable of litigating in any number of jurisdictions at
once, but I am concerned about the possibility of inconsistent judgments, and this bothers me that New Mexico
is involved in both the New Jersey cases and the New
Mexico case. So I’m going to stay this case for a period of
up to two months to give the attorney general the opportunity to dismiss the case in New Jersey on a voluntary

90a
dismissal basis and consolidate everything that can be
brought in the New Mexico case.
At the end of two months if that hasn’t been [34] done,
then I will revisit what to do with the current case. That
might also give Judge Wolfson the opportunity to rule on
the most recent motions to dismiss, and as far as I’m concerned, once those motions to dismiss are granted, it is
more than appropriate for the attorney general to file in
New Mexico, and we can fight about whether or not there
is any res judicata effect with those dismissals.
But I’m going to stay this case for a period of two
months, and consequently I know you told me I should
now act on the 12(b)(6), but I’m not going to do that. I’m
going to wait until we see where we stand because I think
it will be easier if we have a better, more complete concept
of where this litigation stands.
* * * * *

91a
APPENDIX H

STATE OF NEW MEXICO
COUNTY OF SANTA FE
FIRST JUDICIAL DISTRICT COURT
Case No. D-101-CV-2016-02176
STATE OF NEW MEXICO, ex rel.
HECTOR BALDERAS, ATTORNEY GENERAL,
Plaintiff,
v.
BRISTOL-MYERS SQUIBB COMPANY,
SANOFI-AVENTIS U.S., LLC,
SANOFI US SERVICES INC., formerly
known as SANOFI-AVENTIS U.S. INC.,
SANOFI-SYNTHELABO INC., and
DOE DEFENDANTS 1 to 100,
Defendants.
ORDER ON MOTION TO STAY PROCEEDINGS
This matter was originally heard on Defendants’ motion to stay proceedings based on the doctrine against
claim splitting. At the hearing on the motion on March 1,
2017, the Court expressed concern with the possibility
that there could be conflicting judgments if the present
case were pursued while a case raising claims on behalf of
New Mexico under the New Mexico False Claims Act was
pending in New Jersey. While the claims in the New Jersey case were not brought under the same legal theories,
the claims in both cases appeared to arise out of common
facts. The Court entered a stay to allow the State to take
some action that would alleviate the danger of

92a
inconsistent judgments. By letter the State informed the
Court that it had taken no action vis-à-vis the New Jersey
case. See Exhibit 1. The defendants responded by letter
requesting that the stay be continued. See Exhibit 2. The
Court having considered the matter has determined that
the stay should be continued until the New Jersey case is
resolved or the State of New Mexico is no longer included
in its claims.
IT IS SO ORDERED.
Sarah M. Singleton,
District Court Judge
* * * * *

93a
APPENDIX I

FIRST JUDICIAL DISTRICT COURT
COUNTY OF SANTA FE
STATE OF NEW MEXICO
STATE OF NEW MEXICO, ex rel,
HECTOR BALDERAS, ATTORNEY GENERAL,
Plaintiff,
vs.
BRISTOL-MYERS SQUIBB COMPANY,
SANOFI-AVENTIS US LLC
SANOFI US SERVICES, INC., formerly
known as SANOFI-AVENTIS US INC.,
SANOFI-SYNTHELABO INC., and
DOE DEFENDANTS 1 TO 100,
Defendants.
D-101-CV-2016-2176
FINAL TRANSCRIPT OF PROCEEDINGS
On the 3rd day of November 2017, this matter came
on for hearing on MOTIONS before the HONORABLE
SARAH SINGLETON, Judge of the First Judicial District, Division II, State of New Mexico.
The DEFENDANTS were represented by Counsel
of Record, TIM HOLM and DREW A. HARKER.
The PLAINTIFFS were represented by P.
CHOLLA KHOURY and DANIEL ALBERSTONE.
At which time the following proceedings were held:
[2] November 3, 2017
(In open court.)

94a
THE COURT: We are here today in the matter of
State of New Mexico, ex rel Hector Balderas, Attorney
General, versus Bristol-Myers Squibb Company and others. It’s D-101-CV-2016-02176.
First of all, could I have people enter their appearances on behalf of the plaintiff.
MR. ALBERSTONE: Yes, Your Honor. Good morning. Dan Alberstone of Baron and Budd on behalf of the
plaintiff, State of New Mexico.
MS. KHOURY: Cholla Khoury with the Office of the
New Mexico Attorney General.
THE COURT: Thank you very much. Is any other
counsel appearing for the plaintiff?
MR. ALBERSTONE: No, Your Honor.
THE COURT: Thank you. Then let’s go to the defendants.
MR. HOLM: For the defendants, Your Honor, my
name is Tim Holm from Modrall Sperling. With me is
Drew Harker from Arnold & Porter who has been admitted pro hac and will be presenting argument along with
me this morning.
Also at counsel table is Said Saba, also from Arnold &
Porter who will not be presenting argument. On the telephone just listening in, but not presenting argument, [3]
are Daniel Dovdavany, associate general counsel for Sonofi US and Cecily Williams Henson, in-house counsel for
Bristol-Myers Squibb.
* * * * *
[4] THE COURT: All right. We will do res judicata
first.
MR. HARKER: Good morning, Your Honor.

95a
THE COURT: Good morning.
MR. HARKER: My name is Drew Harker for the
defendants. This case should be dismissed on res judicata
grounds. The State’s claims are based on the same facts
at issue in the Dickson case which we talked to you about
last March that was pending in the federal district court
in New Jersey.
After that hearing, Your Honor stayed this case, the
New Mexico case here in Santa Fe, and in doing so you
expressed concern that both cases arise from defendant’s
alleged deceptive labeling and promotion of Plavix.
In your order granting the stay, you said that you
were, quote, “Concerned about the risk of inconsistent
judgments and about the fact that plaintiff has not taken
any steps to consolidate its claims in a single jurisdiction.”
And in your order you also emphasize that, I’m quoting, “Plaintiff’s complaint and the claims asserted on
plaintiffs’ behalf in Dickson share some common operative
facts.”
And you stayed this case in order to give the State
the, quote, “The opportunity to cause the dismissal of [5]
the Dickson action on a voluntary dismissal basis or otherwise consolidate the Medicaid False Claims Act cause
of action brought in Dickson.”
This was in March, Your Honor. Subsequent to your
order, the State made no efforts to consolidate its claims
in one court. And in reaction, in response to the State’s
request that you lift the stay that you had entered, which
was due to expire on May 1, you rejected that, and in fact,
extended the stay.
And in extending the stay, you said, “While the claims
in the New Jersey case were not brought under the same
legal theories, the claims in both cases appear to arise out

96a
of common facts,” and you also expressed a concern about
the risk of conflicting judgments. Still, the State made no
effort to consolidate its claims.
Well, it’s time to pay the piper, Your Honor. Dickson
has now been decided in New Jersey, as you know, and it
dismissed for a second time the New Mexico claims
brought in that court.
THE COURT: Could I ask a question about that?
MR. HARKER: Absolutely.
THE COURT: I want to make sure I’m reading the
Dickson case correctly. It seemed to me that there was a
claim that dealt with how the drug got to be on the list of
preferred drug -- drugs, and that on that one he allowed
[6] her leave to amend. Now, she didn’t do that, but he
didn’t dismiss that one.
MR. HARKER: There was two Dickson opinions,
Your Honor. The Dickson III opinion was in 2015. The
second opinion was in June of 2017.
THE COURT: I think that’s the one I’m talking
about.
MR. HARKER: And that was a final judgment. That
was, as a matter of law, the judge ruled that Ms. Dickson’s
allegations with respect to placement of Plavix on the formulary did not state a cause of action under the False
Claims Act. There was no opportunity to amend.
THE COURT: Hang on just a minute. I’m looking
at your Exhibit A, and -- June 27, 2017 and I’m looking at
what was the printout Page 14.
And it says, “Accordingly, defendant’s motion to dismiss the formulary allegations as law of the case is denied,
and I will now turn to the merits of the claim.”

97a
And so then you are saying on the merits he dismissed that, too, as not stating a claim.
MR. HARKER: That’s correct, Your Honor. Essentially Dickson sought in the fourth amended complaint to
restate her formulary allegations that the Court had dismissed in Dickson III. And we had argued, since Dickson
III dismissed those claims, the law of the case was she [7]
didn’t have to get to the merits of those claims in the
fourth amended complaint.
As you see from her opinion she rejected our argument that it was the law of the case and then dealt with
the issue on the merits, and concluded that, on the merits,
and as a matter of law, the allegations about placement of
Plavix on the formulary did not state a claim under both
federal law as well as state law. May I go on?
THE COURT: Yes.
MR. HARKER: So as we have outlined in our briefs
which I will summarize this morning, res judicata applies
to bar New Mexico’s complaint here for three reasons, for
all three elements of res judicata on that.
First, the parties are the same. The claims share a,
quote, “Common nucleus of operative facts,” as you already indicated in your two orders, and Dickson was a final decision on the merits.
So let’s talk, first of all, about the State being a party
in the Dickson case. So we will talk about concepts like
privity and real party in interest because those are important in terms of understanding why our position is, is
that -- why our position is, is that New Mexico is in the
Dickson case.
So because basically our position is, is that New Mexico and Ms. Dickson were in privity in connection with [8]

98a
that case in New Jersey, and that New Mexico remained
the real party in interest in that case.
* * * * *
[27] * * *
THE COURT: Dickson’s counsel, is that who we are
talking about?
MR. ALBERSTONE: Correct, Dickson’s counsel,
and they weren’t cooperative, the relator’s counsel.
Now, I had a previous history with Judge Wolfson in
the Dickson case because I also represent the State of Hawaii. And earlier on, months ago, if not even a year ago
now, I appeared before Judge Wolfson because there was
an issue that arose with the State of Hawaii with respect
to extricating itself from that multidistrict litigation, and
the facts of it aren’t important.
But at the time what happened was, Judge Wolfson
was resistant to that, but ultimately decided that she had
no choice, because we were right, and allowed the State to
extricate itself.
But then what she told me was:
“I don’t understand why you don’t want to be in this
courthouse,” and she was trying to get me to convince the
State of Hawaii to remain in that case. I explained to [28]
her the reasons why the State wanted to have its case
prosecuted, after having it removed by defendants to federal court and remanded back to state court, why the
State wanted it in state court.
So she said:
“Well, go back and talk to your clients,” and the clients didn’t want to move it.

99a
And you have to understand what the procedural status of this case was. There was a motion to dismiss pending, fully briefed, under submission, fourth amended complaint. The defendants wouldn’t agree to move it here,
and I’m not complaining that they wouldn’t, but they
wouldn’t.
I knew that there was zero chance that this judge was
going to allow us to intervene in this case because the requirement of a showing of good cause. And there was no
circumstance that I could understand that I went in there,
tried to intervene for purposes of removing it, when she
had under submission a motion to dismiss under fourth
amended complaint.
And I’m not complaining about that, I’m not saying
she is wrong, but that’s the reason we didn’t go in. We
didn’t have the defendant’s cooperation. We didn’t have
the relator’s cooperation. We would have been hardpressed to show good cause to intervene. There was no
chance of its [29] being removed or dismissed by the State.
Now, folks can agree or disagree with that decision,
but I’m being upfront with the Court as to what happened.
THE COURT: At some point, if not by you all, initially when the State decided not to intervene in that action, they had to think that whatever happened in this
Dickson on the Medicaid False Claims Act case was going
to be binding on the State.
MR. ALBERSTONE: I can’t conjecture as to what
they were thinking, but I understand the Court’s thinking.
THE COURT: Legally, I’m not talking about their
internal processes, I’m just saying, as a legal proposition,
they must have confronted that.

100a
MR. ALBERSTONE: If the case proceeded past the
pleading stage, which is what I want to focus on, if I can,
I think the defendants are wrong on the facts, wrong on
the law, and I think they mischaracterize certain aspects
of the law with respect to this.
US versus Eisenstein with respect to this issue was
dicta. It was thrown in there, and it wasn’t necessary for
the Court’s decision. The Peterson Court also cited to the
Eisenstein decision, but again, it was dicta. But it doesn’t
matter, because there is other cases that we have cited,
that counsel didn’t discuss with you when he was up [30]
here, that shed light on what needs to happen here.
And we first start with what the Court already focused on, which was Judge Wolfson’s decision in Dickson.
And there was no question that the case was dismissed,
not based on the merits of the case, but based on the failure to meet the pleading standards under 9(b).
And what Judge Wolfson said, as generally the Court
pointed out, quote:
“Here as discussed below, the Court finds the imposition by the Supreme Court in Escobar of a heightened
pleading standard for materiality under the FCA to be
dispositive of relator’s allegations in the fourth amended
complaint.
“As such, other than observing that the Escobar decision constitutes a supervening change in law with regard
to the materiality element, the Court need not decide
whether the pleading standards or elements of the FCA
or for pleading fraud with particularity under 9(b) have
been affected by that decision.”
The Court decided it based on failure to meet materially under Escobar. It’s a pleading issue. It never got

101a
past the pleading stage. We have cited a number of cases,
Your Honor, which are critical to this Court’s decision.
Williams versus Bell Helicopter, Fifth Circuit, [31]
2005 case, in which the Court found:
“The government asserted the district court erred in
dismissing the complaint against the US with prejudice,
specifically, the government argued its statutory right
should not be foreclosed when a qui tam action is dismissed not on the merits, but because of a deficient complaint under Rule 9(b).
“The record is devoid as to why the government did
not intervene. Given the Rule 9(b) deficiencies, the government may have determined the cost associated with
the proceeding based on a poorly-drafted complaint outweighed any anticipated benefits. While the government
could have opted to intervene and amend, it is not the
Court’s duty to speculate as to the costs and benefits associated with such a strategy.”
The Court goes on:
“By essentially requiring the government to intervene in order to avoid forfeiture of any future claims
against the defendant, private parties would have the
added incentive to file FCA suits lacking in the required
particularity knowing full well that the government would
be obligated to intervene and ultimately fill in the blanks
of a deficient complaint.
“To avoid such perverse incentives, the Court found
that the district Court abused its discretion in [32] dismissing the claims as to the US with prejudice after holding that the qui tam complaint failed to meet the heightened pleading standards of Rule 9(b).”
The Court, importantly, Your Honor, found the case
was distinguishable from Schimmels, which the

102a
defendants cite, where the government was found to have
tacitly participated.
I want to talk a moment just about Schimmels, because in that case, in a footnote, the Court -- the Court
explained why it found there to be participation.
What the Schimmels Court said was, listen, two
things happened here. The government lawyers showed
up to basically every hearing that the qui tam relator had.
So there was that participation by showing up to every
hearing.
There was also participation, the Court found, because the State had filed its own motion in the bankruptcy
court to challenge the discharge of the debtor and asked
the Court to hold their separate motion under abeyance
until the Court had decided the relator’s complaint.
So based on that, the Schimmels Court said there was
tacit participation in the case. And what the Court went
on to say is, noting again, referring to the Restatement
(Second) of Judgments, Section 37, the comments, 1982,
quote:
“Unless the official party in whose name the [33] action is brought or defendant has some participatory or supervisory authority in the action, he is not concluded by
the judgment.”
There is no evidence, Your Honor, and it just didn’t
happen that the State of New Mexico participated in any
fashion in connection with the Dickson case.
THE COURT: Are you suggesting if Ms. Dickson
had won and recovered money, that the State wouldn’t
have been entitled to get the money, or at least the bulk
of it?

103a
MR. ALBERSTONE: I’m not suggesting that at all.
I’m suggesting that as a result of the fact it never got past
the pleading stage and there are two other cases that we
cited that follow the Williams case. One is US -- it was
cited in our papers -- US versus Health Management, a
2014 district court case in Florida.
The Court found, quote:
“In a case such as this, dismissal with prejudice to the
government would be inappropriate because the dismissal
was based on the relator’s failure to comply with the
heightened pleading requirements of Rule 9(b), a matter
unrelated to the merits of the claim. If the Court were to
accept defendant’s position, the government would essentially be compelled to intervene in FCA suits and fill in the
blanks of a defective complaint in order to protect its
rights.”
[34] And Williams was also followed in a 2011 case,
Southern District of New York, again cited in our papers,
US versus Quest Diagnostics. And so, like I suggested
earlier, Your Honor, Eisenstein is at best is a general rule,
but it didn’t address the fact, as these other cases did and
where these other Courts refused to follow -- refused to
follow the Eisenstein ruling because they said here, when
you are not -- when you are dealing the pleading stage,
and the relator is unable to state a cause of action, that
shouldn’t impact the State.
In addition, Your Honor, as the Court noted, we have
not brought a False Claims Act; we haven’t done that, so
we are not seeking to relitigate that claim at all.
And just as a side note, Your Honor, I do think that
Judge Wolfson did get it wrong because what Escobar
talks about is something a little different than what occurred.

104a
The relators in Dickson, as we have here, have suggested that, had the State known, had the State known
that they were lying, then the defendants would not have
received all of this money. They would not have approved
it.
The mere fact, for example, that the State that a drug
gets on the PDL, the formulary, and gets paid automatically, just talks about the system, because how [35] could
the State realistically evaluate each representation every
time, as a matter of practicality, each time a prescription
is put in and reimbursement is being sought.
But we did allege here, as they did allege in Dickson,
that had the State known, these claims wouldn’t have been
paid. What they are complaining about is the system we
had in place in terms automatically paying it.
It doesn’t mean that, through this automation, if at
some point the State became aware of it, that they
wouldn’t pay it. So the allegation is in there. Whether the
facts prove that or not later on in terms of whether that’s
accurate or whether there is some other facts, we are going to learn that in discovery.
The other issue I wanted to bring up is this whole idea
of a party being foreclosed out, and there was a citation of
a number of cases. But the Potter versus Pierce case that
the defendants cited in their papers, in that case the Court
expressly found that res judicata only applies if the claim
reasonably could and should have been brought during
the earlier proceeding by the party. By the party, not the
relator -- excuse me -- not the party in privity, but the
party to the case.
And so at least other than a FATA case, the party, the
relator, had no statutory right to raise the Medicaid -- the
Fraud Against -- I forgot what it’s called [36] now, I apologize. But the other statutory claims, including Unfair

105a
Practices Act, Fraud Against Taxpayers is the one they
could have brought, and there is one other common-law
claims, the relator had no right to bring those causes of
action.
So the party, the relator, because we do distinguish
between parties and those in privity, in fact some of the
cases the defendants cite distinguish those two. So at the
end of the day, Your Honor, in terms res judicata, it’s just
not there. Is there a common nucleus of operative facts?
I think there are in part, not in whole. For example, we
have alleged this variability of response claim that was
dropped in an earlier -- voluntarily dropped by the relator
-THE COURT: That’s the people who don’t metabolize?
MR. ALBERSTONE: Correct, which is part of our
case. That wasn’t the subject of Judge Wolfson’s ultimate
decision in the case. So there are differences, but I’m not
going to argue that they -- the common nucleus of facts
aren’t there, but they don’t satisfy the other element in
terms of proving this was on the merits.
And they raise this big issue of trying to shoehorn this
into the merits when it wasn’t on merits, as I read from
Judge Wolfson’s order. So on res judicata, Your [37]
Honor, unless the Court has any questions, I think this
case should proceed.
THE COURT: All right. Thank you. Do you want to
briefly respond?
MR. HARKER: Yes, Your Honor, I would briefly respond. First of all, let me start with something that Mr.
Alberstone talked about, taking exception to something
that Judge Wolfson had decided.

106a
So, you know, with respect to whether or not alleged
false statements to the formulary constituted a violation
of the law, Judge Wolfson found what she found. She
clearly found that misstated a claim. Mr. Alberstone says
he disagree with that. Back to your order, Your Honor,
about the risk of inconsistent judgments presented front
and center with Mr. Alberstone’s admission.
The second thing is, let’s step back for a second, okay.
The Dickson added that -- Ms. Dickson added New Mexico claims in 2011, and the State was aware of those
claims; they were served with the complaint. So they
knew that New Mexico was in play in New Jersey.
But not only that, what’s important to recognize so at
least as of 2011, for six years they knew that Dickson was
at play, that New Mexico was in play in Dickson in New
Jersey, and so they could have impact on them. But importantly, the chronology in this case, let’s look at the [38]
chronology in this case.
In this case the State filed its complaint here on September 14, 2016. We moved to dismiss, including on
claims splitting, slash, res judicata grounds, on November
28, 2016. We didn’t move to dismiss Ms. Dickson’s complaint in, the fourth amended complaint, in New Jersey
until two months later, January 30.
So they had -- at a minimum they had six years of notice, but they had two months where they were clearly on
notice about the problem with the overlap between the
two cases, and yet they did not nothing. They are talking
about the idea that, well, by the time they started looking
at this, the motion to dismiss in Dickson was fully briefed.
Okay, I don’t -- that may be the case, but the problem
is, is that they had two months before we filed the motion
to dismiss to do something with respect to Dickson.

107a
THE COURT: Well, before you filed the motion to
dismiss the fourth amended complaint, I think you had
filed quite a few before that, so they knew that was coming.
MR. HARKER: Absolutely. Absolutely. But my
point is, is that -THE COURT: And they also, I think they are absolutely right, at least it’s been my experience with federal
judges who have multidistrict cases, they want everybody
to be there. They don’t want anybody out there [39] outlying their case.
MR. HARKER: Your Honor, if I might just take exception to that for a second in terms of Ms. Wolfson, because if you look at the history of this, Mr. Alberstone
mentioned Hawaii, and there was an issue of not about being in -- Hawaii being in the MDL, but about whether or
not the special master appointed there, which Hawaii had
earlier agreed would be part of -- would decide Hawaii discovery issues, and then when Mr. Alberstone came in, that
agreement no longer was in place.
But so -- so in terms of that point, Mr. Alberstone has
already said that Ms. Wolf -- Judge Wolfson said:
“Okay, Hawaii, you don’t want to be part of the discovery resolution process in the MDL, that’s fine.”
But more importantly, Mississippi and West Virginia
are two other state AG cases. We removed those to federal court. She said:
“They don’t belong in federal court; they should go
back to state court.”
So this is not really a judge who I think you could say
was inquisitive in terms of wanting everything in her
court.

108a
The final thing I will say is that the State has been in
control. They could have moved to dismiss Dickson [40]
even without any -- even over the objection of the relator.
In fact, the statute says that the State has the unfettered right -- the unfettered right to dismiss -- to move to
dismiss a private cause of action. The State could have
done it in 2011, the State could have done it 2016, and the
State could have done it in 2017.
You put your finger on it, Your Honor, when you
asked Mr. Alberstone when you said:
“Are you saying you wouldn’t want any of the recovery in New Jersey?”
And he candidly said, no, that was not what he was
saying. They were basically trying to play both sides of
the fence, and Courts in New Mexico have rejected that.
* * * * *

109a
APPENDIX J

STATE OF NEW MEXICO
COUNTY OF SANTA FE
FIRST JUDICIAL DISTRICT COURT
STATE OF NEW MEXICO, ex rel.
HECTOR BALDERAS, ATTORNEY GENERAL,
Plaintiff,
v.
BRISTOL-MYERS SQUIBB COMPANY,
SANOFI-AVENTIS U.S., LLC,
SANOFI US SERVICES INC., formerly
known as SANOFI-AVENTIS U.S. INC.,
SANOFI-SYNTHELABO INC., and
DOE DEFENDANTS 1 to 100,
Defendants.
Case No. D-101-CV-2016-02176
DEFENDANTS’ SUPPLEMENTAL MEMORANDUM REGARDING DEFENDANTS’ MOTION TO
DISMISS PLAINTIFF’S COMPLAINT FOR DECLARATORY RELIEF, DAMAGES AND CIVIL
PENALTIES

110a
* * * * *
[Defendants’ Memorandum and Exhibits A-C omitted]
* * * * *
EXHIBIT D
State of N.M. ex rel. Balderas v. Bristol-Myers Squibb
Co., No. D-101-CV-2016-02176
Comparison of the core allegations in the State of
New Mexico’s Complaint with the allegations in Relator Elisha Dickson’s pleadings in United States ex
rel. Dickson v. Bristol-Myers Squibb Co., MDL No. 132418 (D.N.J.)
A.

Section I.A. of the factual allegations section of the
State’s Complaint: “Failure to Disclose Plavix’s
Diminished Effectiveness in a Significant Percentage of the Patient Population.” New Mexico Compl. ¶¶ 29-47.

New Mexico Complaint

Dickson First Am.
Compl. (“Dickson 1AC”)

“On March 25, 2010, Defendants added a black
box warning to Plavix’s
label that states that
Plavix does not become
effective until it is metabolized into its active form
by the CYP2Cl9 liver enzyme. Individuals with
particular CYP2Cl9 genotypes are CYP2Cl9 poor
metabolizers. The black
box warning . . . cautions

“On March 25, 2010 FDA
added a black box warning to the Plavix prescribing information.” Dickson
1AC, ¶ 29. ‘The black box
warning advised that
Plavix does not have its
anti-platelet effects until
it is metabolized into its
active form by the liver
enzyme, CYP2Cl9.” Id.
¶ 30. “[W]hen a patient
who is a CYP2Cl9 poor

111a
New Mexico Complaint

Dickson First Am.
Compl. (“Dickson 1AC”)

that Plavix has diminished effectiveness in patients who are CYP2Cl9
poor metabolizers . . . .”
New Mexico Compl. ¶ 29.

metabolizer takes Plavix,
that patient receives no
anti-platelet protection.”
Id. ¶ 32.

“It is believed that a significant percentage of the
patient population in New
Mexico consists of
CYP2Cl9 poor metabolizers.” New Mexico Compl.
¶ 30.

“It is estimated that 2
percent to 14 percent of
the U.S. population are
poor metabolizers, and
people of Asian and African ancestry have a
greatly increased prevalence of poor CYP2Cl9
metabolizer status.”
Dickson 1AC ¶ 32.

“The black box warning
added in March 2010 also
states that patients who
are CYP2Cl9 poor metabolizers treated with Plavix
have higher cardiovascular event rates than patients with normal
CYP2Cl9 function.” New
Mexico Compl. ¶ 31.

“Researchers have found
that patients who are
CYP2Cl9 poor metabolizers have a 3.58 times
greater risk for major adverse cardiovascular
events such as death,
heart attack, and stroke.”
Dickson 1AC ¶ 33.

“[S]ince at least March
1998, 12 years before the
black box warning was
added, Defendants knew
or . . . should have
known that Plavix has

“BMS/Sanofi has known
about the diminished antiplatelet effect of Plavix
for patients who are poor
CYP2Cl9 metabolizers
since at least 2003 or

112a
New Mexico Complaint

Dickson First Am.
Compl. (“Dickson 1AC”)

diminished or no effect
on patients who are
CYP2C19 poor metabolizers. . . . Defendants,
however, failed to disclose
that information in order
to protect Plavix’s sales
and revenues.” New
Mexico Compl. ¶ 32 (emphasis added); see also Id.
¶¶ 3, 103.

earlier.” Dickson 1AC
¶ 27. “Defendants had
full knowledge that
Plavix provided little to
no anti-platelet protection for poor CYP2C19
metabolizers yet failed to
amend their label to reflect this.” Id. ¶ 49 (emphasis added); see also Id.
¶ 291.

“[S]ince at least 2003, Defendants knew or by the
exercise of reasonable
care should have known
that Plavix has diminished or no effect on patients who are also taking
drugs that are CYP2Cl9
inhibitors. … Defendants, however, failed to
disclose that information
in order to protect
Plavix’s sales and revenues.” New Mexico
Compl. ¶ 33.

“From 2003 onwards, Defendants had full
knowledge that the concomitant use of Plavix
with strong or moderate
CYP2Cl9 inhibitors would
sever[e]ly compromise, if
not eliminate, Plavix’s
anti-platelet activity, yet
failed to amend their label
to reflect this information.” Dickson 1AC
¶ 48.

113a
B.

Section I.B. of the factual allegations section of the
State’s Complaint: “False, Deceptive, and Unfair
Superiority Claims.” New Mexico Compl. ¶¶ 4860.

New Mexico Complaint
“Defendants ignored, concealed, and minimized
clinical trial data and
other information showing that Plavix is only as
effective as–or in some
cases even less effective
than–aspirin in treating
such patients, and that
Plavix has a higher
chance of causing gastrointestinal bleeding and
other complications. Despite that information,
Defendants falsely and
misleadingly marketed
Plavix as being more effective and safer than
aspirin.” New Mexico
Compl. ¶ 4 (emphasis
added). “[S]ince March
1998, Defendants have
sought to increase Plavix
sales and market share by
making false and misleading superiority
claims about Plavix relative to aspirin…. Aspirin costs approximately

Dickson Fourth Am.
Compl. (“Dickson 4AC”)
“Plavix costs approximately $4.00 per pill,
whereas aspirin costs approximately $0.04 per pill.
This action arises out of
BMS/Sanofi’s practice of
promoting Plavix as a
superior drug to aspirin
… and charging approximately 100 times more for
Plavix . . . , when in fact
Plavix is no more effective
than aspirin for certain
indicated usages.” Dickson 4AC ¶ 3 (emphasis
added). “BMS and Sanofi
have knowingly participated in a comprehensive
scheme to defraud federal
and state governments by
illegally and deceptively
promoting Plavix as superior to aspirin….” Id.
¶ 15 (emphasis added).

114a
New Mexico Complaint

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

$.04 per pill, while Plavix
costs approximately $4.00
per pill.” Id. ¶ 48 (emphasis added); see also Id.
¶¶ 137, 156, 170.
“The efficacy and safety
of Plavix and aspirin for
treatment of patients at
risk for ischemic events
were studied in the
[CAPRIE] clinical trial,
the results of which were
published in 1996. The
CAPRIE trial studied
19,185 patients who were
divided into three subgroups of approximately
6,300 patients. The three
subgroups were respectively comprised of:
(1) patients who experienced a recent stroke;
(2) patients who experienced recent myocardial
infarction; and (3) patients who experienced
symptomatic [peripheral
arterial disease]. Half of
the patients in each subgroup were given 325 mg
of aspirin once daily and
the other half were given
75 mg of Plavix once

“Plavix is indicated for
treatment of patients who
have recently suffered
from stroke. Plavix’s indication for patients with
recent strokes was obtained based on the
[CAPRIE] clinical trial.
The CAPRIE trial enrolled 19,185 patients with
approximately 6,300 patients in each of three different subgroups. The
three subgroups included
(a) patients who experienced a recent stroke,
(b) patients who experienced recent myocardial
infarction…, and (c) patients who experienced
symptomatic peripheral
arterial disease…. In
each subgroup, half of the
patients were given
325 mg of aspirin once
daily and the other half
were given 75 mg of

115a
New Mexico Complaint

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

daily.” New Mexico
Compl. ¶ 49.

Plavix daily.” Dickson
4AC ¶ 167.

“The primary objective of
the [CAPRIE] study was
to compare the rates of ischemic stroke, myocardial
infarction, and vascular
death between patients
taking Plavix and patients
taking aspirin.” New
Mexico Comp1. ¶ 49.
“The CAPRIE trial results showed an absolute
risk reduction of only
0.5%. In other words, out
of every 1,000 patients, a
mere 5 patients experienced a benefit from
treatment with Plavix in
comparison to treatment
with aspirin. While
Plavix showed a slightly
significant relative risk
reduction of 8.7%, that
figure was based in large
part on the results in the
PAD subgroup, which
demonstrated a relative
risk reduction of 23.8%.
In the subgroups comprised of patients who had
a recent stroke or myocardial infarction, the trial

“The primary efficacy
endpoint for the
[CAPRIE] trial was the
combination of ischemic
stroke, MI, or vascular
death.” Dickson 4AC
¶ 168.

“In the CAPRIE trial,
Plavix demonstrated a
marginally significant
8.7% relative risk reduction of the primary endpoint compared to
aspirin. The absolute risk
reduction was 0.5%,
meaning that for every
1,000 patients treated
with Plavix only five patients benefited from
Plavix treatment as compared to aspirin treatment.”
Dickson 4AC ¶ 168. “The
CAPRIE composite data
was driven primarily by
the PAD subgroup,
which showed a relative
risk reduction of 23.8% in

116a
New Mexico Complaint
results did not show that
Plavix had a statistically
significant risk reduction;
in fact, aspirin had a
greater relative risk reduction than Plavix in
patients who had a recent myocardial infarction.” New Mexico
Compl. ¶ 50 (emphases
added).

“[N]otwithstanding [the
CAPRIE] results, since
Plavix’s product launch in
March 1998, Defendants
have falsely and misleadingly marketed Plavix as
being superior to aspirin
in treating stroke and
heart attack patients in
order to take market
share away from aspirin

Dickson Fourth Am.
Compl. (“Dickson 4AC”)
the primary endpoint.
However, in the recent
stroke and recent myocardial infarction subgroups,
CAPRIE demonstrated
that there was no statistically significant reduction
in the primary endpoint
for patients taking Plavix
as compared to patients
taking aspirin. Indeed, in
the case of aspirin, even
though no statistically
significant reduction existed favoring aspirin
over Plavix for recent
myocardial infarctions,
the study concluded that
the trend favored aspirin
over Plavix.” Id. ¶ 169
(emphases added).
“Despite the non-significant efficacy data in the
CAPRIE trial for stroke
patients, company sales
pamphlets (citing
CAPRIE) claimed that
there was ‘proven efficacy’ of Plavix over aspirin in ischemic stroke patients.” Dickson 4AC
¶170.

117a
New Mexico Complaint
medications.” New Mexico Compl. ¶ 50.

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

“BMS/Sanofi also encouraged physicians to switch
patients from aspirin to
Plavix if they suffered a
stroke while taking aspirin.” Id. ¶ 172.
“[S]ince March 1998, De“On pamphlets provided
fendants have falsely and to physicians summarizmisleadingly promoted
ing the CAPRIE study,
Plavix and the CAPRIE the subgroup analysis
trial results by not fully was not provided. Only
disclosing the results of
the overall 8.7% reduction
the trial’s subgroups,
in the primary endpoint
and by minimizing and
was provided.” Dickson
failing to provide all of the 4AC ¶ 169 (emphasis
data concerning adverse
added).
events occurring in the
“[Although] ‘the CAPRIE
CAPRIE trial and other
trial does not provide subclinical trials involving
stantial evidence to supPlavix.” New Mexico
port the implication that
Compl. ¶ 51 (emphasis
Plavix has superiority
added).
over aspirin,’ . . . Defendants nevertheless continue to promote that
Plavix is superior to aspirin . . . .” Id. ¶ 12.
“[S]ince March 1998, De“[Defendants instructed
fendants have also falsely their employee] to preand misleadingly prosent the data from yet anmoted Plavix as being
other study in a manner
more effective and safer designed to confuse phythan other competitors,
sicians and make them
such as Aggrenox . . . .
believe that Aggrenox

118a
New Mexico Complaint
Defendants made false
and misleading statements about clinical trials
involving those competitors when the trial results
did not support Defendants’ marketing messages.” New Mexico
Compl. ¶ 53 (emphasis
added).
“Defendants falsely and
misleadingly promoted
Plavix at much higher
dosages than those approved by the FDA in order to compensate for the
drug’s low efficacy, while
failing to disclose that
Plavix is associated with
hemorrhagic adverse
events at its recommended dosage and that
higher dosages of Plavix
increase the risk of those
and other adverse events
associated with Plavix.”
New Mexico Compl. ¶ 154.

Dickson Fourth Am.
Compl. (“Dickson 4AC”)
. . . was inferior to Plavix
[and] to state that ‘it
should not be concluded
from the study that Aggrenox has similar efficacy and safety to Plavix
in stroke patients.’” Dickson 4AC ¶ 20 (emphasis
added).
“On November 23, 1998,
FDA’s Division of Drug
Marketing and Communications (“DDMAC”) sent
a letter . . . to Defendant
Sanofi concerning letters
Defendant sent to physicians regarding the use of
300 mg of Plavix as a
‘loading dose’ immediately
prior to coronary stent
placement.” Dickson 4AC
¶ 14. “[T]he recommended
dose of Plavix was 75 mg
per day. The use of 300
mg of Plavix as a ‘loading
dose’ for coronary stent
placement patients was
neither proven to be safe
or efficacious nor supported by substantial clinical evidence.” Id. ¶ 5.

119a
New Mexico Complaint
“[S]ince March 1998, Defendants have also increased Plavix’s sales and
market share by falsely
and misleadingly promoting the drug as being effective and safe for uses
for which it had not been
demonstrated to be effective or safe.” New Mexico
Compl. ¶ 55; see also id.
¶ 5. “The 2010 ASA
Guidelines . . . stated that
‘there have been no clinical trials to indicate that
switching antiplatelet
agents reduces the risk
for subsequent events.’ . .
. Defendants knew or
should have known that
switching patients from
another antiplatelet medication to Plavix had not
been shown to reduce the
risk for subsequent
events, yet Defendants
have falsely, deceptively,
and unfairly misrepresented and promoted such
medication changes at all
relevant times . . . .” Id. ¶
56.

Dickson Fourth Am.
Compl. (“Dickson 4AC”)
“BMS/Sanofi also encouraged physicians to switch
patients from aspirin to
Plavix if they suffered a
stroke while taking aspirin. According to ASA,
however, ‘there have been
no clinical trials to indicate that switching antiplatelet agents reduces
the risk for subsequent
events.’” Dickson 4AC
¶ 172.

120a
C.

Section I.C. of the factual allegations section of the
State’s Complaint: “Additional False, Deceptive,
and Unfair Conduct Concerning Important
Safety Information.” New Mexico Compl. ¶¶ 6168.

New Mexico Complaint

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

“[T]he CAPRIE trial results showed less gastrointestinal bleeding in patients taking Plavix than
in patients taking aspirin.
But, the dosage of aspirin
used in the trial—325 mg
daily—is more than four
times higher than the average dosage physicians
advise for their patients.”
New Mexico Compl. ¶ 61.

“The CAPRIE trial also
showed that there was
less gastrointestinal
bleeding in patients taking Plavix compared to
aspirin. However, the aspirin dose used in
CAPRIE was 325 mg per
day for all
patients. Presently, physicians recommend an aspirin dose of as little as 50
mg per day…. Dickson
4AC ¶ 174.

“Defendants knew or
should have known of the
misleading nature of the
CAPRIE trial results
since at least March 1998,
yet Defendants falsely
and misleadingly marketed Plavix as being as
safe or safer than aspirin
based on the CAPRIE
trial results.” New Mexico Compl. ¶ 61.

“BMS/Sanofi ordered its
sales force to promote
Plavix as comparably safe
to aspirin based on the
CAPRIE study even
though the CAPRIE
study compared Plavix to
a more toxic dose of aspirin that is not regularly
prescribed today.” Dickson 4AC ¶ 174.

121a
New Mexico Complaint

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

“Defendants have never
compared Plavix to a
lower dosage of aspirin in
a clinical trial.” New
Mexico Compl. ¶ 62.

“BMS/Sanofi have not
further tested Plavix
against aspirin to determine whether a more
commonly prescribed (i.e.,
lower) dose of aspirin supports BMS/Sanofi’s
claims that Plavix imposes a lower risk of gastrointestinal bleeding
when compared to aspirin
(as its used in a therapeutic context).” Dickson
4AC ¶ 175.

“[I]n [the “Chan Study”]
… Plavix was demonstrated to cause appreciably more gastrointestinal
bleeding than aspirin
taken in conjunction with
Prilosec … in patients
with a history of aspirininduced ulcers. The study
demonstrated that switching patients who had aspirin-induced ulcers from
aspirin to Plavix is neither
safe nor anywhere near as
cost-effective as adding
Prilosec to aspirin therapy.” New Mexico
Compl. ¶ 62.

“[I]n [the “Chan Study”]
Plavix was shown to cause
significantly more gastrointestinal bleeding than
aspirin plus . . . Prilosec[ ]
in patients with a history
of aspirin-induced ulcers.
The Chan Study showed
that switching patients to
Plavix if they have ulcers
with aspirin is not safe
and that it would be
cheaper to simply add
esomeprazole (an inexpensive over-the-counter
medication) to aspirin.”
Dickson 4AC ¶ 175.

122a
New Mexico Complaint
“Defendants . . . did not
disclose the results of [the
Chan] study to healthcare
professionals or the general public….” New Mexico Compl. ¶ 62.
D.

Dickson Fourth Am.
Compl. (“Dickson 4AC”)
“The results of the Chan
Study were not disclosed
to prescribing neurologists.” Dickson 4AC
¶ 175.

Section I.D. of the factual allegations section of the
State’s Complaint: “Defendants’ False and Misleading Representations and Omissions Regarding the Alleged Effectiveness, Safety and
Superiority of Plavix Caused Third Parties to
Submit Claims for Reimbursement to the State
of New Mexico That Were False Within the
Meaning of New Mexico Law.” New Mexico
Compl. ¶¶ 69-74.

New Mexico Complaint
“Defendants, in marketing Plavix, knew that
pharmacies and other facilities supplying Plavix to
patients throughout New
Mexico would routinely be
seeking reimbursement
from the State of New
Mexico under its Medicaid (and related) programs.” New Mexico
Compl. ¶ 69.

Dickson Fourth Am.
Compl. (“Dickson 4AC”)
“BMS/Sanofi knowingly
participated in a comprehensive scheme to defraud the New Mexico
government while illegally and deceptively promoting Plavix to further
increase Plavix sales
within the State of New
Mexico.” Dickson 4AC
¶ 339.

123a
New Mexico Complaint

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

“Defendants, in marketing Plavix, knew that
pharmacies and other facilities supplying Plavix to
patients throughout New
Mexico would routinely be
seeking reimbursement
from the State of New
Mexico under its Medicaid (and related) programs.
As a result, Defendants,
by promoting Plavix as
safer and more effective
than other medications
when it was not, at 100
times the cost of available
alternatives, knowingly
caused innocent third
parties to submit claims
for reimbursement to the
State of New Mexico
that Defendants knew or
should have known did
not qualify for payment.” New Mexico
Compl. ¶ 69 (emphasis
added)

“BMS/Sanofi’s actions
knowingly caused physicians and pharmacists
in New Mexico to impliedly make false certifications about Plavix’s
cost effectiveness ( and
medical necessity) for
the patient’s treatment.
Specifically, a prescription written for Plavix
was a certification that
the Plavix met the requirements for Medicaid
coverage in New Mexico.”
Dickson 4AC ¶ 341 (emphasis added).

“By [causing the submission of false reimbursement claims]. Defendants
obtained, by means of
false or fraudulent

“By virtue of the abovedescribed acts, Defendants knowingly made,
used, or caused to be
made or used false

124a
New Mexico Complaint

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

representation or promise, large sums of money
from the State of New
Mexico in connection with
delivery of or payment for
health care benefits . . .
paid for or reimbursed or
subsidized by the state.”
New Mexico Compl. ¶ 70.

records and statements,
and omitted material
facts, to induce the New
Mexico State Government
to approve and pay such
false and fraudulent
claims.” Dickson 4AC
¶ 340.

“Defendants’ misleading
conduct, statements and
omissions regarding the
alleged effectiveness, superiority, and safety of
Plavix deprived . . . the
State of New Mexico of
the ability to accurately
determine whether the
drug was in fact ‘medically necessary’ in any
given situation.” New
Mexico Compl. ¶ 72.

“BMS/Sanofi fraudulently
induced New Mexico’s
state review board to
place Plavix on New Mexico’s formulary for indications for which Plavix has
no therapeutic advantage
over aspirin and is 100
times more expensive.
Thus, BMS/Sanofi knowingly caused New Mexico
to . . . to pay for Plavix
when Plavix was prescribed for . . . indications
[that] did not meet formulary requirements.” Dickson 4AC ¶ 342.

“By writing prescriptions
for Plavix for which reimbursement would be
sought through public assistance programs, physicians were certifying by

“BMS/Sanofi[ ] . . . knowingly caused physicians
and pharmacists in New
Mexico to impliedly
make false certifications
about Plavix’s cost

125a
New Mexico Complaint

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

implication that the
treatment was safe,
medically necessary and
cost-effective, when in
fact it was not . . . .”
New Mexico Compl. ¶ 73
(emphasis added).

effectiveness (and medical necessity) for the patient’s treatment. Specifically, a prescription
written for Plavix was a
certification that the
Plavix met the requirements for Medicaid coverage.” Dickson 4AC ¶ 341
(emphasis added).

“[B]y causing physicians
to unwittingly certify that
Plavix was medically necessary and cost-effective
when it was not, Defendants knowingly caused
the submission of a false
claims to the State of
New Mexico in violation
of New Mexico law.”
New Mexico Comp. ¶ 74
(emphasis added).

“BMS/Sanofi’s misrepresentations . . . caused
physicians to prescribe
Plavix in New Mexico
when Plavix did not in
fact meet requirements
for New Mexico’s Medicaid coverage because a
cheaper alternative existed that was at least just
as effective. As a result,
BMS/Sanofi knowingly
caused the submission of
false claims for payment
by New Mexico in violation of the New Mexico
Medicaid False Claims
Act.” Dickson 4AC ¶ 341
(emphasis added).

126a
E.

Section I.E. of the factual allegations section of the
State’s Complaint: “The FDA’s Repeated Objections to Defendants’ False, Deceptive, and Unfair Marketing.” New Mexico Compl., ¶¶ 75-80.

New Mexico Complaint

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

“[O]n November 23, 1998,
[DDMAC] reprimanded
Sanofi, stating that Defendants’ dissemination of
a letter [was unlawful] because it promoted Plavix
for an unapproved use
(immediately prior to coronary artery stent placement) . . . . “New Mexico
Compl. ¶ 76.

“On November 23, 1998,
[DDMAC] sent a letter to
Defendant Sanofi concerning letters Defendant
sent to physicians regarding the use of 300 mg of
Plavix as a ‘loading dose’
immediately prior to coronary stent placement.”
Dickson 4AC ¶ 4.

“On May 9, 2001,
DDMAC alerted Sanofi
that its dissemination of a
particular visual aid for
Plavix contained false or
misleading promotional
claims because it overstated the drug’s efficacy,
included an unsubstantiated superiority claim
about Plavix relative to
aspirin, and included a
misleading efficacy
presentation.” New Mexico Compl. ¶ 78.

“On May 9, 2001,
DDMAC sent another letter to Defendant Sanofi
objecting to its promotional efforts for Plavix
. . . .” Dickson 4AC, ¶ 8.
“Specifically, DDMAC
found that the sales aid
overstated the efficacy of
Plavix, made unsubstantiated superiority claims,
constituted a misleading
efficacy presentation and
lacked fair balance.” Id.
¶ 10.

127a
New Mexico Complaint
“On March 26, 2009,
DDMAC again reprimanded Sanofi, stating
that three of its internet
advertisements were misleading because they
made representations or
suggestions about the efficacy of Plavix but failed
to communicate any risk
information associated
with the use of the drug,
thereby indicating that
Plavix is safer than has
been demonstrated.”
New Mexico Compl. ¶ 80.

F.

Dickson Fourth Am.
Compl. (“Dickson 4AC”)
“On March 26, 2009,
DDMAC sent another letter to Defendant Sanofi
after determining that
Plavix internet advertisements misbranded Plavix
. . . .” Dickson 4AC, ¶ 13.
“DDMAC concluded that
Sanofi failed to provide
any risk information and
stated in relevant part:
‘. . . By omitting the most
serious and frequently occurring risks associated
with PLAVIX, the sponsored links misleadingly
suggest that PLAVIX is
safer than has been
demonstrated.’” Id. ¶ 14.

Section I.F. of the factual allegations section of the
State’s Complaint: “The Impact of Defendants’
False, Deceptive, and Unfair Marketing of
Plavix.” New Mexico Compl., ¶¶ 81-95.

New Mexico Complaint

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

“Defendants launched
and maintained a massive
promotional campaign to
increase Plavix’s sales
and market share.” New

“BMS/Sanofi knowingly
participated in a comprehensive scheme to defraud the New Mexico
government while

128a
New Mexico Complaint

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

Mexico Compl. ¶ 81. “Defendants engaged in a
premeditated program to
influence consumers, prescribers, and the State of
New Mexico to believe
that Plavix was a superior
drug when it was not.”
Id. ¶ 90.

illegally and deceptively
promoting Plavix to further increase Plavix sales
within the State of New
Mexico.” Dickson 4AC
¶ 339.

“Relying upon Defendants; promises of superior
treatment and better outcomes compared with aspirin and other competitor drugs, the State of
New Mexico paid a hefty
premium for a drug that
in truth was no more efficacious than far cheaper
drugs, but was far more
dangerous.” New Mexico
Compl. ¶ 91. “Defendants’ false, misleading,
and deceptive marketing
of Plavix resulted in millions of dollars of Plavix
sales to the State of New
Mexico . . . that otherwise would not have
been made.” Id. ¶ 93
(emphasis added); see
also id. ¶ 146 (“As a result
of Defendants’ fraudulent

“[U]naware of the falsity
of the records, statements
and claims made . . . or
caused to be made . . . by
Defendants, [the State of
New Mexico] paid and
continues to pay the
claims that would not be
paid but for Defendants’
illegal inducements
and/or business practices.” Dickson 4AC
¶ 343 (emphasis added).

129a
New Mexico Complaint
marketing of Plavix, the
State of New Mexico has
paid millions of dollars for
Plavix and has paid excessive prices for Plavix.”)

Dickson Fourth Am.
Compl. (“Dickson 4AC”)

130a
APPENDIX K

* * FOR PUBLICATION * *
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
In re PLAVIX MARKETING,
SALES PRACTICE AND PRODUCTS LIABILITY LITIGATION
(NO. II)
UNITED STATES OF AMERICA, et al., ex rel. ELISA DICKSON,
Plaintiffs,
v.
BRISTOL-MYERS SQUIBB CO.,
et al,

)
)
)
MDL
) DOCKET NO.
)
2418
)
) Civil Action
) No. 13-1039
) (FLW) (LHG)
)
)
) OPINION
)
)

Defendants.

WOLFSON, United States District Judge:
Before the Court is the motion of Defendants BristolMyers Squibb Company (“BMS”), Sanofi-Aventis U.S.
LLC, Sanofi U.S. Service Inc., and Sanofi-Synthelabo Inc.
(collectively “Sanofi”) (together with BMS, “Defendants”)
to dismiss the Fourth Amended Complaint (“4AC”) of relator Elisa Dickson (“Realtor”). In the 4AC, Relator
brings a qui tam action, a member case of the Multi-District Litigation, In re: Plavix Marketing, Sales Practices
and Products Liability Litigation, involving the alleged
wrongful marketing and sales of Plavix (clopidogrel

131a
bisulfate), a prescription blood thinner manufactured by
Defendant BMS and marketed in the United States by
BMS and Sanofi. Relator brings this case on behalf of the
United States and seventeen states, asserting claims for
violation of the federal False Claims Act (“FCA”), 31
U.S.C. §§ 3729–3733 (Count I); conspiracy under the
FCA, 31 U.S.C. § 3729(a) (Count II); and the False Claims
Acts of twenty-four (24) states (Counts III-XXVI). Defendants move to dismiss the 4AC in its entirety, and in
the alternative to limit the temporal scope of Relator’s
state FCA claims under the laws of five states, the FCAs
of which became effective after March 30, 2005.
For the reasons stated herein, the Defendants’ Motion to Dismiss the 4AC is GRANTED, and Defendants’
motion to restrict the retroactive application of the five
state FCAs, which became effective after March 30, 2005,
is denied as moot.
I. FACTUAL BACKGROUND
The relevant facts of this action, as set forth in the
4AC and taken as true by this Court, are as follows.
Plavix® (clopidogrel bisulfate) (“Plavix”) is a prescription
blood thinner manufactured by BMS and comarketed in
the United States by Sanofi. 4AC ¶ 1. Plavix has been approved by the United States Food and Drug Administration (“FDA”) and is indicated for the treatment of Acute
Coronary Syndrome and for use following a recent myocardial infarction or stroke or established peripheral artery disease. Ibid. Plavix costs approximately $4.00 per
pill. Aspirin, an over-the-counter blood thinner, costs approximately $0.04 per pill. Id. at ¶ 3.
Relator claims that Defendants promoted Plavix as a
superior drug to aspirin for certain indicated usages,
when Plavix was no more effective than aspirin for those
indicated usages and cost one hundred times more. Id. at
¶ 22. More than half of state Medicaid programs contain

132a
cost-based restrictions that limit coverage under Medicaid to cost-effective treatments. Ibid. In these states,
Medicaid only pays for cost-effective drugs. Ibid. Where
an equally effective but cheaper treatment is available for
a particular course of treatment, the more expensive drug
is not cost effective and cannot be reimbursed. Ibid. In
these states, cost effectiveness is not just a requirement
for participation in Medicaid, it is a condition precedent to
reimbursement designed to ensure that a state’s Medicaid
program is a good steward of taxpayer dollars. Ibid.
Relator alleges that Defendants targeted their marketing efforts, misrepresenting the effectiveness of Plavix
relative to aspirin, at physicians and prescribers whose
patients relied upon public assistance programs such as
Medicaid. Id. at ¶ 3. Relator claims that Defendants’ marketing efforts caused physicians to submit many prescriptions for Plavix in the mistaken belief that it was a costeffective treatment. Ibid.
In order for the cost of a drug to be reimbursed under
Medicaid, the drug manufacturer must have entered into,
and have in effect, a rebate agreement wherein the manufacturer agrees to give the applicable government payor
back a percentage of the cost of the reimbursed drug. Id.
at ¶ 92. Drugs that are covered by a rebate agreement are
then statutorily divided into two distinct categories: those
that require prior authorization from Medicaid prior to reimbursement and those that are reimbursed automatically when the drug is prescribed. Ibid. Each state maintains a preferred drug list, or formulary1, that explicitly
1

The 4AC Complaint defines the term “preferred drug list” as
equivalent to or interchangeable with the term “formulary.” Id. at
¶ 92. Defendants correctly object in their motion papers that these
terms have distinct legal meanings. “Formularies” are described under 42 U.S.C. § 1396r- 8(d)(4), while “preferred drug lists” (“PDL”),
exempting drugs from “prior authorization programs,” are described
under § 1396r-8(d)(5). However, as it is clear from the 4AC that

133a
exempts certain Medicaid-eligible drugs from a prior authorization requirement. Medicaid is obligated to provide
reimbursement for the cost of a drug on a state’s formulary when the drug is prescribed by a physician for an “onlabel” indication. Ibid. In other words, if a drug is on a
state’s formulary, once an “on-label” prescription for that
drug is written and the prescription is filled, the cost for
that prescribed drug is automatically reimbursed by the
government. No other authorizations are required. Id. at
¶ 26.
In addition to marketing to prescribing physicians,
Relator also alleges that Defendants falsely marketed
Plavix to the physicians and pharmacists on state formulary committees as a cost effective treatment eligible for
listing on the states’ formularies, when Plavix was not in
fact so eligible, due to its lack of superior effectiveness to
aspirin and significantly greater cost. Id. at ¶ 151. Relator
claims that these marketing efforts fraudulently induced
the formulary committees to include Plavix on each state’s
PDL/formulary, which triggered an automatic government obligation to reimburse Plavix prescriptions—even
when Plavix did not meet the cost-effectiveness requirements for inclusion on the formulary. Ibid. Relator alleges
that reimbursements for Plavix in this context constitute
false claims under the FCA and under the state FCAs.
Ibid.
II. PROCEDURAL HISTORY
On March 30, 2011, Relator filed this case in the
United States District Court for the Southern District of
Illinois (“the transferor court”). The United States and its
Relator is concerned with the placement of Plavix on PDLs only, and
merely also refers to these lists as formularies, the legal distinction
between these terms as used in the Medicaid statute does not affect
the Court’s decision. See 4AC ¶¶ 25, 100.

134a
co-plaintiff States declined to intervene in Relator’s
claims. On November 29, 2012, Relator filed a Second
Amended Complaint. Defendants moved to dismiss that
pleading, and the transferor court granted that motion in
part and denied it in part (“Dickson I”). See 289 F.R.D.
271 (S.D. Ill. 2013) (Dkt. No. 54.).
The Judicial Panel on Multidistrict Litigation then
transferred the case to this Court to be part of the
Plavix® Multi-District Litigation. This Court then vacated Dickson I, in part, upon reconsideration, granted
further dismissal in part, and granted Relator leave to
amend her pleading (“Dickson II”). See 2013 WL 7196328
(D.N.J. Aug. 21, 2013) (Dkt. No. 88). On September 20,
2013, Relator filed a 149-page Third Amended Complaint
(“3AC”). The 3AC’s Prescriber Allegations and Formulary Allegations asserted that Defendants violated the
federal FCA and numerous state FCAs by causing the
submission of false claims for Medicare and Medicaid payment. Defendants moved to dismiss the 3AC in its entirety. On August 20, 2015, the Court granted Defendants’
motion in part and denied it in part. The Court dismissed
(1) all FCA claims based on Medicare Part D; (2) federal
FCA claims based on the Medicaid plans of thirty-three
(33) states, including the District of Columbia; (3) all FCA
claims based on Plavix’s inclusion on state formularies; (4)
state FCA claims raised under the law of nineteen (19)
states; and (5) all federal and state FCA claims for claims
made prior to March 30, 2005, pursuant to the applicable
statutes of limitations. See Dickson III, 123 F. Supp. 3d at
619.
The active claims remaining in the case after the
Court’s decision were (1) federal FCA claims based on Defendants’ conduct in 17 States—Connecticut, Delaware,
Idaho, Kansas, Maryland, Massachusetts, Mississippi,
Montana, Nebraska, North Carolina, Ohio, Oklahoma,
Rhode Island, South Dakota, Utah, Washington and

135a
Wyoming—each of which imposes a cost-effectiveness requirement as a condition for the reimbursement of drugs
under that state’s Medicaid program (“the Cost-Imposed
States”); and (2) state FCA claims under the law of the
seven Cost-Imposed States that have enacted their own
FCAs — Connecticut, Delaware, Massachusetts, Montana, North Carolina, Oklahoma, and Rhode Island.
On December 15, 2015, the Court stayed this case
pending the Supreme Court’s decision in Universal
Health Servs., Inc. v. United States and Massachusetts,
ex rel. Escobar, ––– U.S. –––, 136 S. Ct. 1989, 2001, 195 L.
Ed. 2d 348 (2016)) (hereinafter “Escobar”). On June 16,
2016, the Supreme Court decided Escobar. These proceedings were reopened on June 29, 2016.
On August 16, 2016, without seeking leave to amend,
Relator filed her fifth pleading: the 175-page Fourth
Amended Complaint (“4AC”). The 4AC asserts claims for
violation of the federal FCA, 31 U.S.C. §§ 3729-3733
(Count I), and for conspiracy to violate the federal FCA,
31 U.S.C. § 3729(a) (Count II), based on allegedly false
Medicaid claims submitted in thirty-six (36) states. In addition to federal FCA claims based on conduct in the 17
Cost-Imposed States that this Court previously allowed
to go forward, Relator also includes claims in 19 states –
Alabama, Alaska, Arizona, Arkansas, Colorado, Florida,
Georgia, Hawaii, Iowa, Louisiana, Maine, Michigan, Minnesota, Nevada, New Jersey, New Mexico, Oregon, Tennessee, Wisconsin which this Court previously dismissed.
Relator claims that these states too impose cost-effectiveness requirements in their Medicaid reimbursement
schema, which were simply not pleaded in the 3AC. The
4AC also asserts claims under 24 state FCAs.2 This figure
2

See California FCA (Cal. Gov. Code §§ 12650-12655) (Count III);
Colorado Medical FCA (C.R.S. § 25.5-4-304 et seq.) (Count IV); Connecticut False Claims Act (CONN. GEN. STAT. ANN. § 17b-301a et
seq.) (Count V); Delaware False Claims and Reporting Act (6 DEL.

136a
includes 17 state FCA claims, which this Court previously
dismissed — California, Colorado, Florida, Georgia, Illinois, Indiana, Michigan, Minnesota, Nevada, New Jersey,
New Mexico, New York, Tennessee, Texas, Virginia, Wisconsin, District of Columbia. Again, Relator’s rationale for
resurrecting these claims is that these states also impose
cost-effectiveness requirements, which were previously
not pleaded. Relator’s federal and state FCA claims in the
4AC incorporate this Court’s previous ruling on the statutes of limitations, and do not seek recovery for false
claims arising prior to March 30, 2005, except for revived
previously dismissed claims under four State FCAs with
CODE ANN. § 1201(a)(1) and (2)) (Count VI); Florida False Claims
Act (FL. STAT. §§ 68.081- 68.090) (Count VII); Georgia False Medicaid Claims Act (GA. CODE 49-4-168 et seq.) (Count VIII); Illinois
Whistleblower Reward and Protection Act (740 ILCS 175, et seq.)
(Count IX); Indiana State False Claims and Whistleblowers Protection Act (IND. CODE ANN. § 5-11-5.5-1 - 5-11-5.5-18) (Count X);
Massachusetts False Claims Act (MASS. GEN. LAWS c.12 § 5(A))
(Count XI); Michigan Medicaid False Claims Act (Mich. Comp. Laws
§§ 400.601-400.613) (Count XII); Minnesota False Claims Act
(MINN. STAT. § 15.C01 et. seq) (Count XIII); Montana False Claims
Act (MONT. CODE ANN. §§ 17-8-401 – 17- 8-412) (Count XIV); Nevada False Claims Act (NEV. REV. STAT. ANN. §§ 357.01-.250)
(Count XV); New Jersey False Claims Act (N.J. STAT. § 2A:32C-117) (Count XVI); New Mexico Medicaid False Claims Act (N.M.
STAT. ANN. § 27-14-1- - 27-14-15) (Count XVII); New York False
Claims Act (N.Y. St. Finance Law § 187 et seq.) (Count XVIII); North
Carolina False Claims Act (N.C. GEN. STAT. § 1-605 – 618, § 108A63) (Count XIX); Oklahoma False Claims Act (63 OKLA. STAT. §§
5053-5053.7) (Count XX); Rhode Island’s State False Claims Act (R.I.
GEN. LAWS §§ 9-1.1-1 – 9-1.1-8) (Count XXI); Tennessee Medicaid
False Claims Act (TENN. CODE. ANN. §§ 71-5-181 to -185) (Count
XXII); Texas Medicaid Fraud Prevention Act (TEX. HUM. RES.
CODE ANN 36.001-.132) (Count XXIII); Virginia Fraud Against
Taxpayers Act (VA CODE ANN. 8.01-2.16. 1-216.19) (Count XXIV);
Wisconsin State Law Claims for Violations of the Wisconsin False
Claims Act (WIS. STAT. § 20.931) (Count XXV); District of Columbia
Procurement Reform Amendment Act (D.C. CODE ANN. §§ 2308.13-.15) (Count XXVI).

137a
longer or shorter limitations periods: New Mexico (four
years), New York (10 years), Texas (four years), and Wisconsin (10 years). 4AC ¶ 51 n. 54.
On January 30, 2017, Defendants moved to dismiss
the 4AC in its entirety. On May 1, 2017, the Third Circuit
issued its first reported opinion interpreting the Supreme
Court’s decision in Escobar. Defendants submitted a notice of supplementary authority on May 8, 2017, contending that the Third Circuit’s precedential decision in
United States ex rel. Petratos v. Genentech Inc., 855 F.3d
481 (3d Cir. 2017), compelled the dismissal of the 4AC for
failure to allege that Defendants’ fraud was material to
any government Medicaid payor’s decision to pay for
Plavix. Relator opposed Defendants’ arguments concerning Petratos on May 11, 2017.
III. LEGAL STANDARD
This Court has federal-question jurisdiction over the
federal FCA claims under 28 U.S.C. § 1331 and 31 U.S.C.
§ 3732(a). Supplemental jurisdiction extends to the state
FCA claims under 28 U.S.C. § 1367. See also United
States ex rel. Wilkins v. United Health Grp., Inc., 659
F.3d 295, 302 (3d Cir. 2011). “The law of the transferee
forum applies . . . to federal questions, though the Court
may give the law of the transferor forum ‘close consideration.’” In re Nazi Era Cases Against German Defendants
Litig., 320 F. Supp. 2d 204, 214 (D.N.J. 2004), aff’d, 153 F.
App’x 819 (3d Cir. 2005) (citing In re Korean Air Lines
Disaster, 829 F.2d 1171 (D.C.Cir. 1987)). Accordingly, in
considering the present motion to dismiss, the precedents
of the Third Circuit control the merits of Relator’s federal
FCA claims. In re Nazi Era Cases Against German Defendants Litig., 198 F.R.D. 429, 439 n.16 (D.N.J. 2000)
(“When dealing with cases that have been consolidated for
pretrial proceedings pursuant to an order of the MDL
Panel under 28 U.S.C. § 1407, the law of the transferor
forum merits close attention, but should not be read to

138a
have stare decisis effect in a transferee forum situated in
another circuit. See In re Korean Air Lines Disaster, 829
F.2d 1171, 1176 (D.C. Cir. 1987). For this reason the Court
will apply the law of the Third Circuit, with due consideration given to the rulings of other circuits.”). 3 Because the
Court exercises supplemental jurisdiction over the state
FCA claims under the laws of twenty-four states, the
Court must apply the state substantive law of each respective state to that state’s FCA claim. Silverstein v. Percudani, 422 F. Supp. 2d 468, 471 (M.D. Pa.), aff’d, 207 F.
App’x 238 (3d Cir. 2006) (“A federal district court
3

See also In re Donald J. Trump Casino Sec. Litig.-Taj Mahal
Litig., 7 F.3d 357, 368 n. 8 (3d Cir. 1993) (assuming without deciding
that the district court was correct that in multidistrict transfers, the
precedent of the Third Circuit as the transferee court controls on issues of federal law, while the circuit precedent of the transferor court
merits close consideration); In re Managerial, Prof'l & Tech. Employees, No. 02-CV-2924, 2006 WL 38937, at *2 (D.N.J. Jan. 5, 2006)
(quoting Korean Air Lines, 829 F.2d at 1174 (quoting Marcus, Conflict Among Circuits and Transfers Within the Federal Judicial System, 93 Yale L.J. 677, 721 (1984))) (“Where the claim arises under federal law, as is the case here, the appropriate course is to apply the law
of the transferee court. In considering the issue, the D.C. Circuit
Court of Appeals recognized that the pretrial nature of multidistrict
transfers suggests that the law of the origin circuit should apply,
while the presumed uniformity of federal law across circuits suggests
that doing so would be unnecessary. After considering these competing views, the court decided that ‘‘the transferee court [should] be
free to decide a federal claim in the manner it views as correct without
deferring to the interpretation of the transferor circuit.’’”); In re National Century Financial Enterprises, Inc., Inv. Litigation, 323 F.
Supp. 2d 861, 876 (S.D. Ohio 2004) (“the rule in multidistrict litigation
is that the transferee court, in interpreting federal law, should apply
the law of its own circuit rather than the law of the transferor court's
circuit.”); In re StarLink Corn Prod. Liab. Litig., 211 F. Supp. 2d
1060, 1063 (N.D. Ill. 2002) (applying Korean Air Lines and McMasters v. United States, 260 F.3d 814, 819 (7th Cir. 2001) to find that, on
questions of federal law, circuit precedent from the transferee court
applies unless the federal law is specifically intended to be geographically non-uniform).

139a
exercising supplemental jurisdiction over state law causes
of action must apply the substantive law of the State
[providing the cause of action] as interpreted by the
State’s highest court.”).
When considering a motion to dismiss a complaint for
failure to state a claim upon which relief can be granted,
pursuant to Fed. R. Civ. P. 12(b)(6), a court must accept
all well-pleaded allegations in the complaint as true and
view them in the light most favorable to the plaintiff.
Evancho v. Fisher, 423 F.3d 347, 351 (3d Cir. 2005). It is
well settled that a pleading is sufficient if it contains “a
short and plain statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). However, “[a]lthough the Federal Rules of Civil Procedure do
not require a claimant to set forth an intricately detailed
description of the asserted basis for relief, they do require
that the pleadings give defendant fair notice of what the
plaintiff’s claim is and the grounds upon which it rests.”
Baldwin Cnty. Welcome Ctr. v. Brown, 466 U.S. 147, 149–
50 n. 3 (1984) (quotation and citation omitted). A district
court, in weighing a motion to dismiss, asks “‘not whether
a plaintiff will ultimately prevail but whether the claimant
is entitled to offer evidence to support the claim.’” Bell Atlantic v. Twombly, 550 U.S. 544, 583 (2007) (quoting
Scheuer v. Rhodes, 416 U.S. 232, 236 (1974)); see also Ashcroft v. Iqbal, 556 U.S. 662, 684 (2009) (“Our decision in
Twombly expounded the pleading standard for all civil actions.”) (internal citations omitted); Fowler v. UPMC
Shadyside, 578 F.3d 203, 210 (3d Cir. 2009) (“Iqbal ... provides the final nail-in-the-coffin for the ‘no set of facts’
standard that applied to federal complaints before
Twombly.”).
Following the Twombly/Iqbal standard, the Third
Circuit applies a two-part analysis in reviewing a complaint under Rule 12(b)(6). First, a district court must accept all of the complaint’s well-pleaded facts as true, but

140a
may disregard any legal conclusions. Fowler, 578 F.3d at
210. Second, a district court must determine whether the
facts alleged in the complaint are sufficient to show that
the plaintiff has a “plausible claim for relief.” Id. A complaint must do more than allege the plaintiff’s entitlement
to relief. Id. However, this standard “‘does not impose a
probability requirement at the pleading stage,’ but instead ‘simply calls for enough facts to raise a reasonable
expectation that discovery will reveal evidence of’ the necessary element.’” Phillips v. Cnty. of Allegheny, 515 F.3d
224, 234 (3d Cir. 2008) (quoting Twombly, 127 S. Ct. at
1965); see also Covington v. Int’l Ass’n of Approved Basketball Officials, 710 F.3d 114, 118 (3d Cir. 2013) (“[A]
claimant does not have to set out in detail the facts upon
which he bases his claim. . . . The pleading standard is not
akin to a probability requirement, . . . to survive a motion
to dismiss, a complaint merely has to state a plausible
claim for relief.” (citations omitted)). Nonetheless, a court
need not credit either “bald assertions” or “legal conclusions” in a complaint when deciding a motion to dismiss.
In re Burlington Coat Factory Sec. Litig., 114 F.3d 1410,
1429–30 (3d Cir. 1997). The defendant bears the burden of
showing that no claim has been presented. Hedges v. U.S.,
404 F.3d 744, 750 (3d Cir. 2005) (citing Kehr Packages,
Inc. v. Fidelcor, Inc., 926 F.2d 1406, 1409 (3d Cir. 1991)).
Finally, a court in reviewing a Rule 12(b)(6) motion
must only consider the facts alleged in the pleadings, the
documents attached thereto as exhibits, and matters of judicial notice. Southern Cross Overseas Agencies, Inc. v.
Kwong Shipping Grp. Ltd., 181 F.3d 410, 426 (3d Cir.
1999).
Because FCA claims allege fraud, they are subject to
the heightened pleading requirements of Federal Rule of
Civil Procedure 9(b). Wilkins, 659 F.3d at 301 n. 9;
Frederico v. Home Depot, 507 F.3d 188, 202–03 (3d Cir.
2007). In order to satisfy Rule 9(b), a complaint must

141a
provide “all of the essential factual background that would
accompany ‘the first paragraph of any newspaper story’—
that is, the ‘who, what, when, where and how’ of the events
at issue.” In re Rockefeller Ctr. Props., Inc. Sec. Litig., 311
F.3d 198, 217 (3d Cir. 2002) (quoting Burlington Coat
Factory, 114 F.3d at 1422). In order to satisfy the standards of 9(b) in the FCA context Relator “must provide
particular details of a scheme to submit false claims
paired with reliable indicia that lead to a strong inference
that claims were actually submitted. Describing a mere
opportunity for fraud will not suffice. Sufficient facts to
establish a plausible ground for relief must be alleged.”
Foglia v. Renal Ventures Mgmt., LLC, 754 F.3d 153, 157–
58 (3d Cir. 2014) (quotations omitted). See also id. at 156
(In United States ex Rel. Wilkins . . ., we noted that we
had never “held that a plaintiff must identify a specific
claim for payment at the pleading stage of the case to state
a claim for relief.”).
IV. ANALYSIS
“[T]he FCA makes it unlawful to knowingly submit a
fraudulent claim to the government.”4 U.S. ex rel. Schumann v. Astrazeneca Pharm. L.P., 769 F.3d 837, 840 (3d
Cir. 2014). “The primary purpose of the FCA is to indemnify the government-through its restitutionary penalty
provisions-against losses caused by a defendant’s fraud.”
Wilkins, 659 F.3d at 304 (quotation omitted). To that end,
the Act contains a qui tam provision that permits private
4

The FCA as FERA has amended it, now imposes liability on:
[A]ny person who—
(A) knowingly presents, or causes to be presented, a false or fraudulent claim for payment or approval;
(B) knowingly makes, uses, or causes to be made or used, a false
record or statement material to a false or fraudulent claim[.]
31 U.S.C. § 3729(a)(1); Wilkins, 659 F.3d at 303.

142a
parties (known as “relators”) to bring suit “on behalf of
the United States against anyone submitting a false claim
to the Government.” Schumann, 769 F.3d at 840 (internal
quotation marks omitted) (quoting Hughes Aircraft Co. v.
U.S. ex rel. Schumer, 520 U.S. 939, 941 (1997)). If a qui
tam suit is successful, the relator has the opportunity to
share in the recovery.
The Third Circuit has recognized that “[t]here are
two categories of false claims” that may form the basis of
an FCA qui tam suit: (1) factually false claims; and (2) legally false claims. Wilkins, 659 F.3d at 305. “‘A claim is
factually false when the claimant [knowingly] misrepresents what goods or services that it provided to the Government.’ ‘[A] claim is legally false when the claimant
knowingly falsely certifies that it has complied with’ a material statute, regulation, or contractual provision. Such
certification may be express or implied. ‘Under the ‘express false certification’ theory, [a claimant] is liable under the FCA for falsely certifying that it is in compliance
with’ a material statute, regulation, or contractual provision.” United States v. Eastwick Coll., 657 F. App’x 89,
93–94 (3d Cir. 2016) (quoting Wilkins, 659 F.3d at 305).
“By contrast, implied false certification liability attaches
when a claimant ‘makes specific representations about the
goods or services provided’ and the claimant’s ‘failure to
disclose noncompliance with material statutory, regulatory, or contractual requirements makes those representations misleading half-truths.’” Id. (quoting Escobar, 136
S. Ct. at 2001).5 “[T]he implied certification theory of liability should not be applied expansively, particularly when
advanced on the basis of FCA allegations arising from the
Government’s payment of claims under federally funded
5

“The FCA defines ‘material’ as ‘having a natural tendency to influence, or be capable of influencing, the payment or receipt of money or
property.’” Wilkins, 659 F.3d at 303 (quoting 31 U.S.C. § 3729(b)(4)).

143a
health care programs.” Wilkins, 659 F.3d at 307. “Thus,
under this theory a plaintiff must show that if the Government had been aware of the defendant’s violations of the
Medicare [or Medicaid] laws and regulations that are the
bases of a plaintiff’s FCA claims, it would not have paid
the defendant’s claims.” Ibid.
In addition to factually false and legally false claims,
the federal courts have recognized a narrow, third category of false claims obtained by “fraud-in-the-inducement.” “[A] fraudulently induced contract may create liability under the False Claims Act when that contract later
results in payment thereunder by the government,
whether to the wrongdoer or someone else.” United
States v. Veneziale, 268 F.2d 504, 505 (3d Cir. 1959) (citing
United States ex rel. Marcus v. Hess, 317 U.S. 537 (1943)
(superseded by statute)). See also U.S. ex rel. Thomas v.
Siemens AG, 593 F. App’x 139, 143 (3d Cir. 2014) (“Although the focus of the False Claims Act is on false ‘claims,’
courts have employed a fraudulent inducement theory to
establish liability under the Act for each claim submitted
to the government under a contract which was procured
by fraud, even in the absence of evidence that the claims
were fraudulent in themselves.”).
In the 4AC, Relator pursues her federal and state
FCA claims under both implied false certification and
fraud-in-the-inducement theories of liability. First, Relator contends that Defendants caused physicians to submit
prescriptions to Medicaid for payment by fraudulently
marketing Plavix to those physicians as more effective
than aspirin, despite Plavix being one- hundred times
more expensive and no more effective. Relator contends
that the claims to Medicaid, submitted by physicians who
were subjected to Defendants’ marketing efforts, contained an implied false certification that Plavix complied
with state Medicaid program requirements that all prescriptions submitted for payment be for drugs that are

144a
cost-effective treatments. Because Plavix costs one-hundred times more than aspirin, but Relator alleges it to be
no more effective, Relator contends that Plavix was not
cost-effective and was not eligible for reimbursement under the laws of the thirty-six states imposing cost-effectiveness requirements in their Medicaid program. The
Court shall refer to this category of claims as the “Prescriber Allegations.”
Second, relying explicitly on the fraud-in-the-inducement theory enunciated by the Third Circuit in the context of a fraudulently induced contract in the unreported
decision in Thomas, Relator contends that Defendants
fraudulently induced state Medicaid formulary committees to place Plavix on their respective state PDLs — or
formularies — by marketing Plavix to those committees
as more effective than aspirin, when Plavix was not in fact
more effective than aspirin. 4AC ¶ 98, n. 140 (incorporating Thomas into fraud-in-the-inducement theory). Relator again contends that Plavix therefore did not meet the
state-law requirements for cost-effectiveness, a prerequisite to being included on the formularies of the thirty-six
states imposing such requirements. The court shall refer
to this category of claims as the “Formulary Allegations.”
Defendants move to dismiss all of Relator’s federal
FCA claims in both categories. Specifically, Defendants
argue that the Prescriber Allegations must be dismissed
because (1) the law of the case bars Relator from reviving
federal FCA claims based on alleged implied false certifications submitted in the 19 states and state FCA claims
under the statutes of 17 states that this Court dismissed
in its decision concerning the 3AC; (2) the Prescriber Allegations are deficient under Fed. R. Civ. P. 9(b); and (3)
the Prescriber Allegations fail to meet the heightened
pleading standard for materiality established by the Supreme Court in Escobar. Defendants argue that the Formulary Allegations must be dismissed because (1) the law

145a
of the case bars Relator from reviving the Formulary Allegations, which were dismissed in this Court’s decision
concerning the 3AC; and (2) the Formulary Allegations
fail to state a claim under Thomas, or any other identified
authority. Additionally, Defendants move, in the alternative, to dismiss Relator’s state FCA claims to the extent
based on the retroactive application of the state FCA statutes in five states which became effective after March 30,
2005. I will address each of Defendants’ arguments in
turn.
A. The Prescriber Allegations
1. Law of the Case
“The law of the case doctrine directs courts to refrain
from re-deciding issues that were resolved earlier in the
litigation.” Pub. Interest Research Grp. of New Jersey,
Inc. v. Magnesium Elektron, Inc., 123 F.3d 111, 116 (3d
Cir. 1997). The rule was developed “to maintain consistency and avoid reconsideration of matters once decided during the course of a single continuing lawsuit.” In
re Pharmacy Benefit Managers Antitrust Litig., 582
F.3d 432, 439 (3d Cir. 2009) (internal quotation marks and
citation omitted). Law of the case is a matter of a court’s
discretion, but a court faced with revisiting a prior decision in the case “should be loathe to do so in the absence
of extraordinary circumstances such as where the initial
decision was clearly erroneous and would make a manifest
injustice.” Id. (quoting Christianson v. Colt Indus. Operating Corp., 486 U.S. 800, 816 (1988)). In addition, a court
may revisit its own decisions or one of a coordinate court
where (1) new evidence is available; (2) “a supervening
new law has been announced”; or (3) “whenever it appears
that a previous ruling, even if unambiguous, might lead to
an unjust result.” Id. The law of the case doctrine, however, only applies “to issues that the court actually decided, whether expressly or by implication.” Coca–Cola

146a
Bottling Co. of Shreveport v. Coca–Cola Co., 988 F.2d 414,
429 (3d Cir. 1993).
Here, Defendants contend that this Court’s dismissal
of federal FCA claims based on false certifications of compliance with the law of non-Cost Imposed States in Dickson III, acts to bar federal FCA claims based on the law
of those states in the 4AC. I disagree. “A False Claims Act
violation includes four elements: falsity, causation,
knowledge, and materiality.” Petratos, 855 F.3d at 487. In
Dickson III, this Court dismissed federal FCA claims
based on alleged false certifications of compliance with the
law of all states except the Cost-Imposed States on the
ground that Relator had failed to plead falsity in connection with the non-Cost-Imposed States. Specifically, the
3AC alleged that Plavix was not “medically necessary”
and thus was ineligible for reimbursement under the
Medicaid plans of various states. With regard to the CostImposed States, Relator had successfully pleaded that in
their legal definitions of medical necessity, “the Cost–Imposed States have included not only a cost-based restriction, but rather, . . . have also mandated that the
cheaper alternative must be equally effective as Plavix.”
In re Plavix Mktg., Sales Practices & Prod. Liab. Litig.,
123 F. Supp. 3d 584, 611 (D.N.J. 2015). This Court found
such restrictions to be consistent with the limitations authorized by Medicaid, and found Relator to have pleaded
that Plavix was not an equally cost-effective treatment to
aspirin. Accordingly, although Relator had failed to plead
falsity on the basis of “medical necessity,” this Court held
that Relator had adequately alleged, in the Cost-Imposed
States, that physicians submitted claims with the implied
false certifications that Plavix met state Medicaid cost-effectiveness requirements for reimbursement. For the
same reasons, this Court then dismissed the Prescriber
Allegations under the state FCAs of every state except
the seven that were also Cost-Imposed states.

147a
With regard to the non-Cost-Imposed states, however, the Court found merely that Relator had failed to
allege “how those states have defined ‘medical necessity’;
in other words, there are no allegations relating to the
types of restrictions by a state.” Id. at 610. Accordingly,
this Court did not find that the non-Cost-Imposed states
did not impose cost-effectiveness requirements as a prerequisite to Medicaid reimbursement, but rather only that
there was a total lack of allegations as to the content of the
state statutory requirements for reimbursement in those
states.
Relator now seeks to raise federal FCA claims on the
basis of certifications of compliance with the laws of nineteen (19) of these previously dismissed states on the
grounds that their statutory definitions of medical necessity, or other prerequisites to reimbursement, do indeed
contain cost-effectiveness requirements, which Relator
simply failed to plead in the 3AC. Relator also presents
claims under seventeen (17) more state FCAs for states
that allegedly also impose cost-effectiveness requirements for Medicaid reimbursement. It is clear that Relator should have sought leave to amend in order to bring
such claims. Allowing Relator to bring federal claims for
false certifications of compliance with the law of the nineteen previously dismissed states and state claims under
the laws of seventeen previously dismissed states, however, does not require this Court to revisit or overturn the
reasoning of its previous decision. In reviewing the 3AC,
the Court found that only the Cost-Imposed states included allegations that cost-effectiveness was a precondition for Medicaid reimbursement, and the other states
lacked any such allegations. In the 4AC, Relator now
seeks to supply such allegations for nineteen additional
states under the FCA and seventeen additional states under the state FCAs.

148a
“Generally, Rule 15 motions should be granted.”
United States ex rel. Customs Fraud Investigations,
LLC. v. Victaulic Co., 839 F.3d 242, 249 (3d Cir. 2016). In
its most recent precedential FCA decision, the Third Circuit reversed a district court’s denial of leave to amend,
invoking well-settled Supreme Court precedent. “In Foman v. Davis, the Supreme Court held that the fundamental purpose of Rule 15 is to allow a plaintiff ‘an opportunity to test his claim on the merits,’ and although ‘the
grant or denial of an opportunity to amend is within the
discretion of the District Court,’ that discretion is abused
if it is exercised without giving the plaintiff sufficient opportunity to make her case.” Ibid. (quoting Foman v. Davis, 371 U.S. 178, 182 (1962)). Here, Plaintiff’s proposed
additional allegations are consistent with the Court’s decision in Dickson III, and there is no possibility of prejudice to Defendants in considering such allegations as they
are equally subject to Defendants’ legal challenges under
9(b) and 12(b)(6) as are the allegations concerning the
Cost-Imposed States. Moreover, while this Court has certainly afforded Relator ample opportunities to make her
case, as demonstrated by its previous grant of leave to
amend in Dickson II, the Court finds in its discretion that
it would not be in the interest of justice or the parties to
deny Relator the opportunity to test the legal sufficiency
of her claims in the present motion. Defendants’ motion to
dismiss the federal and state FCA Prescriber Allegations
under the law of the case is denied.
2. Rule 9(b)
Defendants next seek reconsideration of their own
previously denied motions to dismiss the Prescriber Allegations under Fed. R. Civ. P. 9(b). As this Court observed
in Dickson III, Chief Judge Herndon, hearing this case in
the transferor court prior to its transfer here, denied Defendants’ Motion to Dismiss under Rule 9(b). See January
2013 Memorandum and Order. With regard to

149a
Defendants’ assertions that the Second Amended Complaint was insufficient under Rule 9(b), Chief Judge Herndon stated that “Relator’s instant allegations are sufficient to comport with the requirements of Rule 9(b) in this
instance,” and that “[a]s to which specific physicians such
misrepresentations were allegedly made, and further
which specific employees of defendants’ instructed relator
to make such misrepresentations, such details can be
fleshed out in discovery.” Id. at 8–9. In response to Defendants’ arguments that “relator is required at this stage
in the proceedings to identify specific claims actually submitted which relator alleges were false,” the court stated
that it “does not feel such specificity is required in this instance.” Id. at 9 n. 6.
In response to Defendants’ renewed motion to dismiss under 9(b) in Dickson III, this Court observed that
“[w]hile the Third Amended Complaint has added significant details as to the states’ limitations on Medicaid and
Medicare, . . ., and as to the states’ formulary programs,
. . ., the factual allegations otherwise remain the same as
alleged in the Second Amended Complaint. Thus, with the
exception of the Defendants’ new arguments regarding
the formulary allegations, Chief Judge Herndon’s decision regarding the adequacy of Relator’s pleading remains the law of the case.” In re Plavix Mktg., Sales Practices & Prod. Liab. Litig., 123 F. Supp. 3d 584, 614 (D.N.J.
2015). I next found that none of the extraordinary circumstances warranting reconsideration of the transferor
Court’s prior decision were applicable and left undisturbed Chief Judge Herndon’s decision that Relator’s
Prescriber Allegations were adequate under Rule 9(b).
Ibid. I also noted that
when applying the standard of Rule 9(b) to claims
under the FCA, the Third Circuit, like the First,
Fifth, and Ninth Circuits, uses a “nuanced” version of the heightened pleading standard. Foglia

150a
v. Renal Ventures Mgmt., LLC, 754 F.3d 153, 157
(3d Cir. 2014). Under this reading “it is sufficient
for a plaintiff to allege particular details of a
scheme to submit false claims paired with reliable indicia that lead to a strong inference that
claims were actually submitted.” Id. at 156. The
court also repeated the statement from Wilkins
that “we ha[ve] never held that a plaintiff must
identify a specific claim for payment at the pleading stage of the case to state a claim for relief.”
Id. Thus, Defendants’ argument that the Complaint must identify specific false claims is misplaced.
Dickson III, 123 F. Supp. 3d at 614 n. 19.
Looking now to Defendants’ present motion, the allegations of the 4AC are substantially similar to the allegations in the 3AC concerning the Prescriber Allegations.
Defendants do not dispute this, and instead argue that reconsideration is appropriate because the Supreme Court’s
decision in Escobar constitutes a supervening change in
the law governing 9(b) pleading standards for particularity. In Escobar, the Supreme Court imposed a heightened
pleading standard to allege the element of materiality in
implied false certification cases under the FCA. Escobar,
136 S. Ct. at 1996. As discussed, infra, the decision indisputably states an intervening change of law in the standard to plead materiality under FCA, whether under Fed.
R. Civ. P. 8(a) or 9(b). Escobar, 136 S. Ct. at 2004 n. 6 (“We
reject Universal Health’s assertion that materiality is too
fact intensive for courts to dismiss False Claims Act cases
on a motion to dismiss or at summary judgment. The
standard for materiality that we have outlined is a familiar
and rigorous one. And False Claims Act plaintiffs must
also plead their claims with plausibility and particularity
under Federal Rules of Civil Procedure 8 and 9(b) by, for
instance, pleading facts to support allegations of

151a
materiality.”). Escobar is silent, however, whether the
general standard for particularity under Rule 9(b) has
been affected in the pleading of other FCA elements.
Defendants extrapolate that Escobar altered the
Rule 9(b) standard for particularity for other FCA elements on the basis of a single line in the decision. See Escobar, 136 S. Ct. at 2001 (“we hold that the implied certification theory can be a basis for liability, at least where
two conditions are satisfied: first, the claim does not
merely request payment, but also makes specific representations about the goods or services provided; and second, the defendant’s failure to disclose noncompliance
with material statutory, regulatory, or contractual requirements makes those representations misleading halftruths”) (emphasis added). Defendants contend that Escobar’s requirement of allegations concerning “specific
representations about the goods or services provided”
and how those representations became “misleading halftruths” changes the particularity pleading requirement of
9(b) for implied certification FCA claims and reopens the
inquiry previously decided by the transferor court.
Here, as discussed below, the Court finds the imposition by the Supreme Court in Escobar of a heightened
pleading standard for materiality under the FCA to be
dispositive of Relator’s allegations in the 4AC. As such,
other than observing that the Escobar decision constitutes a supervening change in law with regard to the materiality element, this Court need not decide whether the
pleading standard for other elements of the FCA6 or for

6

“Rule 9(b)’s heightened pleading standard applies to state law
fraud claims asserted in federal court.” N. Am. Catholic Educ. Programming Found., Inc. v. Cardinale, 567 F.3d 8, 13 (1st Cir. 2009).
Accordingly, any change in the general standard for pleading fraud
with particularity would affect the state law FCA claims as well.

152a
pleading fraud with particularity under 9(b) have been affected by that decision.7
3. Materiality under Escobar
As noted above, “[a] False Claims Act violation includes four elements: falsity, causation, knowledge, and
materiality.” Petratos, 855 F.3d at 487. In Dickson III,
Defendants moved to dismiss, and this Court dismissed
the Prescriber Allegations for failure to plead falsity, except to the extent raised for implied false certifications of
compliance with the law of the 17 Cost-Imposed States. I
held:
7

This Court’s position is supported by the Third Circuit’s only decision applying Rule 9(b) to an FCA claim post-Escobar. In an unreported decision, the Third Circuit enunciated the heightened pleading
standard for implied false certification cases following Escobar. “By
contrast, implied false certification liability attaches when a claimant
‘makes specific representations about the goods or services provided’
and the claimant’s ‘failure to disclose noncompliance with material
statutory, regulatory, or contractual requirements makes those representations misleading half-truths.’” United States v. Eastwick
Coll., 657 F. App'x 89, 94 (3d Cir. 2016) (quoting Escobar, 136 S. Ct.
at 2001) (emphasis added)). The Third Circuit, then, however, went
on to apply the pre-Escobar 9(b) pleading standard for particularity
to the allegations before it. “In order to satisfy Rule 9(b), a complaint
must provide ‘all of the essential factual background that would accompany ‘the first paragraph of any newspaper story’—that is, the
‘who, what, when, where and how’ of the events at issue.’” United
States v. Eastwick Coll., 657 F. App'x 89, 93 (3d Cir. 2016) (quoting In
re Rockefeller Ctr. Props., Inc. Sec. Litig., 311 F.3d 198, 217 (3d Cir.
2002) (quoting In re Burlington Coat Factory Sec. Litig., 114 F.3d
1410, 1422 (3d Cir. 1997))). The Third Circuit also affirmed the continued vitality, post-Escobar, of Foglia v. Renal Ventures Mgmt.,
LLC, 754 F.3d 153, 158 (3d Cir. 2014), one of the cases upon which this
Court previously relied in denying Defendants’ motion for reconsideration of the transferor court’s 9(b) ruling in Dickson III, applying
Foglia to the question of whether claims were made with the requisite
particularity. Eastwick, 657 F. App'x at 95.

153a
The allegations based on the Medicaid plans of
the Cost–Imposed States stand on a different
footing. Relator alleges that the Cost–Imposed
States have included in their Medicaid statutes a
cost effective requirement. In that connection,
Relator alleges that Plavix is no more effective
than aspirin, which is significantly less costly. See
TAC at ¶¶ 115–120. Because, as Relator avers,
“Plavix was regularly and systematically presented to physicians as superior to aspirin for
[certain] patients,” see id. at ¶ 152, Defendants
caused these physicians to submit false claims. At
this stage of this litigation, I find that Relator has
stated plausible claims under the Cost– Imposed
States’ Medicaid regime. Relator alleges that
cost-effectiveness is a “condition[ ] of Government payment”—that is, a condition “which, if
the government knew they were not being followed, might cause it to actually refuse payment.” Wilkins, 659 F.3d at 309. Indeed, the
state statutes and regulations cited by Relator,
on their face, indicate that services and treatments must be cost-effective in order to be covered by Medicaid.
Dickson III, 123 F. Supp. 3d at 611. The Court’s judgment was rendered with the caveat that “Relator’s claims
in this context may not survive scrutiny should, for example, evidence show that Plavix was placed on certain
states’ Preferred Drug Lists,” because, as courts in other
circuits had observed, prescriptions for drugs on state
PDLs may be submitted to and paid by Medicaid without
the prescribing physician having to obtain prior authorization from the state — that is, the state payor might not
have the opportunity to deny reimbursement for the prescription. Ibid. In other words, this Court noted that while
on the face of the 3AC, Relator had adequately alleged

154a
that false certifications of cost-effectiveness had been submitted, it remained to be determined whether those false
certifications were material to a government payor’s reimbursement decision, in light of the exemption of some
drugs from the prior authorization process altogether.
In the 4AC, Relator now affirmatively alleges that
every state imposing a cost-effectiveness requirement for
reimbursement under Medicaid also placed Plavix on its
PDL or formulary, exempting Plavix from all prior authorization requirements, and obligating state Medicaid
payors to reimburse claims for Plavix automatically. See
4AC ¶¶ 26, 47, 99-150. Defendants contend that, in doing
so, Relator has pleaded herself out of court by alleging
facts showing that implied false certifications by prescribing physicians necessarily could not have been material to
Medicaid’s decision to pay for Plavix prescriptions. In
short, Defendants contend that Relator has alleged that
state Medicaid agencies would reimburse Plavix prescriptions automatically upon receipt because Plavix was included on each state’s PDL, regardless of whatever representations were made by the prescribing physician. Defendants contend that these allegations fail the heightened pleading standard for materiality set forth by the
Supreme Court in Escobar. I agree.
In Escobar, the Supreme Court reaffirmed the wellestablished requirement that “[a] misrepresentation
about compliance with a statutory, regulatory, or contractual requirement must be material to the Government’s
payment decision in order to be actionable under the
False Claims Act,” and sought to “clarify . . . how that rigorous materiality requirement should be enforced.” 136 S.
Ct. at 1996 (emphasis added). The Escobar Court explained:
The materiality standard is demanding. The
False Claims Act is not “an all-purpose antifraud
statute,” or a vehicle for punishing garden-

155a
variety breaches of contract or regulatory violations. A misrepresentation cannot be deemed
material merely because the Government designates compliance with a particular statutory, regulatory, or contractual requirement as a condition of payment. Nor is it sufficient for a finding
of materiality that the Government would have
the option to decline to pay if it knew of the defendant’s noncompliance. Materiality, in addition, cannot be found where noncompliance is minor or insubstantial.
Id. at 2003 (quoting Allison Engine, 553 U.S., at 672). The
Court later concluded:
In sum, when evaluating materiality under the
False Claims Act, the Government’s decision to
expressly identify a provision as a condition of
payment is relevant, but not automatically dispositive. Likewise, proof of materiality can include, but is not necessarily limited to, evidence
that the defendant knows that the Government
consistently refuses to pay claims in the mine run
of cases based on noncompliance with the particular statutory, regulatory, or contractual requirement. Conversely, if the Government pays a
particular claim in full despite its actual
knowledge that certain requirements were violated, that is very strong evidence that those requirements are not material. Or, if the Government regularly pays a particular type of claim in
full despite actual knowledge that certain requirements were violated, and has signaled no
change in position, that is strong evidence that
the requirements are not material.
Id. at 2003–04. The Supreme Court also explained that
failure to plead materiality was a proper basis for a motion
to dismiss. Id. at 2004 n. 6 (“We reject Universal Health’s

156a
assertion that materiality is too fact intensive for courts
to dismiss False Claims Act cases on a motion to dismiss
or at summary judgment. The standard for materiality
that we have outlined is a familiar and rigorous one.”). After offering such guidance on how the materiality standard should be applied, the Court declined to apply it to the
facts before it and remanded to the court of appeals for
application. Id. at 2004.
Significantly, the Third Circuit has recently applied
Escobar in circumstances which control the outcome in
this case. In Petratos, the Third Circuit found that Escobar imposed a “heightened materiality standard” to plead
a violation of the FCA, and applied that standard to affirm
the dismissal of a relator’s implied false certification complaint. Id. at 492–93.8 The relator in Petratos alleged that
the defendants, the makers of the widely prescribed cancer drug Avastin, had engaged in a marketing campaign
which systematically suppressed information about Avastin’s health risks, and “[a]s a consequence of [defendants’]
data-suppression strategy, [relator] claimed the company
caused physicians to submit Medicare claims that were
not ‘reasonable and necessary.’” Petratos, 855 F.3d at
485–86. The relator further alleged:
If Roche/Genentech had revealed true and complete clinical, safety, and epidemiological information about Avastin to government regulatory
agencies or the public, a significant number of
doctors (if not all) would have more carefully
evaluated their patients in order to determine
which patients should receive lower doses of the
8

The district court below in Petratos dismissed the relator’s complaint for failure to plead falsity. The Third Circuit disagreed with
the district court’s analysis, but affirmed on the alternative basis that
the complaint failed to plead materiality, in light of the Supreme
Court’s intervening decision in Escobar. Petratos, 855 F.3d at 489.

157a
drug, or discontinue use of the drug altogether.
Similarly, had Roche/Genentech been truthful
and forthcoming with reporting this information,
third party payers (including federal and state
government programs) would have reimbursed
for fewer Avastin indications or for lower dosages, or conceivably would not have reimbursed
for Avastin treatment at all.
United States ex rel. Petratos v. Genentech, Inc., No. 2:11CV-03691, First Amended Complaint filed 04/16/15, Dkt.
No. 77, ¶ 19. The Third Circuit found that the relator’s allegations did not meet the “high standard” for pleading
materiality post-Escobar.
Petratos’s allegations do not meet this high
standard. As the District Court noted: “there are
no factual allegations showing that CMS would
not have reimbursed these claims had these [alleged reporting] deficiencies been cured.” Petratos does not dispute this finding, which dooms his
case. Simply put, a misrepresentation is not “material to the Government’s payment decision,”
when the relator concedes that the Government
would have paid the claims with full knowledge of
the alleged noncompliance
Similarly,
we
think that where a relator does not plead that
knowledge of the violation could influence the
Government’s decision to pay, the misrepresentation likely does not “have[ ] a natural tendency
to influence payment,” as required by the statute.
See 31 U.S.C. § 3729(b)(4). At a minimum, this
would be “very strong evidence” that the misrepresentation was not material.
Petratos, 855 F.3d at 490 (citations omitted) (emphasis in
original). In further support of its finding that the relator
failed to plead materiality, the Third Circuit also noted
that (i) the mere fact that a drug being “reasonable and

158a
necessary” was a condition of payment, without more,
does not establish materiality; (ii) relator failed to plead
that CMS “consistently refuses to pay” claims like those
alleged; (iii) relator essentially conceded that CMS would
consistently reimburse those claims with full knowledge
of the purported noncompliance; and (iv) relator failed to
cite to a single successful claim under the “reasonable and
necessary” provision involving drugs prescribed for their
on-label uses or a court decision upholding such a theory.
Id. at 490.
Here, in the 4AC, Relator baldly alleges that government payors would not have reimbursed for Plavix had
they been aware of the alleged false certification of costeffectiveness,9 but Relator’s other, more specific allegations, belie these conclusory facts because Relator concedes that Plavix was listed on each state’s PDL and that
a PDL-listing alone was sufficient to compel government
Medicaid payors automatically to reimburse claims for
Plavix. Specifically, Relator first alleges that Plavix was
listed on the PDL of every state imposing a cost-effectiveness requirement for reimbursement. See 4AC ¶¶ 99-150.
Next, Relator alleges that once a claim for Plavix was received by a government payor, it had to be paid automatically because of Plavix’s listing on the state PDLs/formularies. Id. at ¶ 26 (“For drugs that are on the formulary,
Medicaid programs are required to reimburse the cost of
a drug on a state’s formulary when the drug is prescribed
by a physician for an indication for which the drug is on
the formulary. Thus, if a drug is on a state’s formulary,
9

See, e.g., 4AC ¶ 196 (“Had the United States known that
BMS/Sanofi were knowingly causing physicians and pharmacists to
submit such false claims for payment, the United States would not
have provided reimbursement for such prescriptions under Government Payors’ programs.”); ¶ 208 (same for California); ¶ 222 (same
for Colorado); ¶ 234 (same for Connecticut); etc.

159a
once an “on-label” prescription for that drug is written
and the prescription is filled, the cost for that prescribed
drug is automatically reimbursed by Government Payors.
No other authorizations are required.”); ¶ 47 (“But because of BMS/Sanofi’s fraudulent conduct, prescribing
physicians were misled into prescribing Plavix for Medicaid subscribers—which prescriptions certified to the
Cost-Imposed States that Plavix met the requirements
for Medicaid reimbursement—namely that the drug was
medically necessary and cost effective for each patient receiving a prescription for Plavix. Where Plavix is on the
formulary, these false certifications resulted in the automatic reimbursement of Plavix.”).
Accordingly, the Prescriber Allegations in the 4AC
clearly allege that once Plavix was placed on a state PDL,
the government payor was obligated to reimburse on-label claims for the drug automatically, without consideration of what certifications the prescribing physicians
might or might not have been making about the drug. Accordingly, while the Prescriber Allegations may suggest
that Defendants’ alleged fraudulent marketing of Plavix
to prescribing physicians caused allegedly legally false
claims to be submitted to Medicaid government payors,
the Prescriber Allegations clearly state that the government payors’ decision to pay the claims was based solely
upon Plavix’s inclusion on the state PDL.
In the 4AC Relator contends that these allegations
are sufficient to establish causation. 4AC ¶ 27 (“A false
implied certification by a doctor that a particular drug is
medically necessary and cost effective for a particular patient (i.e., a prescription) is not just material to the Government Payor’s payment decision, it is determinative because that prescription results in Government Payor reimbursement despite its falsity.”). The relator in Petratos
made a similar argument, which the Third Circuit explicitly rejected. In Petratos, as here, the relator argued that

160a
because defendants’ fraudulent marketing practices to
prescribing physicians were a “but for” cause of the submission of claims including implied false certifications to
government payors, in other words that the defendants’
misrepresentations to physicians about the drug were material to the physicians’ decision to prescribe the drug and
submit a claim to Medicare or Medicaid, the defendants’
fraud was material to the government payors’ decision to
reimburse the claims. The Third Circuit succinctly noted
that relator’s “argument conflates materiality with causation, a separate element of a False Claims Act cause of
action.” Petratos, 855 F.3d at 491. The Third Circuit explained that in the FCA specific context, the government
is always the “ultimate recipient of the misrepresentation” about compliance with a statutory, regulatory, or
contractual requirement,” and materiality is judged exclusively in relation to the government’s payment decision. Petratos, 855 F.3d at 491. The Third Circuit concluded:
By attempting to focus our inquiry solely on the
physician’s materiality determination, [relator]
again tries to pass off restyled causation arguments as proof of materiality. The alleged fraud’s
effect on physicians is relevant to the extent that
it caused claims eventually to reach CMS. That
is, evidence of how the claim makes its way to the
government should be considered under the causation analysis, while the materiality analysis
begins after a claim has been submitted. The materiality inquiry, in asking whether the government’s payment decision is affected, assumes
that the claim has in fact reached the government.
Id. at 492 (emphasis added). Applied here, the prescribing
physicians’ alleged belief that Plavix was cost-effective on
the basis of Defendants’ allegedly fraudulent marketing

161a
campaign, is relevant only to the extent that is shows that
Defendants induced or caused claims containing implied
false certifications of cost-effectiveness to reach the government Medicaid payors. For the Prescriber Allegations
to state a claim under the FCA, Relator needed also to
allege that the prescribers’ implied false certification of
cost-effectiveness affected the government Medicaid
payors’ decision to pay the claims for Plavix. This Relator
failed to do, and indeed could not do, instead clearly alleging that once the claims for Plavix were submitted to Medicaid, they were paid automatically by virtue of Plavix’s
inclusion on state PDLs, without consideration by a government payor of the prescribers’ implied certification of
cost-effectiveness.
Returning to the language of Petratos, the Prescriber
Allegations’ claims about Defendants’ conduct in marketing Plavix to physicians in a fraudulent of misleading manner, allegedly inducing those physicians to submit prescriptions for Plavix to Medicaid, go to “how the [allegedly
false] claim makes its way to the government” and therefore are “considered under the causation analysis.” Id. at
492. “Materiality analysis begins after a claim has been
submitted,” and the only fact alleged to have influenced
the government payors’ decision to reimburse claims for
Plavix in this case is the inclusion of Plavix on the PDLs
for all relevant states. Ibid. (emphasis added). Once Plavix
was listed on the PDLs, the Complaint alleges that prescriptions for Plavix were reimbursed “automatically,” regardless of whatever certifications were being made by
the prescribing physicians. 4AC ¶ 26.
As was the Court in Petratos, this Court is further
convinced in its finding that Relator has failed to plead
materiality in this case because (i) the mere fact that a
drug being “cost-effective” was a condition of payment,
without more, does not establish materiality; (ii) Relator
failed to plead that government Medicaid payors in fact

162a
consistently refuse to pay claims like those alleged; (iii)
Relator’s automatic reimbursement allegations essentially concede that government Medicaid payors would
consistently reimburse claims for Plavix with full
knowledge of the purported false certification of physicians that Plavix was cost-effective (i.e. because Plavix
prescriptions were automatically reimbursed without being considered for approval by the Medicaid payor once
Plavix was placed on the state PDL); and (iv) Relator
failed to cite to a single successful claim under the “costeffectiveness” provisions of the relevant state statutes involving drugs prescribed for their on-label uses or a court
decision upholding such a theory. Petratos, 855 F.3d at
490.
Accordingly, the Prescriber Allegations fail to plead
materiality, and therefore do not state a cause of action
under the federal FCA. Count I (for substantive violations
of the FCA) and Count II (for conspiracy to violate the
FCA), to the extent grounded in the Prescriber Allegations, and are therefore dismissed. 10 For the same reasons, the state FCA Prescriber Allegations will also be
dismissed as discussed, infra.

10

Under section 3729(a)(1)(C), the FCA’s conspiracy provision,
raised in Count II of the 4AC, liability attaches to any person who
“conspires to commit a violation of subparagraph (A), (B), (D), (E),
(F), or (G)” of that section. Here, as explained, supra, the Court has
dismissed Relator’s substantive FCA claims under the other subsections of Section 3729(a)(1), and therefore Relator’s Section
3729(a)(1)(C) conspiracy claim, premised on a conspiracy to violate
those other subsections must be dismissed also. United States ex rel.
Petras v. Simparel, Inc., 857 F.3d 497, 507 (3d Cir. 2017) (reasons for
the dismissal of relator’s substantive FCA claim “appl[y] with equal
force to the dismissal of [relator’s] conspiracy claim); id at 507 n. 53
(quoting Pencheng Si v. Laogai Research Found., 71 F. Supp. 3d 73,
89 (D.D.C. 2014) (“‘[T]here can be no liability for conspiracy where
there is no underlying violation of the FCA.”)).

163a
B. The Formulary Allegations
1. Law of the Case
In Dickson III, based on Relator’s failure to plead falsity, this Court dismissed Relator’s Formulary Allegations, then premised on claims that Defendants had misrepresented Plavix to formulary committees as “medically necessary.” Dickson III, 123 F. Supp. 3d at 612 (“Relator cannot identify any false certification which actually
was a prerequisite to payment. Equally deficient, Relator’s speculative allegations with respect to Medicaid P &
T Committees also do not state a claim. There are simply
no allegations how any of Defendants’ allegedly false promotional statements were material to, or had any bearing
on, the decisions made by these committees.”); id. at 61213 (allegations that Defendants’ scheme caused states to
include Plavix on their state’s Medicaid formularies for indications for which Plavix is not medically necessary
failed to plead falsity). In their present motion, Defendants contend that this Court’s prior dismissal of the Formulary Allegations is law of the case, and bars Relator
from bringing its modified Formulary Allegations in the
4AC. I disagree for two reasons.
Firstly, as was the case with the Prescriber Allegations, the Formulary Allegations in the 4AC are based on
Defendants’ alleged inducement of state formulary committees to include Plavix on their PDLs through misrepresentations about Plavix’s cost-effectiveness, not its
medical necessity. As such, Relator’s Formulary Allegations in the 4AC do not contradict or otherwise require
reconsideration of this Court’s previous dismissal of the
Formulary Allegations in the 3AC based on Plavix’s medical necessity. Although, again, it would have been appropriate for Relator to request leave to amend to conform
her Formulary Allegations to this Court’s prior decision,
the Court grants such leave now in the interest of allowing
Plaintiff an opportunity for her claims to be considered

164a
fully and because of the absence of prejudice to Defendants. As with the Prescriber Allegations, Defendants have
had an opportunity to move to dismiss the Formulary Allegations as presently drafted, and indeed have done so.
Secondly, the 4AC makes clear, for the first time, that
Relator’s formulary allegations are intended to state a
claim under a fraud-in-the-inducement theory of liability
under the FCA, as embodied in the Third Circuit’s unreported decision in Thomas. 4AC ¶ 98, n. 140. Because a
fraud-in-the-inducement theory of liability was not before
this Court in Dickson III, and the Court did not have the
benefit of the parties’ briefing on the issue, the Court, in
its discretion, declines to hold that the Court’s prior dismissal of the Formulary Allegations encompassed Relator’s new theory. Accordingly, Defendants’ motion to dismiss the Formulary Allegations as law of the case is denied, and I will now turn to the merits of the claim.
2. Rule 12(b)(6) Failure to State a Claim
As discussed, supra, the Prescriber Allegations in the
4AC fail because they allege that state formulary committees’ decisions to include Plavix on their state PDLs, and
not the implied false certifications of prescribers submitting claims to Medicaid, were actually material to government Medicaid payors’ decisions to reimburse claims for
Plavix. In other words, the allegedly fraudulent inclusion
of Plavix on a PDL by a formulary committee, not the submission of a false claim by a physician, is the operative act
affecting each Medicaid payment decision in this case.
The question before the Court on Relator’s Formulary Allegations, therefore, is whether the FCA recognizes such
a cause of action for “fraud on the formulary committee.”
Relator, in the 4AC, and in her opposition briefing on the
present motion, contends that the FCA does provide for
such actions under the theory of fraud in the inducement
enunciated in Thomas.

165a
“[T]he focus of the False Claims Act is on false
‘claims.’” Thomas, 593 F. App’x at 143. “The conception of
a claim against the government normally connotes a demand for money or for some transfer of public property.”
Hutchins v. Wilentz, Goldman & Spitzer, 253 F.3d 176,
183 (3d Cir. 2001) (quotation omitted). See also id. (quoting United States v. McNinch, 356 U.S. 595, 599 (1958)
(“the False Claims Act was not designed to reach every
kind of fraud practiced on the Government”). In Thomas,
however, relying upon older, reported precedent, the
Third Circuit held that “[a]lthough the focus of the False
Claims Act is on false ‘claims,’ courts have employed a
fraudulent inducement theory to establish liability under
the Act for each claim submitted to the government under
a contract which was procured by fraud, even in the absence of evidence that the claims were fraudulent in themselves.” Thomas, 593 F. App’x at 143. This theory dates
back to the decision of the Supreme Court in United
States ex rel. Marcus v. Hess, 317 U.S. 537 (1943) (superseded by statute). See id. at 542–44 (recognizing fraudulent inducement theory). Hess involved collusive bidding
on federally assisted state contracts. The United States
later made payments by disbursing federal grants into a
joint fund to aid the local government in paying its obligations under the collusively obtained contracts. The Supreme Court noted that although the wrongdoing in Hess
did not involve the submission or inducement of a false
claim in the strictest sense, the conduct of the defendants
in inducing the underlying contracts by fraud nevertheless fell within the prohibition of the FCA.
The government’s money would never have been
placed in the joint fund for payment to respondents had its agents known the bids were collusive.
By their conduct, the respondents thus caused
the government to pay claims of the local sponsors in order that they might in turn pay

166a
respondents under contracts found to have been
executed as the result of the fraudulent bidding.
This fraud did not spend itself with the execution
of the contract. Its taint entered into every swollen estimate which was the basic cause for payment of every dollar paid by the P.W.A. into the
joint fund for the benefit of respondents. The initial fraudulent action and every step thereafter
taken, pressed ever to the ultimate goal—payment of government money to persons who had
caused it to be defrauded.
Hess, 317 U.S. at 543–44. The Third Circuit has long applied Hess’s holding. See United States v. Veneziale, 268
F.2d 504, 505 (3d Cir. 1959) (“[I]t has long since been settled that a fraudulently induced contract may create liability under the False Claims Act when that contract later
results in payment thereunder by the government…“).
Furthermore, when Congress amended the FCA in 1986,
it recognized that fraudulently induced contract claims
were actionable under the statute. S. Rep. No. 99–345, at
9 (1986), reprinted in 1986 U.S.C.C.A.N. at 5266, 5274
(“[E]ach and every claim submitted under a contract, loan
guarantee, or other agreement which was originally obtained by means of false statements or other corrupt or
fraudulent conduct, . . . constitutes a false claim.”).11 Since
the 1986 Amendments, numerous federal Courts of Appeals have recognized the “fraud-in-the-inducement” theory of FCA liability in the context of contracts induced by
fraud.12
11

The district court below in Thomas relied in part on the legislative
history of the 1986 Amendments in finding an actionable “fraud-inthe-inducement” claim in that contract case. U.S. ex rel. Thomas v.
Siemens AG, 991 F. Supp. 2d 540, 567–68 (E.D. Pa.), aff'd, 593 F. App'x 139 (3d Cir. 2014).
12
See, e.g., In re Baycol Prod. Litig., 732 F.3d 869, 876 (8th Cir.
2013) (“when a relator alleges liability under a theory of fraud-in-the

167a
a) The Third Circuit Has Not Recognized Relator’s
Theory of FCA Liability
Here, Relator argues that the fraud-in-the-inducement theory in Thomas may be extended to support Relator’s fraud-on-the-formulary-committee theory in this
case. I disagree. Firstly, none of the Supreme Court or
circuit court precedents recognizing the fraud-in-the-inducement theory, including those binding decisions of the
Third Circuit, has ever recognized Relator’s novel fraudon-the-formulary-committee theory. Fraud-in-the-inducement began in the Supreme Court’s Hess decision as
a doctrine applicable to contracts induced by fraud. It was
reaffirmed by Congress in the legislative history of the
1986 Amendments to the FCA as a doctrine limited to
claims “under a contract, loan guarantee, or other agreement.” S. Rep. No. 99–345, at 9 (1986), reprinted in 1986
inducement, claims for payment subsequently submitted under a contract initially induced by fraud do not have to be false or fraudulent
in and of themselves in order to state a cause of action under the
FCA”); United States ex rel. Longhi v. Lithium Power Techs., Inc.,
575 F.3d 458, 467–68 (5th Cir. 2009) (where a contract was procured
by fraud, even when subsequent claims for payment under the contract were not literally false, they became actionable FCA claims because they “derived from the original fraudulent misrepresentation”);
Wilson v. Kellogg Brown & Root, Inc., 525 F.3d 370, 376 (4th Cir.
2008) (recognizing a fraudulent inducement claim under the FCA
based on obtaining a government contract through false statements)
(citing Harrison I, 176 F.3d at 787); United States ex rel. Hendow v.
Univ. of Phoenix, 461 F.3d 1166, 1173 (9th Cir. 2006) (“liability will
attach to each claim submitted to the government under a contract,
when the contract ... was originally obtained through false statements
or fraudulent conduct”); United States ex rel. Bettis v. Odebrecht Contractors of Cal., Inc., 393 F.3d 1321, 1326 (D.C. Cir. 2005) (“[C]ourts
have employed a ‘fraud-in-the-inducement’ theory to establish liability under the Act for each claim submitted to the Government under
a contract which was procured by fraud, even in the absence of evidence that the claims were fraudulent in themselves.”) (citation omitted).

168a
U.S.C.C.A.N. at 5266, 5274. And it has only ever been applied by the Courts of the Third Circuit, including in
Thomas itself, to contracts induced by fraud. Thomas, 593
F. App’x at 143 (allegations that defendants fraudulently
induced the VA to enter into the contracts); States v. Veneziale, 268 F.2d 504, 505 (3d Cir. 1959) (allegations that
defendants fraudulently induced government guaranteed
bank loan agreement). In the absence of any binding or
persuasive authority suggesting that a theory of liability
formed in the context of contracts should be applied
equally in the context of non-contract interactions with
government regulatory bodies, as in this case, marketing
statements to formulary committees, this Court will not
craft a fraud-on-the-formulary theory for Relator out of
whole cloth.
Secondly, even were the Court inclined to reason by
analogy from the contract context, Thomas would still not
offer Relator a cause of action here. In Thomas and the
earlier fraud-in-the-inducement cases going back to Hess,
the fraudulently obtained contract was alleged to give rise
to the claims submitted for payment to the government.
See, e.g., Hess, 317 U.S. at 543 (award of contracts induced
local government sponsors to submit claims to the federal
government in order to pay defendants under the contracts). Here, Relator cannot allege in the same way that
Plavix’s listing on state PDLs gave rise to the later claims
submitted for payment to the government. Instead, Relator attempts to establish the connection between the
fraud on the formulary committee and the payment by the
government of false claims through Defendants’ alleged
separate fraud — although a part of an overall fraudulent
scheme — to falsely market Plavix to prescribing physicians, who were thereby induced to submit false claims to
Medicaid. The absence of the same direct causal connection between Defendants’ alleged fraud on the formulary
committee, and the submission of false claims that is

169a
present between contracts induced by fraud and claims
submitted under those contracts, gives the Court pause
because it suggests that embracing Relator’s theory
would be a step toward bringing all misrepresentations to
government bodies within the purview of the FCA. The
Supreme Court and the Third Circuit have always made
it clear that the FCA was not designed to have so expansive a scope. See, e.g., Escobar, 136 S. Ct. at 2003 (quoting
Allison Engine, 553 U.S., at 672) (“The False Claims Act
is not ‘an all-purpose antifraud statute’”); Petratos, 855
F.3d at 490 (quoting Wilkins, 659 F.3d at 307 (citation
omitted)) (“the False Claims Act is not ‘a blunt instrument
to enforce compliance with all . . . regulations.’”); Wilkins,
659 F.3d at 307 (“the implied certification theory of liability should not be applied expansively, particularly when
advanced on the basis of FCA allegations arising from the
Government’s payment of claims under federally funded
health care programs. In particular . . . the rationale . . .
does not fit comfortably into the health care context because the [FCA] was not designed for use as a blunt instrument to enforce compliance with all medical regulations—but rather only those regulations that are a precondition to payment.” (citation omitted)). Accordingly,
this Court will not extend the Third Circuit’s recognized
fraud-in-the-inducement theory of FCA liability beyond
the realm of contracts induced by fraud.
b) The Solvay Decision is Unpersuasive
In opposition, Relator cites to a single reported case
for the proposition that Thomas may be extended to encompass a fraud-on-formulary-committee theory of liability.13 Relator contends that in U.S. ex rel. King v. Solvay
13

Relator also cites two additional unreported cases in support of
her position. Both are irrelevant to the Court’s analysis. In addition
to being a non-binding decision, United States v. Pfizer, Inc., No. 05CV-6795, 2016 WL 807363, at *10 (E.D. Pa. Mar. 1, 2016), is factually

170a
S.A., 823 F. Supp. 2d 472 (S.D. Tex. 2011) order vacated
in part on reconsideration, No. 06-CV-2662, 2012 WL
1067228 (S.D. Tex. Mar. 28, 2012), the Sothern District of
Texas applied a Thomas-like theory to find fraudulent
marketing of a drug to a state formulary committee actionable under the FCA. Opp. 26-27.14
In Solvay, the relators alleged that defendants had
marketed three drugs — Luvox, Aceon, and AndroGel —
for conditions other than conditions for which the drugs
were approved by the FDA (“off-label”) and had offered
kickbacks to physicians who prescribed the drugs. Solvay,
823 F. Supp. 2d at 480-81. The relators in Solvay pursued
a false certification theory of liability under the FCA,
along with claims under the Anti-Kickback Statute. Solvay, 823 F. Supp. 2d at 488. In ruling on defendants’
and legally inapplicable to the present case. Firstly, it was not a
fraud-in-the-inducement case; the Relator in Pfizer proceeded under
an implied false certification theory that doctors were caused by Defendants to submit prescriptions for off-label uses that were not medically accepted or medically necessary. Secondly, Pfizer dealt with an
alleged scheme for off-label promotion of a drug to hospital formulary
decision-makers. Simply put, Pfizer offers no guidance as to whether
Relator has stated a fraud-in-the-inducement cause of action for onlabel promotion to state formulary committees. Similarly, in U.S. ex
rel. Brown v. Celgene Corp., No. 10-CV-3165, 2014 WL 3605896, at *6
(C.D. Cal. July 10, 2014), the district court found, inter alia, a defendant’s attempt to improperly influence drug compendia by bribing
physicians who worked on the compendia committee to give rise to a
plausible inference that the defendant was promoting off-label uses
of its drug that were not supported by the compendia. Here, the only
uses of Plavix alleged to have been promoted were on label and there
are no allegations of bribery.
14
The Court devotes significant attention to the otherwise only marginally relevant opinion of Solvay, because it is the only case that Relator has identified, and that this Court has been able to discover, that
may even arguably be said to have adopted Relator’s theory of FCA
liability. Relator thus relies heavily upon Solvay in her Opposition
and supplementary briefing.

171a
motion to dismiss the realtors’ FCA claims pursuant to
Fed. R. Civ. P. 12(b)(6), the Solvay Court first found that
for at least some of the drugs, relators had shown off-label
claims had knowingly been submitted for payment to the
government. Id. at 509. The Court then proceeded to consider whether the relators’ false certification FCA claims
satisfied the elements of falsity and materiality. Turning
to materiality first, the court concluded, without reasoning or supporting law, that relators’ false certification
claims for off-label promotion satisfied the FCA’s materiality requirement.15 Id. at 509. The court then launched
into an extensive analysis of the falsity element, focused
on whether the drugs which had been marketed off-label
were nevertheless marketed for a medically accepted use

15

It is worth noting that the Solvay Court employs confused and
vague language, which makes it impossible for this Court to determine the basis on which materiality was initially found. For example
the Court, referencing its discussion of Rule 9(b) particularity wrote
“the court found above that the alleged off-label promotion was material to off-label claims, under subsection 3729(a)(1).” Id. at 509. As
the Third Circuit made clear in Petratos, however, the inquiry in FCA
false certification cases is not whether defendants’ marketing efforts
are material to the submission of claims, but rather whether the ultimate false certification that reaches the government is material to the
government’s payment decision. Moreover, the Solvay court’s opinion is unclear whether materiality was ever really at issue on defendants’ motion. The Solvay Court first wrote that “[defendant] SPI
moves to dismiss the 4AC under Rule 12(b)(6) because it fails to plead
falsity or materiality as to the alleged FCA violations based on offlabel promotion.” Id at 509. Just sentences later, however, the court
wrote “[defendant] SPI’s argument here, though, is not that the alleged scheme was not material to off-label claims. Rather, SPI argues
that Relators fail to allege facts demonstrating that off-label claims
stemming from the alleged off-label promotion were non-reimbursable, and therefore false, claims.” Ibid. In short, immediately after
stating that materiality was at issue, the Solvay court stated that the
defendant’s motion really sounded in falsity.

172a
listed in the DrugDex compendium. The Solvay Court
concluded that the realtors had alleged falsity.
After addressing these two elements, the Solvay
court moved on to a new subsection of its opinion, confusingly titled “Alternative Ways of Showing Falsity/Materiality.” I so characterize the title because, the federal
courts have not recognized “alternative ways” to demonstrate falsity or materiality than those reflected in the
Medicare and Medicaid statutes and case law that the Solvay court had already addressed, and secondly, because
falsity and materiality are distinct elements of an FCA
claim, which cannot be used and should not be referred to
interchangeably. Tellingly, it is this section of the Solvay
court’s opinion upon which the Relator in this case relies.
The Solvay court first concluded, without citation to supporting law, that:
Linking the off-label promotion to materially
false claims with claims data is not the only way
in which the 4AC could allege that the prescriptions resulting from the off-label promotion had
a natural tendency to influence the government’s
decision regarding payment of claims. Relators
argue that . . . [defendant’s] specific targeting of
P & T committee members to gain favorable
treatment on state formularies demonstrate that
the off-label promotion campaign had a natural
tendency to influence the government’s decision
regarding payment of claims.
Solvay, 823 F. Supp. 2d at 514.
The Solvay court then discussed the allegations in the
realtors’ complaint supporting this “alternative” theory of
materiality:
The 4AC additionally alleges that Solvay specifically geared its off-label promotion towards
members of state P & T committees in a [sic]

173a
attempt to influence which drugs were included
on the states’ Medicaid formularies. The 4AC alleges that “[w]ooing P & T committee members
was discussed openly and earnestly on periodic
conference calls with upper management.” A Solvay sales representative allegedly argued for the
inclusion of Aceon on the Preferred Drug List in
a meeting with the West Virginia P & T Committee. She allegedly relied on the PROGRESS
study, which the 4AC alleges does not support
the use of Aceon at all.
Id. at 515 (citations omitted).
Then, once again without the discussion of any law,
the Solvay court summarily concluded that “the alleged
wooing of P & T committee members plausibly influenced
which drugs were placed on state formularies and thus
had a natural tendency to influence the states’ decision,
and in turn the federal government’s, decision with regard
to payment. Accordingly, the 4AC plausibly satisfies the
materiality element.” Ibid. Finally, after another brief
discussion about falsity, the court concluded “[i]n sum, the
court finds that the 4AC plausibly pleads that the claims
resulting from off-label promotion were false or material.”
Ibid. (emphasis added). I am particularly troubled by this
conclusion because, to state an FCA claim, the alleged
false certification must be both false and material.
As a threshold matter, I note that Solvay is an out-ofcircuit, district court decision which is not binding on this
Court. I further find that I cannot place any reliance upon
it as persuasive authority due to the gaps in its reasoning
identified, supra, and its complete failure to cite any law
in reaching the holding for which Relator offers it to this
Court. The Solvay Court did not adequately distinguish
between falsity and materiality, nor did it appropriately
address the principle that materiality is judged from the
perspective of the government payor, not the physician

174a
submitting an allegedly false claim. Moreover, Solvay, as
every other case cited by Relator in support of her Formulary Allegations, involved the off-label marketing of
drugs. Solvay, 823 F. Supp. 2d at 515 (“specifically geared
its off-label promotion towards members of state P & T
committees”). The 4AC alleges, and there is no dispute in
this case, that Defendants’ alleged marketing efforts to
state formulary committees, to the extent they existed at
all, were strictly for on-label, FDA-approved indications
of Plavix. An open question thus remains whether Solvay
and Relator’s other off-label cases have any import here
at all. See, e.g., Petratos, 855 F.3d at 490 (observing in dismissing relator’s claim, “[n]or has he cited to a single successful claim under [Medicare’s exclusions from coverage]
involving drugs prescribed for their on-label uses or a
court decision upholding such a theory.”). Based upon the
foregoing, I find that Solvay provides no persuasive support for Relator’s position here.
There are further reasons that Solvay does not assist
Relator’s case. Firstly, Solvay is not, as Relator argued, a
fraud-in-the-inducement case like Thomas. Instead, it appears that the court, after proceeding through the elements of an FCA claim on defendants’ motion to dismiss,
hypothesized about other “alternative” ways in which the
relators in that case could have established the elements
of falsity and materiality in their false certification claim.
The court then, concluded, without legal citation, that allegations of a fraud on state formulary committees satisfied the materiality element in a false certification FCA
case. One possible explanation for this result can be found
in the legal standard the Solvay court identified earlier in
its opinion. There, the court indicated that it considered
the realtors’ claims under the framework set forth by the
Fifth Circuit in United States ex rel. Longhi v. United
States, 575 F.3d 458, 470 (5th Cir. 2009). Longhi, a preEscobar case, established a “natural tendency” test for

175a
materiality in the Fifth Circuit. “The ‘natural tendency’
test requires ‘that the false or fraudulent statements either (1) make the government prone to a particular impression, thereby producing some sort of effect, or (2)
have the ability to effect the government’s actions, even if
this is the result of indirect or intangible actions on the
part of the Defendants.’ Thus, the statements must ‘have
the potential to influence the government’s decisions.’”
Solvay, 823 F. Supp. at 489–90 (quoting Longhi, 575 F.3d
at 470). This test for materiality is significantly more permissive and expansive of the FCA’s scope than the materiality test established in Escobar and applied in Petratos.
Although the Fifth Circuit has yet to explain whether
Escobar overturned Longhi, in a recent reported decision,
the Court of Appeals cited Longhi for the elements of an
FCA claim, but applied Escobar’s heightened pleading
standard for materiality. See Abbott v. BP Expl. & Prod.,
Inc., 851 F.3d 384, 387–88 (5th Cir. 2017) (referencing
Longhi, but applying Escobar instead of the “natural tendency” test). At least one circuit court of appeals has specifically considered the issue, and has concluded that
Longhi and its equivalents in other circuits are not good
law after Escobar.16 Although this Court need not decide
16

See Johnson v. D.C., 144 A.3d 1120, 1136-1138 (D.C. 2016) (seven
circuits, including the Fifth Circuit in Longhi, adopted the less burdensome “natural tendency” test for materiality in FCA cases; the
Eighth Circuit adopted an “outcome materiality test” holding that
there can be no false claim if the government would have made payments regardless of the defendant’s actions; in Escobar “the Court
announced a new approach to materiality closer to the outcome test
than to the less stringent one followed by a majority of the federal
circuits. . . . The statutory test for ‘materiality,’ therefore, as ‘having
a natural tendency to influence, or be capable of influencing, the payment or receipt of money or property,’ appears to be ‘the effect on the
likely or actual behavior of the recipient of the alleged misrepresentation’ upon learning about it, not on its mere potential to affect the
recipient's decision.”).

176a
the issue, having already determined that Solvay is not
entitled to any persuasive weight, the very fact that Solvay is not based on current law further undercuts its relevance to Relator’s proposed legal theory.
c) Comparable Fraud-on-the-FDA Claims Have
Been Rejected
Finally, I note that, although not discussed by the
parties, Relator’s Formulary Allegations more closely resemble unsuccessful FCA actions for “fraud-on-theFDA,” which have, on rare occasions, been raised in this
and other federal district courts. Relator fares no better
under the reasoning of those cases. Relators there alleged
that 1) defendants committed fraud in obtaining FDA approval for their drugs, through deceptive statements or
the withholding of relevant information, 2) claims for
those drugs were submitted to and paid by government
payors, 3) government payors relied upon the drugs’ FDA
approval in making their decision to pay, and therefore 4)
all claims paid by the government payors were converted
to false claims by virtue of the fact that FDA approval was
obtained by fraud.17 Here, the Formulary Allegations
17

See, e.g., U.S. ex rel. Feldstein v. Organon, Inc., No. CIVA.07-CV2690(DMC), 2009 WL 961267, at *11 (D.N.J. Apr. 7, 2009), aff'd, 364
F. App'x 738 (3d Cir. 2010) (“Nonetheless, Relator's claim is that Defendants committed fraud when it obtained approval of Raplon® and
as a result, all claims for payments from the Government for Raplon®
were illegitimate. The fraud at issue allegedly took place when Organon obtained approval for Raplon® and not when claims were submitted to the Government.”); United States ex rel. D'Agostino v. EV3,
Inc., 153 F. Supp. 3d 519, 538–39 (D. Mass. 2015), aff'd sub nom.
D'Agostino v. ev3, Inc., 845 F.3d 1 (1st Cir. 2016) (“In broad generalizations, D'Agostino alleges that all Axium devices on the market
were defective and therefore, any claim for Medicare reimbursement
involving Axium was false. With regard to Onyx, D'Agostino returns
repeatedly to the theme that, but for defendants' misrepresentations,
the FDA would not have approved Onyx in the first instance. In another iteration of this argument, D'Agostino speculates that, had the

177a
state an analogous case, namely that Defendants fraudulently induced state formulary committees to place Plavix
on their respective state PDLs, which resulted in the automatic reimbursement by government payors of false
claims for Plavix submitted by prescribers.
In the wake of Escobar, the First Circuit Court of Appeals in D’Agostino v. ev3, Inc., 845 F.3d 1 (1st Cir. 2016),
became the first federal appellate court to consider a
“fraud-on-the-FDA” FCA theory on the merits, and
soundly rejected it as outside the scope of the statute.18 I
find the First Circuit’s opinion persuasive that Relator’s
fraud-on-the-formulary-committee theory similarly fails
and should be dismissed. In D’Agostino, the relator
claimed that defendants made fraudulent representations
to the FDA in seeking approval for their medical device,
the device was approved, and Medicare later made payments reimbursing the cost of the device in reliance upon
the device’s FDA approval. Id. at 7. The First Circuit observed that because CMS and not the FDA actually paid
all claims in the case and FCA liability attaches to “false
or fraudulent claims for payment,” relator was required
to allege a causal link between the CMS payments and the
alleged fraudulent representations made to the FDA. Id.
at 7. The relator alleged that FDA approval is a precondition to CMS reimbursement for medical devices and that
the misrepresentations to the FDA “could have” influenced the FDA to grant approval that it otherwise would
not have. Ibid.

FDA known of all of the alleged hidden defects, it would have withdrawn its approval of Onyx or ordered its recall.”).
18
The Third Circuit in U.S. ex rel. Feldstein v. Organon, Inc., 364
F. App'x 738 (3d Cir. 2010), was presented with the dismissal of a
fraud-on-the-FDA theory by the district court below for failure to
plead fraud under Rule 9(b), but affirmed dismissal on other grounds
without considering the theory’s viability under the FCA.

178a
The First Circuit rejected the relator’s allegations as
insufficient to plead a violation of the FCA on three
grounds, with the third playing the decisive role in the
Court’s decision. First, the Court noted that the relator’s
complaint failed to plead causation on its face because the
allegations that defendants’ fraudulent representations
“could have” influenced the FDA were plainly not the
same as alleging that the representations did influence
the FDA and thereby cause the FDA to grant approval
and cause CMS to pay false claims on the basis on that
approval. Ibid. This facial deficiency is not an issue in the
4AC, because Relator has included at least conclusory allegations that the state formulary committees would not
have listed Plavix on their PDLs had they been aware of
Defendants’ alleged misrepresentations about Plavix’s efficacy relative to aspirin.
Second, the First Circuit noted that the relator argued, relying on 31 U.S.C. § 3729(b)(4), that the fraudulent misrepresentations to the FDA were nevertheless
material to CMS’s payment decision because they had a
“natural tendency to influence” or were “capable of influencing, the payment or receipt of money or property.” Id.
The First Circuit observed that the relator’s argument
likely misconstrued the FCA’s “demanding” materiality
standard after Escobar. The court then went on to note
that “[m]oreover, the FCA requires that the fraudulent
representation be material to the government’s payment
decision itself. The fact that CMS has not denied reimbursement for Onyx in the wake of D’Agostino’s allegations casts serious doubt on the materiality of the fraudulent representations that D’Agostino alleges.” D’Agostino, 845 F.3d at 7 (citing Escobar 136 S. Ct. 2003-04
(“[I]f the Government regularly pays a particular type of
claim in full despite actual knowledge that certain requirements were violated, and has signaled no change in
position, that is strong evidence that the requirements are

179a
not material.”)). The same concerns about materiality
arise in this case because of the 4AC’s failure to plead that
any government Medicaid payor actually stopped reimbursing for Plavix or took other remedial action in the
wake of gaining actual knowledge of the allegations of
fraud-on-the-formulary committees19 in this very-wellpublicized, high-profile litigation.20
Third and finally, however, the First Circuit in
D’Agostino found that while materiality might have been
lacking, the separate FCA element of causation could not
be alleged in the relator’s fraud-on-the-FDA theory as a
matter of law. D’Agostino, 845 F.3d at 8 (“The defect in
D’Agostino’s claim is not a mere flaw in the complaint’s
choice of words.”). The First Circuit found that the relator’s complaint failed to allege that in the six years since
the relator first revealed the alleged fraud the FDA had
undertaken any action to revoke or reconsider the approval of defendants’ device. Ibid. The court concluded
that
[t]he FDA’s failure actually to withdraw its approval of Onyx in the face of D’Agostino’s allegations precludes D’Agostino from resting his
19

The Seventh Circuit, the circuit of the transferor court in this
case, recently came to a similar conclusion. United States v. SanfordBrown, Ltd., 840 F.3d 445, 447–48 (7th Cir. 2016) (explaining, on remand from Escobar, that materiality looks to the effect on the likely
or actual behavior of the recipient of the alleged misrepresentation,
and affirming the grant of summary judgment to defendants where
Relator alleged only that the government was legally entitled to deny
payment on the basis of defendants’ regulatory noncompliance, but
failed to show that the government in fact administered penalties or
terminated payment upon receiving actual knowledge of the alleged
fraud (quotations omitted) (emphasis in original)).
20
Relator’s arguments that government payors and state formulary
committees might lack actual knowledge of the alleged fraud are unconvincing, particularly as the Relator admits, roughly half of all state
attorney general offices are active participants in the litigation.

180a
claims on a contention that the FDA’s approval
was fraudulently obtained. To rule otherwise
would be to turn the FCA into a tool with which
a jury of six people could retroactively eliminate
the value of FDA approval . . . . The FCA exists
to protect the government from paying fraudulent claims, not to second-guess agencies’ judgments about whether to rescind regulatory rulings.
D’Agostino, 845 F.3d at 8. In short, the court found that
the regulatory agency’s real-world conduct after having
obtained actual knowledge of the fraud must be alleged as
evidence in any FCA fraud-on-the-agency style claim because failure to do so would require the court to reconsider and potentially reverse the agency’s regulatory ruling on a basis that the agency itself explicitly has chosen
not to act upon. The First Circuit was also persuaded in
its position by problems in the implementation of any alternative standard for FCA causation in such cases.
Practical problems of proof also inform our conclusion. How would a relator prove that the FDA
would not have granted approval but for the
fraudulent representations made by the applicant? Would competing experts read someone’s
mind? Whose? What if former officials no longer
in government were of one view, and current officials of another? These and similar questions all
support our position that the absence of some official agency action confirming its position and
judgment in accordance with the law renders
D’Agostino’s fraud-on-the-FDA theory futile.
Id. at 9.
The same considerations arise in this case in the context of Relator’s attempt to have this Court second guess
the decisions of state formulary committees to list Plavix
on their respective states’ PDLs. The 4AC does not allege

181a
that any state formulary has delisted Plavix in the wake
of this litigation. Were Relator ultimately to prevail on her
Formulary Allegations in this case, the jury would have to
have find that defendants’ alleged misrepresentations to
formulary committees caused those committees to list
Plavix and that the committees would not have listed
Plavix on their state PDLs in the absence of those misrepresentations, despite the fact that once the formulary
committees themselves actually became aware of the alleged misrepresentations, they took no action to reverse
their prior decision. The problems of proof also weigh
heavily upon this Court. In the only specific incident of alleged misrepresentations to formularies in the Complaint,
a representative from Sanofi is alleged to have spoken
during the public comment period during an Idaho formulary committee meeting and misrepresented the results of
a clinical trial. 4AC ¶¶ 94, 95. Relator alleges, without specific factual support that “[b]ased on this information, the
committee approved Plavix for inclusion on the formulary.” 4AC ¶ 96. As in D’Agostino, questions arise as to
whether present and former formulary committee members who made the Plavix PDL listing determination in
Idaho, and every state, would need to be deposed and
brought to testify at trial, or competing experts would hypothesize about what an objective physician or pharmacist
member of a formulary committee schooled in the applicable state of the art at the time Plavix was considered for
listing would have done with knowledge of the alleged
fraud, or even which committee members from which time
periods opinions should be afforded decisive weight, given
that Plavix could have been listed or delisted at any time
between its entry into the market and the revelation by
Relator of the alleged fraud. In short, although it is sufficient for this Court to observe that Relator’s fraud-onthe-formulary committee (or fraud-in-the-inducement)
claim does not conform to any theory of FCA liability recognized by the Third Circuit, the Court is persuaded that

182a
the analogy to the First Circuit’s rejection of “fraud-onthe-FDA” theories of FCA liability for failure to plead
causation in the absence of some agency action, provides
further support for this conclusion.
Accordingly, Relator’s Formulary Allegations in the
4AC do not state a claim for fraud- in-the-inducement or
other cause of action under the federal FCA, and Counts
I and II of the 4AC are dismissed. For the same reasons,
the state FCA Prescriber Allegations will also be dismissed as discussed, infra.
C. State FCA Claims
In Dickson III, this Court dismissed the state FCA
Prescriber and Formulary Allegations in parallel with
their federal counterparts. In their present motion to dismiss the 4AC, Defendants argue that “Relator’s claims
under . . . the false claims and Medicaid claims statutes of
the 24 Participating States are substantively similar to
and/or track the language of the federal FCA[,] [and that]
[t]hese claims must be dismissed, as they were before, for
all the reasons set forth above.” Mot. 17. Relator acknowledges that her claims under the state FCAs are subject to
the same reasoning as those under the federal FCA, and
opposes on the same grounds. Opp. 34 (“Defendants incorporate their FCA arguments in moving for dismissal
of Relator’s state-law claims. These claims survive for the
reasons stated above [in the context of the federal
FCA].”). In light of the briefing of the parties applying
their arguments under the federal FCA to the twentyfour state FCAs, this Court concludes that the same reasons stated above for the dismissal of Counts I and II —
under both the Prescriber and Formulary Allegations —
compel dismissal of the state FCA claims, Counts III
through XXVI.
Finally, in their Motion, Defendants identify five
state false claims acts under which Relator brings suit

183a
which became effective after March 30, 2005, the date to
which the Court found Relator’s claims to extend under
the applicable statutes of limitations, and move to limit
these claims to conduct taking place after the statutes’ effective dates. The Court having dismissed the state FCA
claims, Defendants’ motion to restrict the retroactive effect of these five statutes is denied as moot.21
V. CONCLUSION
For the reasons stated above, the Defendants’ Motion
to Dismiss the 4AC is GRANTED, and Defendants’ motion to restrict the retroactive application of the five state
FCAs, which became effective after March 30, 2005, is denied as moot.
Dated: 6/27/2017

21

/s/ Freda L. Wolfson
The Honorable Freda L. Wolfson
United States District Judge

In any event, Relator consented to the relief requested in Defendants’ non-retroactivity motion. Opp. 35 n. 51.

184a
APPENDIX L

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
In re PLAVIX MARKETING,
SALES PRACTICE AND PRODUCTS LIABILITY LITIGATION
(NO. II)
UNITED STATES OF AMERICA, et al., ex rel. ELISA DICKSON,
Plaintiffs,
v.
BRISTOL-MYERS SQUIBB CO.,
et al,

)
)
)
MDL
) DOCKET NO.
)
2418
)
) Civil Action
) No. 13-1039
) (FLW) (LHG)
)
)
) AMENDED
)
ORDER
)

Defendants.

THIS MATTER having been opened to the Court by
Lowenstein Sander LLP (Gavin J. Rooney, Esq., appearing), counsel for Defendants Bristol-Myers Squibb Company, Sanofi- Aventis U.S. LLC, Sanofi US Services Inc.,
and Sanofi-Synthelabo, Inc. (“Defendants”), on a motion
to dismiss the Fourth Amended Complaint (“4AC”) of Relator Elisa Dickson (“Relator”); it appearing that Relator,
through counsel Christopher Cueto, Esq., opposes the
motion; the Court having reviewed the submissions of the
parties in connection with the motion; pursuant to Fed. R.
Civ. P. 78; for the reasons set forth in the Opinion being
filed on even date; and for good cause shown;
IT IS on this 27th day of June, 2017,

185a
ORDERED that Defendants’ Motion to Dismiss is
GRANTED, and Relator’s Fourth Amended Complaint is
DISMISSED.
/s/ Freda L. Wolfson
Hon. Freda L. Wolfson, U.S.D.J.

